<html>
<title> - HOMELAND SECURITY: KEEPING FIRST RESPONDERS FIRST</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
           HOMELAND SECURITY: KEEPING FIRST RESPONDERS FIRST

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   VETERANS AFFAIRS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 30, 2002

                               __________

                           Serial No. 107-220

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003

87-386 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
JOHN SULLIVAN, Oklahoma                  (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

 Subcommittee on National Security, Veterans Affairs and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
ADAM H. PUTNAM, Florida              DENNIS J. KUCINICH, Ohio
BENJAMIN A. GILMAN, New York         BERNARD SANDERS, Vermont
ILEANA ROS-LEHTINEN, Florida         THOMAS H. ALLEN, Maine
JOHN M. McHUGH, New York             TOM LANTOS, California
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
DAVE WELDON, Florida                 DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                Thomas Costa, Professional Staff Member
                           Jason Chung, Clerk




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 30, 2002....................................     1
Statement of:
    Baldwin, Mr., first selectman................................    38
    Berry, James, police chief, Trumbull Police Department.......    64
    Buturla, Captain, executive officer, Division of Protective 
      Services...................................................   141
    Clarke, Paul, executive director of operations, EMS 
      Institute, Stamford Health System..........................    95
    Craig, Daniel, regional Director, Federal Emergency 
      Management Agency..........................................   118
    Cugno, Adjutant General William, Connecticut Military 
      Department.................................................   130
    De Martino, Thomas, director of Emergency Preparedness.......    38
    Docimo, Frank, special operations officer, Turn of River Fire 
      Department.................................................    93
    Farrell, Diane, first selectwoman, Westport, CT..............    10
    Harris, Harry, bureau chief, Connecticut Department of 
      Transportation.............................................   150
    Knopp, Alex, mayor, Norwalk, CT..............................    23
    Maglione, Mr., fire chief, Bridgeport Fire Department........    68
    Newman, Paul, captain, Stamford Fire Headquarters............    84
    Schwab, Dr. William, president, Norwalk Community College....    32
    Yoder, Alan, EMS coordinator, Westport EMS...................   103
Letters, statements, etc., submitted for the record by:
    Berry, James, police chief, Trumbull Police Department, 
      prepared statement of......................................    66
    Buturla, Captain, executive officer, Division of Protective 
      Services, prepared statement of............................   143
    Clarke, Paul, executive director of operations, EMS 
      Institute, Stamford Health System, prepared statement of...    98
    Craig, Daniel, regional Director, Federal Emergency 
      Management Agency, prepared statement of...................   122
    Cugno, Adjutant General William, Connecticut Military 
      Department, prepared statement of..........................   133
    De Martino, Thomas, director of Emergency Preparedness, 
      prepared statement of......................................    41
    Farrell, Diane, first selectwoman, Westport, CT, prepared 
      statement of...............................................    15
    Harris, Harry, bureau chief, Connecticut Department of 
      Transportation, prepared statement of......................   153
    Knopp, Alex, mayor, Norwalk, CT, prepared statement of.......    27
    Maglione, Mr., fire chief, Bridgeport Fire Department, 
      prepared statement of......................................    71
    Newman, Paul, captain, Stamford Fire Headquarters, prepared 
      statement of...............................................    87
    Schwab, Dr. William, president, Norwalk Community College, 
      prepared statement of......................................    35
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     8
    Yoder, Alan, EMS coordinator, Westport EMS, prepared 
      statement of...............................................   106

           HOMELAND SECURITY: KEEPING FIRST RESPONDERS FIRST

                              ----------                              


                         TUESDAY, JULY 30, 2002

                  House of Representatives,
Subcommittee on National Security, Veterans Affairs 
                       and International Relations,
                            Committee on Government Reform,
                                                       Norwalk, CT.
    The subcommittee met, pursuant to notice, at 1:15 p.m., at 
the Norwalk Community College, East Campus Auditorium, 188 
Richards Avenue, Norwalk, CT, Hon. Christopher Shays (chairman 
of the subcommittee) presiding.
    Present: Representatives Shays and Tierney.
    Also present: State Representatives Boucher, Duff, San 
Angelo, Stone, and State Senator McKinney.
    Staff present: Lawrence Halloran, staff director and 
counsel; J. Vincent Chase, chief investigator; Dr. Nicholas 
Palarino, senior policy advisor; Kristine McElroy and Thomas 
Costa, professional staff members; Sherrill Gardner, detailee 
and fellow; and Jason M. Chung, clerk.
    Mr. Shays. Good afternoon. I'd like to welcome our 
witnesses and our guests to this hearing of the National 
Security, Veterans Affairs and International Relations 
Subcommittee and Government Reform Committee.
    Mr. Tierney, my colleague from Massachusetts, and I are 
conducting this hearing and invited Members from both sides of 
the--from the State House and State Senate. We will be going 
pretty much by the 5-minute rule. We're going to invite our 
witnesses to make statements. We will allow them to go over 
their 5-minute rule.
    Ms. Farrell, you are right over there.
    Ms. Farrell. Oh, thank you, sir.
    Mr. Shays. At least you made it. You know, you can sit 
right there. The other witnesses will move down and make space.
    We will be going by the 5-minute rule and we're going to 
invite our colleagues from the State House to jump in as well 
if they have some questions.
    In the course of thirty hearings on terrorism issues, our 
subcommittee has learned this hard lesson: We are fighting a 
war for which we are not yet fully prepared. Despite far 
greater awareness of the threats since September 11th and 
despite some progress toward improved readiness, the tragic 
fact remains many first responders to the site of a terrorist 
attack today would also be the second wave of victims.
    Without access to sensitive intelligence reports, without 
rapid detection capabilities and without realistic training, 
local police, fire fighters and emergency medical personnel 
arrive at the front lines armed only with dedication and 
bravery, and a tremendous amount of expertise. Too often, they 
face the potential horrors of terrorism without the tools they 
need to survive and prevail.
    We called this hearing ``Keeping First Responders First'' 
because the men and women sworn to uphold the law and protect 
our lives and property have to be first on the scene. They also 
have to be first when it comes to the planning, equipment 
purchases, communication upgrades, and training exercises they 
need to do their vital work.
    A recent after-action report on September 11th rescue 
efforts at the Pentagon gleaned more than 200 lessons learned 
from the incident. Over 200 lessons. Many of those lessons 
involved communications lapses, dead cell phones, clogged 
frequencies and incompatible radios that made it difficult to 
coordinate response units. A media report yesterday indicated 
some New York fire fighters died on September 11th because they 
did not hear warnings to evacuate the collapsing tower. The 
alert was sent over the police radio. The fire department used 
a different channel.
    As we move toward creation of a new Federal Department of 
Homeland Security, Congress, the administration, States and 
localities need to be talking on the same channel about meeting 
the needs of America's first responders.
    We have three panels of witnesses this afternoon. 
Appropriately, we will hear from our local officials first. 
State and Federal officials will then give their testimony. We 
appreciate the willingness of our State and Federal witnesses 
to waive normal protocol and proceed in that order. We are 
actually talking about first responders from State and Federal 
Governments and I thank them for that.
    All our witnesses bring valuable experience and important 
perspective to these issues. We appreciate their willingness to 
join us today and we truly look forward to their testimony.
    [The prepared statement of Hon. Christopher Shays follows:]
    [GRAPHIC] [TIFF OMITTED] T7386.001
    
    [GRAPHIC] [TIFF OMITTED] T7386.002
    
    Mr. Shays. And let me say I was asked by the media will 
what we do here today result in any legislation. My first 
response was to say it may result in how we allocate resources, 
but then my second response was clearly that it will because 
the hearing we had in Bridgeport with Mr. Tierney a few years 
ago resulted in legislation.
    What we will learn today may surprise us. It may have us 
move in a direction we hadn't thought or it may reinforce what 
we already have spent a lot of time learning. But it will 
result in a change in how we operate in Congress, what we 
legislate, how we legislate it, and how we appropriate those 
funds.
    I'd like to give a personal warm welcome to my colleague 
Mr. Tierney. He has been here before. He was in Bridgeport for 
that major meeting we had with over 200 first responders and we 
went through that trial and practice of imagining what we would 
do for first responders to a chemical attack on an Amtrak Train 
in Bridgeport. That was a fascinating experience to me, and I 
think that the State deserves credit for encouraging that kind 
of practice because I'm certain it's made us all better 
responders. It certainly helped us.
    But Mr. Tierney was there and I appreciate him being here 
now and I appreciate his equal partnership in this effort.
    Mr. Tierney.
    Mr. Tierney. Well, thank you, Mr. Chairman.
    I want to thank the Mayor and all the other elected 
representatives for being here today and for again inviting me 
to this part of Connecticut. I look out and I see your first 
responders as well as all the other interested people and I 
know why Chris is so proud to represent this area.
    Chairman Shays, I would thank you for holding this 
particular meeting, as you have so many others in the past.
    Among the images that seared the Nation's memory of the 
horrific terrorist attacks of September 11th were those 
hundreds of first responders rushing into fiery buildings. They 
were heroically sacrificing their lives to save others.
    Since that time, we have worked together on this 
subcommittee, and I was going to say in a bipartisan way, but 
you should all be proud of the fact that it is in a nonpartisan 
manner. That is a manner that Chris Shays brings to Congress in 
a unique way that few, if any, others do with the ability to 
pull his committee and the Members that he works with around an 
issue focusing them on the fact that this is for the betterment 
of the Nation and for our respective districts and setting 
aside ideology and other factors that may come in. His 
leadership does that in a great way.
    The subcommittee has been marshaling ideas of the country's 
best resources and skills, how we coordinate efforts to fight 
terrorism or to streamline government or to make America safer. 
We need to do this for the families who watched loved ones on 
September 11th and in the October anthrax attacks. We need to 
do it for the American people who expect us to protect them, 
and we need to do it for our children so that future 
generations can grow up in a free and open society.
    I've commended the chairman before for his work on this 
issue and I want to reiterate the fact that it was long before 
September 11th. For some 25 to 30 hearings prior to that, 
several years, this subcommittee on National Security has had a 
series of public hearings on the issue of Homeland Security. 
Now, whether or not legislation will come from this hearing, I 
think everybody should know that a lot of the Homeland Security 
legislation that Congress is currently considering has been 
formed by the work this committee did under the leadership of 
Chairman Shays.
    A lot of time has been spent on making sure that the 
Federal Government and the State government and the local 
government communicate well, coordinate their resources, and 
work together to be ready to deal with any sort of a crisis, 
and that happens to fall upon the many hearings this 
subcommittee held and a lot of the lessons that we've learned, 
including that experience that we had a couple of years ago 
down here on the tabletop exercise from which we learned an 
incredible amount and hopefully have been keeping that in mind 
as we fashion legislation moving forward.
    These committee hearings have not been fluff. They've not 
been full of grandstanding. That wouldn't be the chairman's way 
and it certainly wouldn't be appropriate. We've heard about 
medical facilities and first responder agencies and the 
challenges they face from sustaining hospital operations in a 
chemical or biological environment, providing radios, 
physicians and nurses to expanding surge capacity for public 
health systems to purchasing decontamination equipment. We've 
heard from State officials the words that public health has not 
been at the table in Federal planning. Since September 11th and 
the anthrax attacks of October 2001, Congress has taken steps 
to address those issues and I suspect that they may more as a 
result of this hearing and others to follow.
    Two key areas we've heard mentioned, communication and 
resources. As we look to first responders for solutions to 
Homeland Security needs, all parties of Homeland Security from 
Federal agents to local first responders must communicate with 
one another in ways to save lives and protect civil liberties. 
Whether that's highways or ports, nuclear facilities, office 
buildings or landmarks, our local first responders need to know 
how they will receive intelligence and what resources they will 
have to help them act on this information in order to protect 
the American people.
    By resources I include direct Federal assistance directly 
to local first responders. All acts of terrorism are local, so 
each of our communities must be fully prepared in crisis 
response and consequence management. This requires some 
national preparedness and a response plan that builds upon but 
does not undermine the integrity of existing Federal, State, 
local partnerships such as the Fire Act and the COPS programs. 
It means listening to local first responders, respecting 
community concerns, and finding innovative solutions to these 
challenges.
    Mr. Chairman, these issues are not limited to this 
district. I know my district in Massachusetts has similar 
challenges as well as other areas throughout the country. My 
first responders tell me we appreciate your rhetoric, but we 
need your resources. I look forward to hearing an update from 
the officials here as to the progress
and I hope we can continue to ensure the attention in 
Washington is directed toward the urgent needs of State and 
local first responders.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. John F. Tierney follows:]
    [GRAPHIC] [TIFF OMITTED] T7386.003
    
    Mr. Shays. Thank you for that. I always appreciate your 
gracious words.
    I'd like to welcome Representative Ron San Angelo from 
Naugatuk, Senator John McKinney from Florida, as well as 
Representative Jack Stone from--I said Florida. Forgive me. 
[Laughter.]
    Representative Jack Stone from Fairfield, as well as 
Representative Boucher from Milton. Sometimes I call John 
Stuart, so I guess he can have me call him from Florida.
    We have Representative Bob Duff as well, and we welcome you 
to participate, Representative Duff. He's a new member and a 
very effective new member. Welcome.
    Before we swear you in, I just want to get some--and 
announce our panel, I just would like to get some housekeeping 
out of the way. I'd ask for unanimous consent that all members 
of the subcommittee be permitted to place an opening statement 
on the record and that the record remain open for 3 days 
without purpose. Without objections, so ordered.
    I ask for the unanimous consent that all witnesses be 
permitted to include their written statements in the record. 
Without objection, so ordered.
    I ask unanimous consent that the written statements of 
Natalie Ketchum, First Selectwoman; Ken Flate, First Selectman 
of Fairfield; Christopher Lynch, Chief of Police, New Canaan; 
Marge Smith, Eastern Volunteer Emergency Medical Services; 
Richard Climates--am I saying his name correctly?
    Ms. Farrell. Climates.
    Mr. Shays [continuing]. Climates, Southwestern Region, 
submission statements be placed in the record, and without 
objection, so ordered.
    I would also say that we will--I think Mr. Tierney has a 
plane back to Massachusetts----
    Mr. Tierney. Sometime.
    Mr. Shays [continuing]. Sometime today and I'm not going to 
ask him to miss his plane. But we have three fairly full 
panels. If, in fact, we--at the end I'm going to invite anyone 
here to stay who has a comment and make a comment for the 
record. So you'll be able to make a comment based on your 
observations and/or ask a question if you would like to do 
that, and so that will be available. I'm not sure that--I'm not 
sure when that will be, but if you're willing to wait, we'll 
stay.
    We have as our first panel a very fine number of witnesses 
representing--basically they're elected officials in our local 
communities and also the University of Norwalk. So let me just 
announce in this order Mr. Knopp, the Honorable Alex Knopp, 
mayor of Norwalk, a former State representative for a number of 
years and a new mayor in Norwalk and doing an outstanding job. 
He's joined by first selectwoman from Westport, Diane Farrell, 
who also has kind of almost become the dean of this group and 
is just as well a superb elected official.
    We are also joined by Mr. Baldwin, who is a newly elected 
member. I enjoyed working with him as well and all of your 
communities are in good hands. Mr. DeMartino, the director of 
emergency preparedness for New Canaan, is here, and we have Dr. 
William Schwab, who is president of Norwalk Community College. 
And I consider this one of the most outstanding schools, 
universities, colleges. Clearly the best community college 
besides Housatonic. [Laughter.]
    So what we do, I would have to as a disclaimer say we swear 
in all our witnesses and we'll investigate you and swear in all 
our witnesses except for one. My colleagues might have some 
sympathy. I chickened out when Senator Berg came to testify. I 
didn't swear him in, but everyone else has to.
    If you would all rise and raise your right hands.
    [Witnesses sworn.]
    Mr. Shays. Note for the record all of our witnesses have 
responded in the affirmative.
    Mr. Knopp, I'm going to have you go first. And, Doctor, I'm 
going to have you go second. Mr. DeMartino, I'll have you go--
I'd like you to--you need to go first?
    Ms. Farrell. I have a WSCC meeting.
    Mr. Shays. (Indiscernible.).
    Ms. Farrell. (Indiscernible.).
    Mr. Shays. You know what? A gentleman from Norwalk is a 
gentleman (indiscernible). So we'll let you go first.
    Ms. Farrell. Are you sure about that?
    Mr. Shays. Do you have that same meeting?
    Mayor Knopp. No.
    Mr. Shays. OK. Then if you don't mind, we're going to have 
you give your testimony. You're nice. You come in before your 
meeting rather than afterwards.
    Ms. Farrell. I appreciate that.
    Mr. Shays. Go for it.
    Ms. Farrell. OK. All right.
    Mr. Shays. Now, let me understand something. Do we have an 
amplification of our witnesses? Is that an amplification?
    Unidentified Speaker. Yeah.
    Mr. Shays. All right. WSCC is important, but that's the one 
you got to speak to.
    Ms. Farrell. OK.
    Mr. Shays. Sorry. We don't give you much room.

  STATEMENT OF DIANE FARRELL, FIRST SELECTWOMAN, WESTPORT, CT

    Ms. Farrell. That's all right. That's OK.
    All right. Good afternoon to the panel and our very 
esteemed visitors. And I must say I'm delighted, Mr. Chairman, 
that you've included members of the State legislature because 
while we are here speaking to you as first responders, the 
State's involvement is critical. Its financial help, its point 
of perspective is critical to this entire issue. So I am 
delighted to be here and I do thank you.
    Your letter was very specific and there was a paragraph 
that you basically articulated five questions and points that 
you asked us to address. So that's what I'm going to do this 
afternoon. I would also say that as part of the backup that 
I've provided, I do have written responses from our police and 
fire departments and our EMS from Westport addressing 
directly----
    Mr. Shays. We'll make it a part of the record.
    Ms. Farrell. But I am delighted they have participated as 
well, at least in writing, and I encourage you to take a look 
at it.
    The first point that you had in that critical paragraph had 
to do with changes in domestic preparedness. And in that regard 
I did want to begin by saying that Westport has maintained a 
very high level of emergency preparedness for decades. We are a 
New England coastal community and we're certainly used to 
natural disasters. We respond quickly to rescues, evacuations, 
and mitigation efforts. Our crews also routinely train for 
other types of disasters. Since we have both I-95 and Merritt 
Parkway going through Westport, we have had incidents in that 
regard, and we also have the Metro North Railroad system.
    Since September 11th what's changed for us is there's 
clearly a greater need to prepare for weapons of mass 
destruction events. And that would mean biochemical. It would 
also mean nuclear.
    I should also tell you that we have not waited for support 
coming from New Hartford or the Federal Government, but that 
upon the experience of September 11th we did go forward and 
appropriate funds through our own taxpayers to provide bio-
hazard suits for police and EMS. Fire, of course, are covered 
as responders for bio-hazard emergencies.
    What we learned though--in fact, it was a wonderful phrase 
that was given by a police captain in Stamford when we met 
regionally, and that was that she was tired of the police being 
canaries. And of course what she meant by that is if you're 
dealing with a weapons of mass destruction event, you have a 
criminal aspect to this that does require police response. You 
also of course just need police and EMS personnel there to 
respond to health emergencies, as well as any kind of other, 
you know, public--keeping the public away from the site kind of 
thing.
    So we did make the purchase of suits. These suits, however, 
have a limited shelf life. They will need to be replaced. 
Whether they're ever used, and obviously we hope they're never 
used, but at some point they're going to have to be replaced 
one way or the other. So we are going to face that expense once 
again.
    The second point was the effectiveness of Federal programs 
to equip and train first responders. I'm sorry to say that in 
Westport right now as plans are unfolding, there are no dollars 
that are directly going to come to our town to provide for 
equipment or training. In fact, if I'm correct, right now I'm 
not sure that there are dollars allocated for training at all. 
They seem to be mostly in the area of equipment.
    This is a real problem. I understand that we're a midsize 
town. I understand that we don't happen to have an attractive 
target. However, given the fact that we're 50 miles from New 
York City and within the distance of two different nuclear 
power plants and we're in a very congested area, it would seem 
that these midsize towns, especially here in Fairfield County, 
ought to be given some consideration.
    What's planned right now, as we understand it, is that the 
State intends to provide equipment to the two major cities in 
our region, Stamford and Bridgeport, and I certainly don't 
disagree with that plan. And we do have mutual aid agreements 
among ourselves. We've had it for many years and we've recently 
reaffirmed.
    The concern is this though. When you are talking about a 
large-scale event or even just a mass evacuation from 
(indiscernible) or New York City, is it realistic to assume 
that the personnel they're going to have in either Stamford or 
Bridgeport are going to be able to respond to the Westports, to 
the New Canaans, to the Norwalks on a timely basis. And I think 
that's something you have to really begin to consider, again 
thinking about where we live with the two highways.
    And I also remind you that while we are considered small to 
midsize towns, you know, with the two bookends of the State, 
but when you add Bridgeport and Stamford to all of our 
municipalities, the Miltons, the Fairfields, etc., we're 
actually 19.4 percent of the State of Connecticut. We would 
have a total population of 661,163 people. So not 
insignificant.
    We have as the next point adequacy of emergency response 
plans as relates to nuclear, radiological, chemical and 
biological threats. Our responders have been well trained to a 
point, as I mentioned previously. However, the criminal nature 
of weapons of mass destruction events do add to their 
complexity. I think this is something we really have to look at 
from a law enforcement standpoint.
    You know, previously we had experiences with anthrax. Right 
after the initial anthrax letters were received, every 
municipality was getting phone calls, you know, suspicious 
white powder, suspicious mail, etc. Well, where you would sit 
down in a biohazardous event and you would deploy the fire 
department because that is the response, that is their 
training, you can't do that. They have to be accompanied by 
police because you don't know the nature of what this 
particular incident may or may not be and it takes more 
personnel and it takes a different kind of acute awareness of a 
situation that you're not just necessarily dealing with a 
simple truck spill. There's nothing simple about a hazardous 
material truck spill, but it's even more complex than that. So 
I think you really have to add that critical component.
    I will also say that Westport made a conscious decision on 
its own to purchase 50,000 doses of potassium iodide. Now, the 
State of Connecticut's current policy and I believe the Nuclear 
Regulatory Commission's current policy has been within a ten-
mile radius of where the event would take place. There are two 
things I would say. No. 1, we're only then talking about an 
event at an established nuclear power plant. When you begin to 
talk about nuclear bombs and other things, you can't really 
predict where a nuclear event is going to take place. So to 
simply draw a ten-mile circle around an established nuclear 
facility is good, but it's inadequate.
    I think the other thing you have to look at is if you study 
some of the events of Chernobyl a decade later, you will see 
that there are still higher incidences of certain forms of 
cancer that tend to relate back to radiation exposure that have 
exceeded the ten-mile limit.
    So we felt probably the only thing we could do as a 
municipality in terms of dealing with a nuclear threat was to 
at least try to provide dosage amounts that would handle the 
population in the town, which is 50,000, and then also to 
anticipate or assume that others could be, you know, in our 
municipality at the time of exposure.
    You also had the role of the Federal Department of Homeland 
Security in supporting first responders. And this I can't say 
clearly enough. We must, must have adequate funds for training 
and ongoing equipment replacement. And probably the single most 
important thing that we have to have and that we ought to be 
able to have on a fairly expedited basis is the creation of a 
seamless communication system that connects all emergency 
services on an inter-municipal basis. And, you know, from 
having read the most recent accounts of some of the analysis of 
the New York coordinations that a lack of communications, 
linkage in backbone led in part perhaps to some of the 
fatalities that were faced with the New York Fire Department, 
that is really, really crucial.
    I'm going to say it again. We've got to have money to 
train. We've got to have money for equipment and its 
replacement down the road, and we've got to have adequate 
communications to talk to each other both between towns, as 
well as in town.
    You also had quality and timeliness of threat information 
currently available to State and local officials. Back to 
communications, right now I don't think communications are as 
good as they could be. The word that I was trying to tactfully 
use is fractured.
    We tried--I know our police chief and our fire chief worked 
very hard and very diligently cooperating recently, as well as 
the State police and the FBI. However, I don't think that's a 
perfect communication system. I don't think I'm surprising 
anybody up here. And I'm not going to put anybody on the spot 
because, frankly, I don't think it's individuals. I think it's 
the entire process of communications that really needs to be 
reconsidered, but it's crucial.
    I will also add that our residents really don't find the 
color coded system to be all that helpful or adequate. I don't 
think I'm telling you anything new, but let's face it this 
color coding thing isn't going anywhere. And, frankly, since 
September 11th everyone has been on a bit of an edge and it's 
only a matter of whether the edge is a little sharper or a 
little duller depending on what we're hearing or what we're 
experiencing.
    So the last thing I'm going to say is this. Please look at 
us not as Westport, Norwalk, Trumbull, Milton as one little 
community. Consider what we are strategically. We are within a 
50-mile radius of New York City, which is clearly a target. We 
have a population that we know we cannot evacuate right now. We 
need to plan for what we can do for that population at any 
given moment. And we also have to recognize that tens of 
thousands of our population commute into New York City every 
day.
    So please when you are thinking about your district and 
lower third to a county and this part of Connecticut, remember 
that we are as much a part of the New York Metro area as we are 
the State of Connecticut. And so while, you know, we may look 
like just a town of 24,000, I think when you go just below the 
surface, it's a lot more complex than that.
    One final comment from your colleague, Representative--is 
it Tauscher?
    Mr. Tierney. Tauscher.
    Ms. Farrell. Tauscher from the 10th District in California. 
She gave a wonderful analogy by saying the first responders are 
the tip of the spear. Right now I'm here to tell you that the 
tip of the spear is fairly blunt, and I would hope that what 
you will do in the coming months and, you know, as soon as 
possible is work with us creatively and, you know, responsibly 
to get that tip of the spear as sharp as it possibly can be.
    Thank you very much.
    [The prepared statement of Ms. Farrell follows:]
    [GRAPHIC] [TIFF OMITTED] T7386.004
    
    [GRAPHIC] [TIFF OMITTED] T7386.005
    
    [GRAPHIC] [TIFF OMITTED] T7386.006
    
    [GRAPHIC] [TIFF OMITTED] T7386.007
    
    [GRAPHIC] [TIFF OMITTED] T7386.008
    
    [GRAPHIC] [TIFF OMITTED] T7386.009
    
    [GRAPHIC] [TIFF OMITTED] T7386.010
    
    [GRAPHIC] [TIFF OMITTED] T7386.011
    
    Mr. Shays. Thank you. My understanding is that you need to 
get on your way.
    Ms. Farrell. I do. I apologize.
    Mr. Shays. But I did just want to give you a compliment 
that is so deserved and that is that you have not waited for 
others to try to deal with this problem. And I know that we're 
going to have to work on a regional basis, but hats off to you 
for stepping in to it.
    Ms. Farrell. Well, I thank my colleagues because they've 
really shown a lot of regional cooperation on a variety of 
issues and this is no different than West Nile or 
transportation, and I'm just really honored to be working with 
the folks in the area, as well as yourself.
    Mr. Shays. Thank you. Thank you for making it to be here.
    Now, Mr. Knopp, you can welcome us and then we can welcome 
you, and thank you for your graciousness. You'll be staying for 
questions, right?
    Mr. Knopp. Absolutely. (Indiscernible). [Laughter.]
    Ms. Farrell. He grew up in Westport.
    Mr. Shays. Do you still live there or have parents that 
live there?
    Mr. Knopp. Sure.

          STATEMENT OF ALEX KNOPP, MAYOR, NORWALK, CT

    Mr. Knopp. Before I begin my remarks, let me first, 
Congressman Shays, welcome you and Representative Tierney to 
Norwalk, and thank you very much for holding this support and 
oversight hearing. I appreciate your inviting me to testify 
along with the other distinguished public officials from our 
region. And I want to thank President Schwab for his 
hospitality here at Norwalk Community College, and I want to 
also welcome my former colleagues of the General Assembly 
(indiscernible) and in the witness chair for the first time.
    I would also like to thank you, Congressman Shays, for your 
very humane efforts to secure appropriate support for many of 
the families in our communities who suffered personal losses on 
September 11th. It's very important to them and you did that in 
a very humane and appropriate fashion.
    Before I begin my remarks, I'd also indicate I'm 
accompanied today by Chief Verda of the Norwalk Fire Department 
and Chief Rilling of the Norwalk Police Department, who are 
sitting behind me, and I'm very, very proud to serve with them.
    Mr. Shays. They make you look good, sir.
    Mr. Knopp. Thank you.
    The message I wish to communicate to Members of Congress 
today is that while the President's National Strategy for 
Homeland Security released on July 16th properly acknowledges 
that cities are on the front lines in our national effort to 
secure America's homeland from terrorism, the Federal 
Government has not yet provided cities with the direct 
resources we need to successfully carry out this new mission.
    Therefore, I urge you to enact legislation to strengthen 
the partnership between America's mayors and the Federal 
Government by providing cities with the direct resources we 
need to improve emergency telecommunications, to obtain new 
technology, public safety equipment and to expand first 
responder training that will ensure that our cities will be 
safe and our citizens will live free from fear.
    Indeed the war has come to America's shores only 50 miles 
from Norwalk and made municipal first responders part of 
America's national security team. But as Mayor Menino of 
Boston, the President of the U.S. Conference of Mayors, said on 
July 16th, 10 months after the horrific attack of September 
11th, we are still awaiting Federal assistance to support our 
efforts to ensure that cities are prepared for and can respond 
effectively to any emergency.
    To date, Connecticut has received relatively little Federal 
funding for enhanced security. Last year we received just $2.6 
million from the Department of Justice Domestic Preparedness 
Equipment Grant Program. Those funds were distributed to the 
State's five largest municipalities, and of course the Groton-
New London area because of their nuclear power plants.
    If I may slightly correct Ms. Farrell's comments, this year 
the State's Office of Emergency Management anticipates 
receiving about $4.6 million from the Department of Justice, 
and Norwalk will participate in this grant as the sixth largest 
municipality in the State.
    Our share of this Preparedness Equipment Grant will include 
Level A, B and C suits for hazardous materials, hazardous 
detection equipment, $100,000 for a mass decontamination 
trailer that can also be used as a local command center, and 3 
portable and 1 mobile 800 megahertz radios to be used for 
command and control that will allow the chiefs behind me and 
the EMS director to have direct communications with the ITAC 
and ICAL frequencies, which are manned 24/7 by the State 
police.
    I'd like to compliment the State's Office of Emergency 
Management and the Adjutant General of Connecticut, Major 
Cugno, for preparing a comprehensive domestic preparedness 
strategy for these grants and for consulting with 
municipalities on their needs.
    But it's obvious that this equipment grant, as welcome as 
it will be, is by no means sufficient to meet our needs. Are 
four federally funded emergency telecommunications radios to be 
delivered more than 10 months after September 11th really an 
adequate response to the biggest emergency facing our country 
in the last 50 years?
    Like other municipalities, Norwalk has not waited for 
Federal funding, but has moved on its own with neighboring 
communities to enhance its first responder capabilities. Let me 
mention eight of the initiatives we've taken since September 
11th since I know that you're on a fact gathering mission here 
today.
    First, Norwalk adopted an Emergency Medical Services Plan 
that establishes performance standards for each segment of the 
city's emergency medical services team, including police, fire 
and Norwalk Hospital.
    Second, we've adopted an overall Emergency Medical Services 
Mass Casualty Response Plan to assist first responders.
    Third, we've adopted a Southwest Regional Mutual Aid 
Agreement that strengthens intertown aid agreements for EMS 
ambulance service.
    Fourth, we have worked to improve regional municipal 
cooperation. The chief elected officials, fire and police 
chiefs and others meet to exchange information. And during 
these meetings the priorities were identified as compatible 
telecommunications, equipment and training. And we have another 
meeting next week on August 6th.
    Fifth, we've worked to improve regional security 
coordination. The police and fire chiefs have followed up with 
the elected officials meeting and have formulated a 
comprehensive regional strategy. In particular, they've adapted 
a $20,000 grant program from Conn-DOT to purchase a number of 
the 800 megahertz radios to be stored in a central regional 
location for quick distribution in a time of crisis.
    Sixth, the police chiefs have developed a regional plan to 
deploy as many as 24 officers to any location to augment the 
baseline staffing of any community.
    Seventh, we're putting a lot of effort in Norwalk to 
enhance the school security plans. We have participated in the 
FEMA program to train school personnel to manage their 
facilities for up to 72 hours in the event of a disaster when 
first responders may not be able to succeed. And all of the 
costs for this training are paid by FEMA in Maryland, while 
Norwalk will pay the cost for training of education personnel 
in City Hall next month.
    Eighth, we've also developed a school emergency response 
plan. That means quick visual access for each school to provide 
a layout for emergency personnel, including where a gym or 
cafeteria or library are located if they have to come in from 
the outside.
    In terms of Federal legislation, I would just mention three 
priorities. First, we do need to connect the telecommunication 
systems used by police, fire and EMS, as all the articles after 
September 11th would indicate. Connecticut is far ahead of the 
game because unlike other States, we have designated an 800 
megahertz system of shared frequencies for emergency 
communications, and now our challenge is to obtain the hardware 
to utilize it effectively during a crisis.
    Second, provide direct funding for cities. First responder 
funding from the Federal Government should be provided directly 
to cities and towns. We're the first responders and we need the 
best training and equipment possible. The best approach would 
be to establish a Homeland Security Block Grant Program, which 
unfortunately the current first responder legislation in the 
Senate, Senate Bill 2664 does not authorize.
    And third, and I would just mention this in closing, when 
funding for training is provided, we believe that first 
responder Federal legislation should include funding for 
overtime. All training, for example, in the Norwalk Police 
Department is done on an overtime basis. The new training to 
prepare for forces against biological, chemical and nuclear 
attacks may result in unavoidable overtime expenses. And I say 
this as a Mayor who has cracked down the hardest in our city's 
history of overtime and reduced overtime budgets in both police 
and fire departments significantly. But now the bill, Senate 
Bill 2664 specifically forbids overtime funding. I urge you to 
give that a second look and to give municipalities the 
flexibility to use funds for overtime where overtime arises out 
of training first responders for mass disasters.
    In conclusion let me say that it is critically important to 
strengthen the partnership between mayors and the Federal 
Government on homeland security. This hearing is an important 
opportunity for you to hear local municipal officials, and by 
working together we can create the national effort we need to 
prevail.
    Thank you again for holding this hearing, coming to Norwalk 
and asking for our views on homeland security.
    [The prepared statement of Mr. Knopp follows:]
    [GRAPHIC] [TIFF OMITTED] T7386.012
    
    [GRAPHIC] [TIFF OMITTED] T7386.013
    
    [GRAPHIC] [TIFF OMITTED] T7386.014
    
    [GRAPHIC] [TIFF OMITTED] T7386.015
    
    [GRAPHIC] [TIFF OMITTED] T7386.016
    
    Mr. Shays. Thank you.
    I'm just going to go down the list.
    Thank you, Alex.
    Dr. Schwab.

 STATEMENT OF DR. WILLIAM SCHWAB, PRESIDENT, NORWALK COMMUNITY 
                            COLLEGE

    Mr. Schwab. Congressman Shays, Congressman Tierney, members 
of the State legislature, invited speakers and guests, I'd like 
to welcome you to Norwalk Community College. We're honored to 
serve as a venue for a very important and essential meeting, 
and that is how do we protect our communities more--even more 
than what we've done thus far.
    Mr. Shays. Dr. Schwab, I'm going to just interrupt you to 
say that the nicest and most----
    [Interruption by audience member.]
    Mr. Shays. I'd like to thank you for the extraordinary job 
that you do as University President, and I do think this is 
truly the finest community college that I'm aware of, and I say 
that with the knowledge that I have another community college 
which I'll say is the second finest. But this is a superb place 
and you bring tremendous energy and I thank you for your 
welcome and I appreciate your kindness.
    Mr. Schwab. Thank you, Congressman Shays.
    NCC is one of 1,200 community colleges in the United States 
and I believe that we're always playing a major role in 
educating those who President Bush refers to as the first line 
of defense against domestic terrorism; police, fire, emergency 
medical, and health care personnel. I would like to add one 
other thing, and I don't think there's been a lot of attention 
given to this, but this is computer security. We've expanded 
our role since September 11th by launching three new 
initiatives. We've created a Public Safety Academy. We 
developed a computer security degree, and we're putting 
together a Computer Security Institute.
    The Public Safety Academy would include law enforcement, 
fire and nursing and paramedics training. And I see First 
Selectwoman Farrell talked about the importance of training and 
I think that's a real role as a community college. We offer 
degrees and certificates in all those programs, but in 
addition, since September 11th we've offered emergency response 
team training for base fire and emergency medical personnel 
through a curriculum designed by the Connecticut Office of 
Emergency Management and through FEMA.
    Through partnering--I see the police and fire chiefs here, 
and we're partnering with them in Southwestern Connecticut to 
deliver first responder training, and this fall we'll 
inaugurate that by offering in-service certification courses to 
the police in the area departments.
    Our computer security degree. There's a dire need for 
professionals in computer security. We have a partnership with 
Western Connecticut State University and, in fact, 
(indiscernible) from Western Connecticut was here today. And 
it's one of the first undergraduate programs in the country in 
computer security.
    We've also cooperated with three other community colleges 
in the State and we're talking to Central Connecticut State 
University. We had a meeting with the University of New Haven, 
who has a renown program in forensic science and also in 
criminal justice. And we're also--the Director of Work Force 
Development and the Office of Work Force Competitiveness was 
down here last Friday along with representatives from Patel 
Institute that is doing great work for the State of Connecticut 
in making sure that the needs of the IT community are met. And 
so to reiterate, we need professionals in the field.
    What NCC would do is provide the first 2 years hands on in 
the laboratories and things of this nature, and then they'd 
move on to Western Connecticut and pick up the theoretical 
knowledge they need. I have talked with people in the area and 
in the State about what we're doing and I've heard responses 
such as we'd like to make this a gemstone of IT in the State of 
Connecticut, that is the computer security.
    We're well positioned. When you came in, if you looked at 
the big building across the street, that's our center for 
information technology. We want to be touted as the center for 
IT. And the reason we ended up building--or part of the reason 
we ended up building over there is through the work of 
Congressman Shays and his staff in securing a half a million 
dollars in Federal grants to equip it and to make sure it's 
done right.
    Mr. Shays. Representative Tierney said if he was 
representing you, you would have gotten a million. [Laughter.]
    Mr. Tierney. I noticed the building across the street is 
not that big. [Laughter.]
    Mr. Schwab. Touche.
    So we've really directed our efforts since September 11th. 
When you think about what's going on in computer security or 
the lack thereof, I remember a few years back Cornell students 
had hacked into--I think it was the Department of Defense 
computers. When you think about the advent of wireless and what 
that means for security, it's a huge issue.
    So our program that we developed, we're asking the National 
Security Agency to bestow their alma mater on this particular 
program. We've also asked the National Science Foundation and 
the Federal Government for equipment, personnel and training.
    And just to show how serious we are about computer 
security, we hosted a cyber security conference here in April 
and we had 120 people who attended that day, many of whom are 
probably in the audience today.
    We also want to put in a Computer Security Institute and 
offer computer security workshops in conjunction with the 
National Institute for Standards and Technology. Our focus, and 
these are the people that are most vulnerable, are small 
businesses, non-profit agencies and municipalities, to help 
them.
    So these are our initiatives, and we know we need to do 
more. And we've hosted today's event and what I'm saying today 
as well is that we're willing to host more of these events. 
We're willing to work with Mayor Knopp and with the First 
Selectman in Southwestern Connecticut, with SACIA and with 
SWRPA to bring local, State and Federal emergency response 
teams together for training and coordination. We'll make 
ourselves available. We have the facilities. They're yours 
because we know it's an important issue.
    I'd like to thank the Subcommittee of National Security for 
bringing us all together today, and Congressman Shays and 
Congressman Tierney. I think I'll give preference if you don't 
mind, Congressman Tierney, to Congressman Shays since he's been 
such a great advocate for NCC. And we know that we must 
collaborate with one another in order to create a safe and 
secure environment, and we at Norwalk Community College are 
saying we're ready, willing and able to work with you toward 
that end.
    Thank you very much.
    [The prepared statement of Mr. Schwab follows:]
    [GRAPHIC] [TIFF OMITTED] T7386.017
    
    [GRAPHIC] [TIFF OMITTED] T7386.018
    
    [GRAPHIC] [TIFF OMITTED] T7386.019
    
    Mr. Shays. Thank you very much.
    We've enlisted First Selectman Baldwin. And we didn't give 
him warning that we were going to ask him to speak so we 
appreciate him coming to the dais like this, the desk, and we 
appreciate your work preceding your work as First Selectman as 
an officer on the police force.

           STATEMENT OF MR. BALDWIN, FIRST SELECTMAN

    Mr. Baldwin. Thank you.
    Good afternoon, Representative Shays, Representative 
Tierney, members of the committee. I represent a community of 
35,000 people that houses NASDAQ, which is a very sensitive, 
and particularly in this day and age, a very important part of 
our national economy.
    As Representative Shays stated before, I'm a retired police 
officer, but more importantly I was a former marine and served 
in Viet Nam. And there's two things we should have learned from 
that experience. One is to define our mission and the other is 
to provide resources to fulfill that mission. What you've done 
so far is define the mission. What you haven't done is supplied 
the resources for us to fulfill that mission.
    I was fortunate enough to be preceded here by comments by 
Mayor Knopp and First Selectwoman Farrell, who did an excellent 
job of outlining a lot of the detail. In very broad terms I 
will say that I support wholeheartedly all of their proposals, 
but most importantly the direct funding for such things as 
communication equipment, an emergency management center and 
training for our first responders.
    We have already endeavored to put together an emergency 
management team, that began probably 8 months ago, to 
coordinate the efforts of our EMS, fire and police departments. 
But as I said before, we're a small community. We don't have 
all the resources of a larger city or the Federal Government. 
We need your help and we need it right away.
    Joining me here today are Chief Berry from our police 
department, our fire marshall, and Bob Pescatore, our emergency 
management coordinator. And they will probably go into more 
detail as to the specifics that are needed, but I will tell as 
a First Selectman in this community that it's important that we 
get funding right away or we will not be prepared to fulfill 
our mission.
    Thank you.
    Mr. Shays. Thank you very much, Mr. Baldwin, First 
Selectman Baldwin.
    You're on, sir. Thank you. Mr. DeMartino.

     STATEMENT OF THOMAS DE MARTINO, DIRECTOR OF EMERGENCY 
                          PREPAREDNESS

    Mr. De Martino. Good afternoon, Mr. Chairman and 
distinguished members.
    I am Thomas DeMartino, the director of Emergency 
Preparedness----
    Mr. Shays. Just hit it.
    Mr. De Martino. I am Thomas DeMartino, director of 
Emergency Preparedness for the town of New Canaan, and I am 
representing the Honorable Richard P. Bond, first selectman.
    The Office of Emergency Preparedness was----
    Mr. Shays. I'm sorry, Mr. DeMartino. You moved the mic away 
and unfortunately I need to have you move the mic closer.
    Mr. De Martino. The Office of Emergency Preparedness was 
created in November 2001 as a result of the events of September 
11th. It is staffed by myself, Ms. Judy Wisentaner, who's 
deputy director, and Mr. James Hardy, chief of plans and 
operations. I am accompanied today by Police Chief Chris Lynch, 
who is available to respond to questions concerning public 
safety.
    Chief Lynch.
    The written submissions were provided by the principal 
first responders, police and fire, as well as a response from 
our Health Department.
    I had indicated that the Emergency Preparedness Office was 
created last year. Its function is to coordinate the 
interaction of emergency service assets from both within and 
outside of the town. Overall planning for the potential of 
terrorist or natural hazard events has been its predominant 
activity to date. Rewriting the town's emergency operating 
procedures to comply with current FEMA standards is near 
completion, as is the evaluation of the town's existing 
emergency operations center with regard to its location and 
suitability.
    Interaction between first responders has been heightened. 
Regular communications between police, fire and EMS has 
resulted in defined responsibility and protocols for weapons of 
mass destruction incidents. They have conducted consolidated 
training and have organizational strengthening.
    Each of the first responders has revised their SOP's or 
added special orders, as well as making equipment purchases to 
reflect today's threat environment, which may provide an 
appropriate segue since your letter of invitation made mention 
of significant challenges in terms of equipment purchases, 
communication interoperability, training, data sharing, and 
coordination.
    New Canaan knows its place on the food chain for Federal 
grant requests and we recognize that requests for funding for 
first responders would be more quickly granted to a regional 
rather than a local request. I think this is a State issue, but 
Federal guidance would be helpful.
    Purchases of equipment for individual protection and for 
communication interoperability are required at the local level. 
For example, we have seen devices in the New York City Office 
of Emergency Management which allow different radio bands and 
frequencies, as well as cellular and landline phones to 
communicate directly with each other. Equipment of this nature 
is absolutely essential to virtually every town and region in 
this State, and I believe that the Federal Government should 
ensure that this necessity is realized.
    Your invitation asked specifically for a discussion of 
emergency response plans with regard to the release of nuclear, 
biological, radiological and chemical material. In short, I 
view current plans as inadequate to deal with all but the most 
minor weapons of mass destruction incident. The role that we 
envision from the Federal Government of Homeland Security in 
this regard is one of an enabler; directing, protecting--
facilitating the availability of requisite detecting, 
protecting and monitoring equipment and providing the 
appropriate guidance for education, training and evaluation.
    The most critical challenge facing planners for a major 
weapons of mass destruction scenario are those related to mass 
evacuation. An incident prompting large numbers of evacuees 
into or out of the community with the related transportation, 
shelter and health issues is perhaps the single most realistic 
threat facing our town at the moment. We look to higher 
government to provide the guidance to facilitate an effective 
response plan.
    Mr. Chairman, I thank you for the opportunity to express 
our views, and as we sit here, we're available to respond to 
your questions.
    [The prepared statement of Mr. DeMartino follows:]
    [GRAPHIC] [TIFF OMITTED] T7386.020
    
    [GRAPHIC] [TIFF OMITTED] T7386.021
    
    [GRAPHIC] [TIFF OMITTED] T7386.022
    
    [GRAPHIC] [TIFF OMITTED] T7386.023
    
    [GRAPHIC] [TIFF OMITTED] T7386.024
    
    [GRAPHIC] [TIFF OMITTED] T7386.025
    
    [GRAPHIC] [TIFF OMITTED] T7386.026
    
    [GRAPHIC] [TIFF OMITTED] T7386.027
    
    [GRAPHIC] [TIFF OMITTED] T7386.028
    
    [GRAPHIC] [TIFF OMITTED] T7386.029
    
    [GRAPHIC] [TIFF OMITTED] T7386.030
    
    Mr. Shays. Thank you very much.
    We're going to start off with Mr. Tierney. You can have as 
much time as you'd like.
    Mr. Tierney. Thank you, Mr. Chairman.
    I thank all the witnesses for your testimony. It's 
extremely helpful. On that, I wish Ms. Farrell had stayed only 
to--if not, to have a brief discussion on the K-1 potassium 
iodide situation because we did put some language in there 
originally that we're extending the ten-mile radius out to 
twenty and would have made the Homeland Security Secretary 
responsible for developing plans and guiding the community to 
develop plans for that. If, however, it was taken out by the 
Select Committee, now we're hoping that it can be put back in 
somewhere in the process. It was actually Chairman Shays' 
committee that put in that provision and he and Ose from 
California and I worked hard on it. Hopefully that will come 
back in because I think that's a concern and one that could be 
easily remedied and addressed.
    Let me ask anybody on the panel that has an answer to this 
to tell me, A, how the Fire Act and COPS programs have worked, 
or effectively if their funding mechanisms work with respect to 
your communities. And then because I'm an advocate and I know 
that Chairman Shays is an advocate of direct local funding, 
let's put on the record, if you would, for us why that is so 
much more important than any other mechanism of funding. We'll 
start left to right or right to left.
    Mr. Knopp. I would say just in Norwalk we haven't gotten 
anything from the COPS Program. We haven't gotten any COPS 
funding through them and we've not experienced much funding 
through the Fire Grants. I think generally in the State we've 
received those stipends successfully. My community has not 
participated in that.
    Mr. Tierney. OK. Do you have an opinion on the direct 
funding programs coming out of Homeland Security down to the 
local first responders on the way we fund those, whether you 
favor something like the direct funding in the COPS Program or 
the Fire Act or----
    Mr. Knopp. Yes.
    Mr. Tierney [continuing]. Do you have a feeling otherwise?
    Mr. Knopp. Yes, very much. I think it's very important that 
the funding come, or at least a large part of the funding come 
directly to the municipalities.
    Thus far in the Department of Justice Grant Program, what 
we've seen again is the State works it through General Cugno 
and the Office of Emergency Management. That's a very good 
statewide plan, but nonetheless all of the equipment that we're 
getting, for example, are primarily for regional responses and 
many of our municipal needs are not going to be met through 
that program. As I mentioned, our getting four radios is just 
about our entire municipal telecommunications element from that 
Department of Justice Grant Program. So we believe that direct 
funding is very important.
    Ironically, as I understand it, the COPS Program is being 
cut back significantly while we're trying to increase funding 
in other places. I would urge you to try to retain as much as 
possible of that COPS Program and also to create a fire fighter 
parallel program that you would be able to fund 75,000 or 
100,000 fire fighters in the country.
    In Norwalk, for example, we are eight fire fighters below 
our authorized level because of the high expense of maintaining 
such a full force, and we would welcome Federal support to 
increase the number of fire fighters on our force. It would be 
useful for things like training and mass casualty response.
    Mr. Tierney. Well, I have a request for all of you then 
because generally the feeling on this is that we definitely 
applied for that, and if I know both the chairman and I and 
others, it's not a party matter. It's not a party matter at 
all. We've worked very hard for the Fire Program, Fire Act and 
COPS Program for money coming down directly to the communities. 
It is not the President's intention to do that. It is--so far. 
But an indication that lumping these programs in in a general 
sense is they are going to take a cut, which you don't think is 
wise.
    So to the extent that any of you feel it appropriate, if 
you want to write--obviously you don't have to write to 
Chairman Shays. He's on board fully on that. But to your U.S. 
Senators, to the President, to the administrators on this 
program. It's extremely helpful that they get the message from 
local communities to join in the argument that we're making 
down here because it's substantial and it makes a huge 
difference in whether these programs are successful or not. So 
I'd thank you if you're inclined to do that.
    If anybody wants to add to that.
    Let me just ask each of you right now--I'm sorry, Mr. 
President. I'm sort of skipping over you, but I will come back 
to you at some point.
    Who would be the person or the entity with whom your 
community now contacts first in case of emergency? If you have 
a disaster, if you were to have a biological or chemical 
incident or a nuclear bombs incident, which present agency 
would you naturally contact first?
    Mr. Knopp. Well, what we would do is to contact both FEMA 
and we would contact the State Office of Emergency Management 
through General Cugno's office.
    Mr. Tierney. Is that pretty much the same with you?
    Mr. Baldwin. That's right.
    Mr. Tierney. So nobody goes directly to the FBI or----
    Mr. Knopp. [Shaking head.]
    Mr. Tierney. And with respect to your hospitals, can you 
tell me what your impression is right now of your hospital 
preparedness in terms of dealing with a biological or chemical 
incident that might cause a large number of people to be 
affected by this?
    Mr. De Martino. You know, a minor incident perhaps could be 
handled well by our local hospitals, as I understand it, but a 
major incident I don't think they're equipped to handle that.
    Mr. Tierney. OK. Not equipped in what sense? In personnel 
or in training or in equipment?
    Mr. De Martino. Well, in personnel and equipment and the 
ability to be able to accept large numbers of individuals who 
might be affected by a radiological or chemical incident.
    Mr. Baldwin. Mass casualties would be problematic in our 
area because we have a high concentration of people in Upper 
Fairfield County and they're only serviced by two hospitals. So 
that's a problem.
    Mr. Knopp. There are 32 hospitals in Connecticut. They all 
operate on a regional basis, and by and large I think they've 
all learned a lot of lessons from September 11th. And this is 
where the drills come in. That's why it's so important that we 
be able to fund these live drills so that hospitals can 
interact with the police and fire.
    One of the aspects of the role of hospitals I think that 
should be supported is they're public health roles and 
initiatives and emergency intervention role. It's the case that 
if, for example, somebody who has anthrax symptoms goes to one 
hospital and two other people with anthrax symptoms go to a 
second hospital and two others that might have been in touch go 
to a third hospital, it's very important for the State to be 
able to coordinate and see that there is a public health 
crisis, even though at any one hospital it's only one or two 
patients who might be affected.
    And that's what I call the public health infrastructure. 
We're trying to involve the cities' health directors more in 
emergency planning, and I think the State has been very 
progressive in trying to help coordinate information among 
hospitals to alert us that there really is a public health 
emergency going on even though within our town it's not more 
than one or two people affected.
    Mr. Tierney. Dr. Schwab, does your school deal with public 
health issues also? Do you have any programs that would 
underlie the beginnings of a career in public health or----
    Mr. Schwab. Yes, it does. We have programs, a paramedic 
program. In fact, most of the rigs that are on the road now, 
the people in there were probably trained by us. A nursing 
program, a medical assistant program.
    And just to sort of followup on what you had said before 
about the COPS Act, I'm not real familiar with that, but a good 
many years ago----
    Mr. Shays. Just get a little closer to the mic.
    Mr. Schwab. Oh, I'm sorry.
    A good many years ago there was an act that was put through 
by Congress called the Law Enforcement Education Program in 
order to train police and correction officers and those going 
into criminal justice. I'm just wondering whether that's 
something that might be resurrected and used for first 
responders, whether it's medical personnel, because surely 
there's a shortage in that area, police officers. Mayor Knopp 
talked about the fire fighter shortage. I mean, could that act 
be resurrected, and then we could work more people into those 
critical areas.
    Mr. Tierney. That's important. Thank you.
    Back to you, Mr. Chairman. Thank you.
    Mr. Shays. Thank you.
    At the concurrence of Representative Tierney, we're going 
to invite our State legislators to ask some questions and then 
I'll followup and if Mr. Tierney wants to followup with any 
questions as well, we'll go from there.
    I'm going to start off with Senator McKinney and then we'll 
just go--I'll just go to Jack Stone. I think he came second, 
and Representative San Angelo, and then we'll go to you, Madam, 
and then we'll end up with Representative Duff.
    Mr. McKinney. Thank you, Congressman Shays. I want to thank 
you for bringing this important hearing to Norwalk and tell you 
how exciting it is to call you Mr. Chairman as well. And 
welcome, Representative Tierney.
    I actually wanted to followup on Congressman Tierney's 
question about direct payments to municipalities. You know, 
obviously I tend to believe that when the money is flowing, the 
less it stops along the way the better. But as a State official 
I guess I'm alarmed that our local municipalities here feel 
more comfortable that they're going to get money from the 
Federal Government than they do from the State level. And 
without hurting anyone's feelings because this is a very 
important issue, I wondered if you could sort of better 
describe what fears you have if the money were to go to the 
State first.
    Mr. Knopp. Well, as a former State legislator--[laughter]--
you know, when I served on the legislature, we had a $500 
million surplus, and somehow in the last 10 months we have a 
$400 million deficit. I don't know how it happened.
    I think basically the problem is this, that one of our 
concerns is that the State's emergency infrastructure is also 
understaffed and needs funding. And the question really is how 
much does the State rely on Federal funding to help solve its 
budget crisis and, therefore, does it have the funds to pass on 
to municipalities.
    There are a number of shortages of positions in the Office 
of Emergency Management at the State level. When you get these 
funds, do those get plugged in to help deal with the State 
budget crisis or do they get passed on to municipalities. I 
think one of our concerns is that Federal funds will replace 
State dollars and State programs and won't be used to 
supplement the municipalities. And I think that actually, in 
fact, did happen in this last budget crisis.
    Fortunately the DOJ Grant on emergency equipment prohibits 
States from spending more than a minuscule amount on 
administrative costs and, therefore, there are limits on who 
you can hire to fill gaps in the Office of Emergency Management 
structure.
    Again, they need more people. We need more help. We just 
want to make sure those funds get to the first responders and 
don't get used to plug the State budget problems.
    Mr. McKinney. Let me just followup on that. Would you also 
be equally uncomfortable that if the Federal grants were to go 
to States but directed at municipalities but it would be the 
States deciding which municipalities it goes to?
    Mr. Baldwin. We have gotten grants directly from the 
Federal Government. Quite honestly, the process is a whole lot 
less cumbersome than going through the State. I think Mayor 
Knopp hit the nail on the head when he said there's a need to 
stop gaps, something to help the State of Connecticut take care 
of its budget problems at the expense of the municipalities, 
and that's why we have a greater comfort level to deal directly 
with the Federal Government.
    We've gotten bullet proof vests for our police. We've 
gotten our SRO officers. We've hired dispatchers and so forth 
directly on Federal grants without having to go through the 
State. That does become a problem we have because----
    Mr. Knopp. I just want to say one thing, Senator McKinney. 
You know, I've said I was a legislator for 15 years. I'm a new 
mayor, and all this is very new to me. I think the biggest 
surprise about being a mayor is that unlike many economies in 
Europe where, in fact, municipal security inquiries are either 
State or Federal responsibilities, the United States is almost 
the only country in the world in which local security is a 
municipal and mayoral responsibility. In Japan it's a Federal 
responsibility. In Germany it's a State responsibility. So, in 
fact, we are responsible for the first responders at the 
municipal level and that's why I think it makes sense to have 
the funds come directly to us.
    Mr. McKinney. And my last question is in terms of 
priorities. I know there's a lot of need for training, 
communications equipment, and other equipment, but if you had 
to prioritize which one is first right now, which would it be?
    Mr. Baldwin. Well, I'd have to say communications only 
because knowing the people that are in this room today, police, 
fire, EMS personnel that are represented, we are fortunate here 
in Fairfield County to have really true professionals. These 
people know what they have to do. They know again what the 
mission is, but they're waiting for the resources.
    Mr. McKinney. Right.
    Mr. Baldwin. Communications is the absolute need.
    Mr. Shays. You know, I'm just going to use that as an 
opportunity because I did want to ask this question. And if the 
next panel would think of this, the answer to this question, I 
won't have to ask it again. But what are the most critical 
needs, and I have a list. Is it detection capability? Is it 
decontamination capability, communication equipment, personal 
protective gear and suits, emergency medical personnel, 
emergency medical training, hospital treatment surge capacity, 
training in general exercises? Where would you try to put this 
list from detection capability all the way down to exercises? 
I'm not going to ask this panel that question now, but if you 
could just try to focus in.
    Mr. Stone.
    Mr. De Martino. I wanted to respond to Senator McKinney's--
--
    Mr. Shays. Sure.
    Mr. De Martino. I concur. However, I would put personal 
protection equipment equal to communications interoperability 
as our priorities.
    Mr. Knopp. Can I just also respond?
    I agree with Ray. I think that the telecommunications is 
the first need. They're all obviously important needs, but we 
now have to make sure that fire and police can talk to each 
other, that we can use our mutual aid pacts on a regional basis 
to call in a lot of personnel. If they can't talk to each 
other, it doesn't do any good. So I think you get the biggest 
bang for the buck by telecommunications.
    The State, as I mentioned, is far ahead of other States 
because it set aside the 800 megahertz band width for 
communications to the State police, and, therefore, we really 
can have interoperability and very effective telecommunications 
on a very short-term implementation phase.
    Mr. Shays. I thank you, gentlemen, for those questions and 
the answers.
    Let me just take the opportunity to recognize two very 
capable staff of Congresswoman DeLauro, Stanley Welsh and Scott 
McDonald.
    Would you both raise your hands, please.
    They're right over here and I just would point out that 
their Member of Congress had the extraordinary privilege of 
being on the Select Committee on the New York (indiscernible) 
of Government.
    I might say to all of you so you can picture what happened 
when the President presented his proposal. His bill came to our 
subcommittee. Our subcommittee was the first to deal with the 
legislation. We had a hearing on that, but the full Committee 
of Government Reform was the committee that voted it out. We 
were the only committee of Congress that had the 100 percent 
full piece of it, but other committees had jurisdiction to--the 
Judiciary Committee and others had jurisdiction in 
transportation. They took that little part out of it.
    And so the base bill came to our committee through the 
Select Committee. They altered it. In some cases we didn't like 
the changes they made. They then merited some of the other 
parts of other committees and I think did a good attempt at it. 
I think Congresswoman DeLauro was very supportive of some of 
the things that they did in our Government Reform Committee 
that was taken out by the Select Committee.
    But we appreciate both of you being here. Thank you. And we 
appreciate the fine work you're doing with your boss. Sometimes 
I think she works for you, but I know she's the boss.
    Also I think--is there anyone from Nancy Johnson's office 
here?
    [No response.]
    Mr. Shays. Thank you. I'd been told she might be here as 
well.
    Mr. Stone.
    Mr. Stone. Thank you, Congressman Shays. And I do want to 
thank you for putting on this hearing today and welcome 
Representative Tierney, who happens to be from my home State 
originally.
    I want to go to Mayor Knopp for just a moment. Shortly 
after September 11th there was a very, very informative session 
held at Norwalk Hospital and I know you had a great part in 
putting it on there. And I have to say that the information 
that was imparted to us at that session was less than 
optimistic in our capability of handling any type of disaster.
    In the face of the comments that you've made here in 
establishing a performance standard, etc., relating to the 
medical aspects of this, where would you say we stand today in 
terms of where we were a year ago?
    Mr. Knopp. Well, I think that's a good question, Jack. I 
think the--we can't forget that a large part of the response to 
terrorism has to involve public education and public health 
organization. So I feel that we are better off than we were on 
September 11th because there's a much greater I think awareness 
among the public in terms of public health officials about how 
to respond to these kinds of disasters. You know, if a nuclear 
weapon were to go off tomorrow, obviously the question--the 
answer is no.
    But in terms of dealing with, first, unfounded fears, 
developing procedures to verify what the problems are, I think 
that we are growing in our sophistication and recognizing that 
this is not just an equipment or telecommunications issue. It's 
also a matter of public health and social organization. And I 
feel that hospitals, Norwalk Hospital and others are doing a 
very good job of now involving public health directors in this 
kind of outreach education.
    Mr. Stone. As a followup to that, and I'm sorry that we 
don't have medical people here on these panels today, but you 
mentioned, Mayor, that we have 32 hospitals in the State of 
Connecticut and unfortunately close to half of those are 
financially distressed. What type of burdens or what type of 
relief is going to be necessary to really bring us up to 
standard? I realize it's a hospital question----
    Mr. Knopp. No.
    Mr. Stone [continuing]. But you're the closest to a 
hospital here.
    Mr. Knopp. Obviously having hospitals upgrade their 
emergency procedures is going to be a costly matter. These are 
issues that the State health organizations have to deal with in 
terms of setting their rate structures.
    One of the issues that we're getting with Norwalk Hospital 
is how to set up certain treatment facilities so that in the 
event of an emergency, we make sure that the anthrax spores, or 
rather contaminants don't spread throughout the hospital. These 
are highly sophisticated, high-pressure rooms that prevent 
spreading of this kind of contamination. This is going to be an 
expensive operation.
    Mr. Shays. I believe we have two EMS folks. Particularly 
not from a hospital directly, but staff health systems as well 
as the EMS coordinator. So we can get into that later.
    Mr. Knopp. Sure.
    Mr. Stone. May I ask just one more question----
    Mr. Shays. Sure.
    Mr. Stone [continuing]. In the area of communications. We 
all know that there are all sorts of communication systems 
available. Obviously police car to police car, headquarters, 
etc. What do you envision as the need for the communication? 
Realizing you can't have everything necessarily, but what would 
be your priority? I mean, a capability directed to the State 
police or to the surrounding communities or to General Cugno's 
office? What is the priority to the communications aspect?
    Mr. Knopp. I think the priority now is to have us obtain 
equipment that allows us to utilize this 800 megahertz system, 
that allows us to talk to surrounding communities but is 
patched through the State police. I think that is where you get 
the biggest bang for the buck. Connecticut is one of the States 
that has set aside this band width. We ought to take advantage 
of it.
    Mr. Baldwin. I agree and I'd take it just one step further 
in getting even more basic. I think being able to communicate 
amongst the different emergency organizations, fire, police and 
EMS even within our own community. We most recently purchased 
a--I don't know if it's appropriate to name the name of the 
company, but a NexTel phone to allow us to have walkie talkie 
communication with all our emergency management teams and not 
having to rely virtually on cell phones because it didn't work 
on September 11th.
    So getting as basic as that, having that in place is 
important to getting in touch with our public works people, 
getting in touch with, again, the obvious ones, fire, police, 
EMS, your Health Department. Everybody that's involved has to 
be able to be communicated with. And, you know, money for that 
is not a lot of money, but it makes a tremendous impact I 
think.
    Mr. De Martino. There is equipment on the market that will 
let us have our cake and eat it, too. I'm not that familiar 
with it. I've seen it one time. They made reference to it at 
the Office of Emergency Management in New York City. They're 
testing it now. But you can select who you want to communicate 
with and it's on a separate frequency. And I also think that 
satellite phones are a consideration. I don't have the answers, 
but I do know what ought to be looked at and we can come up 
with solutions real quickly.
    Mr. Stone. Thank you, Mr. Chairman.
    Mr. Shays. Thank you.
    Representative San Angelo.
    Mr. San Angelo. Yeah, first let me thank Congressman Shays 
for holding this hearing and Representative Tierney for joining 
us here in Connecticut.
    I guess I want to take a step back for just a minute. I 
understand the mission of Homeland Security for the Nation and 
the State of Connecticut. I think I understand the needs of the 
local service providers. I guess I'm wondering about the plans 
to get there. I'm wondering if you had any precise plans or at 
least a process to go through from Homeland Security down 
through our Office of Emergency Management to a municipal 
level. I'm hearing these different towns want to do different 
things and have different priorities. I guess I'm wondering 
what is the plan to get to overall State coverage and overall 
competitive coverage.
    So I guess I would like to know has the State provided you 
with some kind of resource where you're directed, these are the 
priorities you should look at, these are the kinds of things 
you should study, here's the regional approach we're looking 
at? If you have that kind of communication, I think that's 
probably the most important thing that you need to understand 
what's happening.
    Mr. Baldwin. Well, shortly in my term and not too long 
after September 11th, we did have such a seminar up at Oakdale, 
and they provided us with a booklet that allowed us to work as 
an operating guide. And I can only speak for my town. We 
followed that guide very carefully and it's been a tremendous 
help to us. But apart from that seminar and some of the other 
seminars that were attended by Emergency Management 
Coordinator, Bob Pescatore, who's here today, and Chief Berry, 
there hasn't been much else.
    Mr. San Angelo. Representative Knopp, I guess what I need 
from you is in your city have you seen a direct response that 
you know what the priorities should be based upon a State or a 
Federal plan and is there a process in place that you feel 
comfortable with to address the needs?
    Mr. Knopp. Well, as Ray said, there was a very helpful 
meeting up at Wallingford, although that proceeding was 
primarily geared toward helping municipalities gear up to apply 
for Federal funds and the Department of Justice Grant.
    One thing to remember, Ron, is that the police and fire 
departments do have many protocols already established and 
there already are very many mutual aid agreements worked out 
between municipalities, between hospitals and between the 
emergency ambulance services, and General Cugno in the Office 
of Emergency Management has been very helpful in making plans 
generally available.
    As far as I know there's not yet an official State of 
Connecticut emergency response plan in place. Otherwise, we 
(indiscernible).
    Mr. De Martino. I didn't mean to interrupt, but I wanted to 
add that I am also familiar with the document that was given 
out. I attended that session upstate, but everything is 
predicated on the FEMA plan, which is fine. A single plan in 
which to follow which is the basis (indiscernible) is very 
important. But the State plan really, in fact, is the FEMA 
plan. And we have received assistance from the State to 
(indiscernible) Regional Office of Emergency Preparedness, but 
it's still based on the FEMA plan.
    Mr. San Angelo. And my last comment was--my concern was 
when we talk about the Federal funds making it to the cities, 
my concern is the State having some coordinated plan. If we're 
only going to get those limited amount of resources from the 
Federal Government, we need to use those resources that best 
benefit all the systems of Connecticut in some coordinated way. 
And that's what concerns me about giving the money directly to 
local municipalities. Their need may not meet the needs of the 
area around them in a way that we can best utilize those 
resources. That's my concern about that local grant process. I 
understand it's easier for you to deal with issues. You get the 
money, you buy what you want. But I'm not sure the message----
    Mr. Baldwin. Well, there are already in place mutual aid 
pacts. I think the funds are necessary to enhance those mutual 
pacts as to allow them to, as we said before, to fulfill their 
mission. But there already is in place, as Mayor Knopp said, 
protocols within not only the local police, fire and EMS, but 
also within the surrounding towns.
    So I think we need to give the local police, fire, and EMS 
a little more credit because I think they really have a plan in 
place. I think they're professionals and I think they're 
prepared to deal with it. But, again, resources. We haven't 
seen any money for 10 months.
    Mr. San Angelo. And let me just say that I do think the 
local police do a phenomenal job. My concern in that is that 
Norwalk will do a phenomenal job for Norwalk, and I want to 
make sure that the State has full coverage. I know even in 
Hartford each agency has their own priorities and sometimes 
those priorities together don't serve the State in the best 
possible way and that's my concern, is working with those 
services.
    Mr. Shays. What I think is going to happen is that clearly 
if you are a very large city, you're going to get direct 
grants. The challenge we have in Connecticut is that given our 
largest city is between 140,000 and 150,000, to the Federal 
Government it doesn't register. You're kind of a small 
community.
    So the successful grant applications in my judgment will be 
the regional ones in Connecticut. But then the question is 
could those regional applications go directly, and I think they 
can. That's kind of what we're hearing is the desire. But 
you're going to be more successful if you put a package 
together with those colleagues, and I know that's happening.
    But the workplace, for instance, in Bridgeport that is 
working in collaboration with a lot of different groups and 
different government agencies, as well as non-profits has won a 
lot of grants by their success in partnering both 
geographically and in terms of common causes.
    But we hear your message. We wanted to come to you. That's 
why we're here. This is great.
    Representative Boucher.
    Ms. Boucher. Thank you, Congressman Shays, and also, 
Congressman Tierney, for attending this important hearing.
    I only have one question and I hope that the panel will 
consider it and also the other two panels that are going to 
come forward to be thinking about it.
    Mr. DeMartino was the only person on the panel that 
mentioned the issue of mass evacuations. Have any of the other 
panelists thought about this eventuality in their discussions 
and in their meetings? Have you been in contact with the 
Department of Transportation, the State police and also the 
National Guard, or is this something that is being deferred to 
the State Office of Emergency Preparedness?
    I would think that in a case such as mass evacuation there 
would be quite a bit of panic that could result in injury and 
even death, and it is a concern.
    Mr. Baldwin. I'll take a crack at that one. I mean, we 
can't deal with commuter traffic here in this area of the State 
on a rush hour basis. Imagine what it's going to be like in a 
mass casualty situation. So I think until we put in place some 
type of plan to deal with the simplest of problems, which is 
our rush hour traffic, then it's going to be difficult to deal 
with plans.
    Mr. Knopp. Maybe this is a new argument. (Indiscernible.). 
[Laughter.]
    Ms. Boucher. Then maybe we should think about mass transit 
options to get most people in one fell swoop out of harm and 
into safety.
    Mr. Shays. Thank you.
    Representative Duff, again welcome.
    Mr. Duff came to a committee meeting I had and I didn't 
recognize him and I've had this tremendous amount of guilt. So 
I'm going to probably give you a little bit more time than I 
should.
    Mr. Duff. Thank you. Thank you so much, Congressman, and I 
thank yourself and Congressman Tierney for being here today. 
It's truly an honor to be up here with you as well.
    Just a couple of questions, but the first comment I'd just 
like to make is about my vivid memories of September 11th. As 
First Selectwoman Farrell has said, it certainly is a regional 
issue and I think we have to think of it that way.
    I hold vivid memories. I was working in Greenwich at the 
time and so was my wife, and we happened to drive in to work 
together and when we saw what was happening, we both--I picked 
her up. We drove home. And as we were on I-95, there were about 
40 or 50 ambulances driving in the fast lane toward New York 
City. And that is something that will be etched in my mind 
forever, and truly it does bring home to you how regional this 
is because our people went down to New York and were the first 
people down there to help our comrades down in New York City. 
And so we really have to think of it that way.
    The question I'd like to ask Mayor Knopp and the rest of 
the panelists is how are the communications that we get from 
say the Federal Government when there's different kinds of 
scenarios we need to watch out for, potential harm in our 
waterways or possible anthrax problems or different kinds of 
communications, how is that system working? Has it improved 
over the last few months and how do you think we can get it 
maybe a little better?
    Mr. Knopp. Congressman Shays, do you mind if I invite the 
chief really to answer that question?
    Mr. Shays. Unfortunately you can't. I would have to swear 
him in.
    Mr. Knopp. All right. Well, based on what the chief has 
told me, one of the problems we're having with the Federal 
Government is a very inconsistent type of communication, 
especially with the FBI on threats. Just like First Selectwoman 
Farrell said, the color coded system just doesn't seem to be 
taken seriously at all.
    We get both e-mails and other types of communications on 
threats. You know, some seem serious, some seem frivolous. We 
don't get a followup to the initial communication. I can say 
that's a part of the system that needs an awful lot of work. 
And the police are very anxious to get a higher quality of 
information from the FBI in particular, but so far that system 
has been unsatisfactory.
    Mr. De Martino. We feel we're receiving an awful lot of 
information that requires attention because you can get too 
much information sometimes. You're overworked sometimes, but we 
prefer to filter it in at our level--not filter it in, but 
examine it at our level and continue to receive the information 
provided to us.
    Mr. Duff. OK. So you'd rather have more than less?
    Mr. De Martino. We'd rather have anything you want to send 
us from either the State or the Federal Government.
    Mr. Duff. You had also I think also been in coordination 
with the (indiscernible) we had and it seemed like every time 
that the records of preparedness or whatever it was called, and 
it was kind of abandoned I guess by the early 1990's and maybe 
there's still something like that.
    But kind of going through what we're really talking about, 
emergency communications network, training, equipment. We have 
to worry about our communities in New York City, school 
security, computer security, our transportation waterways, 
chemical attacks. Do we need or what kind of--what would make 
it easiest I guess on a regional basis on how to best deal with 
this as far as staffing levels go so that the communications go 
around and also making sure that we're all coordinated and on 
the same page and we're also thinking about school security and 
a plan for schools and somehow we can give Trumbull a head 
start with their plans maybe or vice versa? What would help as 
far as I guess staffing to provide that?
    Mr. De Martino. I think you hit the nail right on the head. 
I don't know what the staffing level should be. I hadn't 
thought of that. But in our town we're a three-person volunteer 
group working with very professional and very effective first 
responders. It's hard for us to do it on a part-time basis with 
jobs and the like to keep abreast of things.
    What I'm asking for is the guidance, whether it's either 
from the Department of Homeland Security or the State. I don't 
care where it comes from. We want guidance on how to address 
these very measures that you have brought up. Help us to devise 
a sensible and realistic plan and we'll apply it to the local 
need.
    Mr. Knopp. One thing we're looking to do, Representative 
Duff, is--I convened a meeting of the city's emergency 
services, medical and public health personnel to assess our 
emergency planning, and it became apparent that there's no one 
individual in the city who is assigned the responsibility of 
reviewing all the components of our response systems or 
identifying the unfilled plans and unfilled needs. Therefore, I 
expect to be hiring a consultant on a part-time basis, a 
retired individual from a law enforcement background to help 
the city really assess all of this.
    Both Chief Berry and Chief (indiscernible) told me that 
they simply are not able with their heavy responsibilities to 
be contacting FEMA, to be contacting OEM to try to work out 
these communications. So it was very important for us to try to 
do that, and I hope we can find some grant funds or some other 
funding method for starting this on at least a temporary basis.
    Mr. Duff. Thank you.
    Mr. Shays. Thank you. I'm going to just quickly ask a--not 
quickly. I'm going to ask a quick question and I'll get a long 
answer. I just want to make sure. I'd like to go to the next 
panel, but I want to know if any of you want to put on the 
record anything? Is there a question we should have asked you 
that you were prepared to answer that you would like to put on 
the record? Anything that you need to----
    [No response.]
    Mr. Shays. Well, let me thank all four of you. I am going 
to ask that you respond--we'll put it in writing. I read a list 
of things which potentially could be important to the issue of 
the detection equipment and the others, and we might try to 
have you rank them in terms of importance. I think it would 
make better sense if you consult your fire and police officers 
and the EMS folks, and so we'll go from there. So I thank this 
panel very much.
    I would note that we have only one reporter today. So do 
you need a break, dear?
    Court Reporter. [Nodding.]
    Mr. Shays. So we're going to have a 4-minute break, 5-
minute break and then we'll start the next one.
    [Recess.]
    Mr. Shays. The record will just note that we swore in the 
witnesses and they all responded in the affirmative. We had 
welcomed them and I read off the list of witnesses. They have 
been sworn in.
    And I think we'll just go down the list and, Chief Berry, 
we'll start with you. I'm going to ask you if would try to be 
as close to the 5-minute rule as possible. I have a clock. If 
you run over, you run over, but if you can stay close to 5 
minutes, that would be nice.
    Chief Berry.

    STATEMENT OF POLICE CHIEF JAMES BERRY, TRUMBULL POLICE 
                           DEPARTMENT

    Chief Berry. Well, first of all, I would like to thank you, 
Congressman, Congressman Shays, I would like to thank you and 
Representative Tierney for coming out to our community and for 
allowing me to participate in this process. I think it's very, 
very important. And as I think about this whole process, I 
think about the fact that knowing the people that--the 
individuals that we're dealing with, the September 11th 
anniversary is coming up, and I don't want to sound like a 
sense of urgency, but I think it's very, very important that we 
facilitate this process and move it right along. So I'm very, 
very grateful to be here to speak on this situation.
    The United States is probably engaged in one of the most 
difficult and dangerous situations they have ever been involved 
in. The gravity of these circumstances threatens the future of 
our culture and our way of life. I strongly concur that we must 
strengthen our Homeland Security and that there must be a 
collaboration of agencies on the Federal, State, and local 
levels to make this possible.
    I believe that this is a war that will be fought on many 
fronts as well as our own soil. A strategic analysis of our 
defense mechanisms will dictate that we must have a strong 
defense at home to protect our soil.
    Mr. Shays. Can I just interrupt for a second? Can you hear 
in the back? Is it OK?
    Fine. Thank you. They can hear you.
    Chief Berry. In my opinion, this strength at home will be 
greatly enhanced by properly equipping the thousands of first 
responders that are already trained and dedicated to the 
preservation of life of the American people. If we increase the 
war effort abroad, the first responders at home will be on the 
front lines in this war effort. The urban terrorism that some 
local and State law enforcement officers confront on a daily 
basis in America probably has in many respects prepared these 
law enforcement officers to deal with this type of terrorist 
behavior that may be perpetrated on the streets of America.
    Equipping us and sharing information with us is the most 
important strategy that I can think of relative to Homeland 
Security. We are in dire need of equipment such as PPE, 
personal protection equipment. The Trumbull Police Department 
does not have any personal protection equipment at this time. 
In the event of an incident in which the Trumbull Police 
Department needs the suits, we will call Bridgeport PD, who had 
60 suits given to them by the Federal Government, or Westport 
PD, who has purchased 100 suits on their own. The suits range 
in size from medium to XXXL, but we do not know what size would 
be available to us.
    The Federal Government should provide PPE suits and masks 
to each local police department and State police barrack. This 
would help prepare us to deal with radiological, chemical or 
biological material. Our close proximity to New York City and 
cities such as New London and Groton makes it imperative that 
we be better equipped to deal with materials such as the ones 
listed above.
    Communication is also very important when it comes to 
equipping us with Homeland Security defense. This communication 
should be broken down into a local, regional and State system 
of communication. From a local perspective, the Town of 
Trumbull, like most towns, has its own police, fire, EMS all on 
different frequencies on bands. The town needs interoperability 
for the different agencies and departments to be able to talk 
to with each other in an effective and efficient manner.
    Training is another issue that should be addressed relative 
to first responders. We are the first line of defense. How we 
respond and how we handle an incident can determine how many 
lives are ultimately saved. Money for training is desperately 
needed. At the present time we are at Level 3 Yellow and are 
situated 55 miles from New York City, which is at Level 4 
Orange. The training should encompass incident command, 
responses to biohazards, chemical, radiological and reacting to 
the utilization of weapons of mass destruction.
    The information that we receive is pretty good information, 
but it is sometimes overwhelming because we're not prepared 
enough proactively to deal with the situation. I also firmly 
believe that the local, State and Federal agencies assigned to 
individual States should meet periodically to discuss 
information sent out and how to respond to these informational 
situations. On the subject of information, I also believe that 
Homeland Security should develop some type of early warning 
system for our citizens. At the present time, most towns and 
cities do not have any means of notifying citizens about 
disasters.
    Emergency response plans are very important for providing 
some type of plan for responding to certain emergencies in a 
timely manner to minimize loss of life, turmoil and general 
chaotic situations. A plan is only as good as drills and 
training so everyone is aware as to how to respond to 
emergencies. To facilitate the adequacy of those plans, I think 
that they should start as local plans with the idea of 
regionalization along with collaboration with any State and 
Federal agents that would be assigned to the region.
    In summation, I would like to reiterate that equipping and 
training first responders in conjunction with communicating and 
sharing intelligence from Federal agents assigned to each State 
could form a solid base for Homeland Security. The Federal 
intelligence base should consist of sharing information also 
about foreign students who live in our local communities and 
attend our colleges and universities, but who might have 
negative reasons for being in America.
    I'd like to thank you for allowing me to present this 
information.
    [The prepared statement of Chief Berry follows:]
    [GRAPHIC] [TIFF OMITTED] T7386.031
    
    [GRAPHIC] [TIFF OMITTED] T7386.032
    
    Mr. Shays. Thank you, Chief.
    Chief Maglione.

  STATEMENT OF FIRE CHIEF MAGLIONE, BRIDGEPORT FIRE DEPARTMENT

    Chief Maglione. Good afternoon, Mr. Chairman. I'm Michael 
Maglione. I'm the Fire Chief of the city of Bridgeport. I'm 
also here on behalf of the International Association of Fire 
Chiefs.
    On July 16th, President Bush unveiled the National Strategy 
for Homeland Security. In it he notes ``State and local 
governments have critical roles to play in Homeland Security. 
State and local levels of government have primary 
responsibility for funding, preparing and operating the 
emergency services that would respond in the event of a 
terrorist attack. Local units are the first on the scene and 
the last to leave. All disasters are ultimately local events.''
    I, along with fire chiefs across the country, agree with 
the President.
    There are over 26,000 fire departments and 1.1 million fire 
fighters in the United States. In addition to our traditional 
jobs of fire prevention and fire suppression, we are the No. 1 
primary provider of pre-hospital emergency medical care and 
response to hazardous material calls. Citizens look to us for 
help when any situation escalates beyond their ability to cope. 
In short, local fire departments are the first line of defense 
against any hazards.
    Mr. Chairman, I would like to start by reiterating two 
components of a successful response plan that I discussed in my 
prior testimony before this committee. The first component is 
the need to train and equip responders at the local level. The 
second is implementing a standard incident management system to 
ensure smooth command at the scene of a response.
    First, we must make sure that the local response plans do 
not rely too heavily on Federal assets. They will not arrive on 
the scene for hours and sometimes days. This is not an 
indictment of Federal capability. It is simply a consequence of 
business. We must have properly equipped and trained responders 
at the local level.
    Also we must consider how to manage the various agencies, 
personnel and assets that have come to the scene of an 
incident. This means universal adoption of an incident 
management system. We have taken steps in this direction. The 
FBI is one of the first Federal agencies to begin training in 
IMS.
    Ed Plaugher, Chief of the Arlington County, Virginia Fire 
Department and incident commander at the Pentagon on September 
11th, previously testified before Congress that the FBI's 
understanding of and adherence to the standard of the IMS 
system was invaluable at the Pentagon. We must continue our 
work in this area.
    With that said, I would like to take a moment to outline 
some of the specific actions taken by the Bridgeport Fire 
Department since September 11th.
    Our department has increased training in hazardous material 
operations. We have been a member of the Fairfield County 
HazMat team, which is a regional team, for 18 years. This team 
is now being copied throughout the State. Additional 
communications equipment has been purchased to better 
communicate at the command level with the surrounding 
communities. We have increased training for building collapse 
and for confined spaces, and we have improved communications 
with those who respond to our emergency operation centers, such 
as the Health Department, The Red Cross, hospitals and 
utilities. But there is still many proactive steps that we must 
take.
    In communications separate command control channels need to 
be established so that all agencies can communicate at the 
command level. Connecticut is working on a USAR team, but no 
startup funding has been granted. Realistic training programs 
need to be developed and implemented, and additional funding is 
required for public training. Specifically, we need money to 
pay for trainers and to cover overtime costs to local 
communities while this training takes place.
    Mr. Chairman, I am speaking mainly from my experience as 
the Fire Chief of the city of Bridgeport, but I am sure that as 
resources have allowed, my fellow chiefs in Connecticut and 
throughout the United States are taking similar actions.
    The final section of my testimony will discuss three 
specific actions that Congress can take to significantly 
enhance local preparedness.
    First and most importantly, Congress must fully fund the 
Assistance to Fire Fighters Grant program for the fiscal year 
2003. These grants, commonly referred to as Fire Act grants, 
assist fire fighters by funding training and equipment that is 
basic to fire fighters. Enhancing the ability of fire fighters 
to cope with a terrorist incident involving weapons of mass 
destruction can only begin after basic competency and 
capability have been achieved. Last week the Senate 
Appropriations Committee funded the Fire Act at $900 million 
for fiscal year 2003. I strongly encourage the House of 
Representatives to appropriate the same level of funding.
    Second, Congress must address the issues of communication 
interoperability, the ability of personnel from all responding 
agencies to communicate. This is vital to command and control 
for effective incident management. The only effective long-term 
solution to this problem is the allocation of additional radio 
spectrum for public safety.
    In 1997 Congress did just that. Unfortunately, a loophole 
in the legislation has allowed the local television 
broadcasters to ignore the will of Congress. This situation 
must be reversed. Fortunately, a bill has been introduced, H.R. 
3397, that will close this loophole. This bill has strong 
bipartisan support. Mr. Chairman, I encourage you and the 
members of your subcommittee to support this important piece of 
legislation.
    Finally, the understaffing of fire departments is an issue 
that must be addressed. Limited apparatus and staffing reduces 
a fire department's ability to respond to major events, 
including a terrorist incident, where large amounts of 
resources are needed quickly.
    Currently there is a bill before the House of 
Representatives, H.R. 3992, that would establish a grant 
program to aid local governments in hiring career fire 
fighters. Last week the Senate Governmental Affairs Committee 
adopted a bipartisan amendment that would include this program 
in the legislation creating the Department of Homeland 
Security. We expect that this provision will be approved by the 
entire Senate. I hope that the House of Representatives would 
recognize the wisdom of the Senate's action and agree to this 
provision when the two chambers go to conference.
    The fire service is delighted to know that our voice is 
being heard at the highest level of our Nation's leadership. 
America's fire chiefs through the IAFC have spent many years 
writing, testifying and lobbying about the issues of community 
safety and security long before September 11th.
    Mr. Chairman, in my testimony I detailed concrete steps 
that have been taken at a local level to protect the citizens 
of Bridgeport. Now I throw down the gauntlet before you and 
your colleagues in Congress to pass the legislative initiatives 
I have discussed. These initiatives have strong support from 
both members of the political parties and they will further 
assist the Nation's fire service in its preparedness efforts. 
With your help we can further enhance our ability to protect 
our citizens.
    Thank you for inviting me to testify. I'll be happy to 
answer any questions you may have.
    [The prepared statement of Chief Maglione follows:]
    [GRAPHIC] [TIFF OMITTED] T7386.033
    
    [GRAPHIC] [TIFF OMITTED] T7386.034
    
    [GRAPHIC] [TIFF OMITTED] T7386.035
    
    [GRAPHIC] [TIFF OMITTED] T7386.036
    
    [GRAPHIC] [TIFF OMITTED] T7386.037
    
    [GRAPHIC] [TIFF OMITTED] T7386.038
    
    [GRAPHIC] [TIFF OMITTED] T7386.039
    
    [GRAPHIC] [TIFF OMITTED] T7386.040
    
    [GRAPHIC] [TIFF OMITTED] T7386.041
    
    [GRAPHIC] [TIFF OMITTED] T7386.042
    
    [GRAPHIC] [TIFF OMITTED] T7386.043
    
    [GRAPHIC] [TIFF OMITTED] T7386.044
    
    [GRAPHIC] [TIFF OMITTED] T7386.045
    
    Mr. Shays. Chief, thank you. We appreciate your testimony 
and we appreciate you being here today. Thank you very much.
    Captain Newman, I would just say to you as a former 
resident of Stamford, it strikes me that your work comes out of 
the catastrophe that hit our fire fighters a number of years 
ago with the chemical plant and not knowing what was there. How 
many officers or fire fighters were injured in that?
    Mr. Newman. There were six severely injured in a chemical 
explosion. I believe it was around 1982.
    Mr. Shays. Yeah, we didn't know that there were chemicals 
in the plant.
    Mr. Newman. Correct.
    Mr. Shays. And that brought about tremendous reform, didn't 
it, in the city of Stamford and also around the country?
    Mr. Newman. Right. Recognizing the hazards in the community 
and having the appropriate personal protection equipment for 
first responders.
    Mr. Shays. So we will take your testimony as testimony that 
has been--that comes from the experience of some real tragedy, 
but a lot of learning in the process.
    Mr. Newman. Thank you, Mr. Chairman.
    Mr. Shays. You have the floor.

  STATEMENT OF CAPTAIN PAUL NEWMAN, STAMFORD FIRE HEADQUARTERS

    Mr. Newman. Good afternoon, Mr. Chairman, members of the 
subcommittee.
    Again, my name is Paul Newman. I'm the captain and 
hazardous materials officer of the Stamford Fire and Rescue 
Department. On behalf of the officers and members of the 
Stamford Fire Fighters Local 786, and the 4,500 Uniformed 
Professional Fire Fighters in the State of Connecticut, I thank 
you for the opportunity to give this testimony today.
    As tragically witnessed through the events of September 
11th, our Nation's fire fighters are on the front line in the 
war against terrorism. In most jurisdictions across the 
country, the local fire service has been, and remains, the 
first response agency tasked with command and operations at 
disasters including building fires, structural collapses, 
explosions, hazardous materials releases, and transportation 
crashes. All can involve mass casualties.
    The current terrorist threats we face include biological, 
nuclear, incendiary, chemical or explosive means to destruction 
and injury. Coupled with these conventional and unconventional 
methods is the realization that secondary means of destruction 
do exist and are often intended to kill or injure the first 
responders. Therefore, these would be rescuers need to have 
sufficient resources and adequate training to effectively 
accomplish their responsibilities as the first minutes and 
hours of an incident unfolds.
    Often times my company is the first to arrive at an 
emergency scene. Depending upon how the scene and victims 
present, myself and the fire fighters I work with must first 
have the appropriate personal protective equipment, including 
the right clothing and respiratory protection to approach and 
affect rescues. Although signs and symptoms presented by 
victims will indicate hazards and help to identify potential 
agents, metering and monitoring equipment is needed to aid in 
detection and identification of nuclear, chemical and 
biological presence.
    Decontamination of victims and personnel at the scene is 
also a responsibility of responding fire fighters. The ability 
to communicate effectively over radio frequencies is another 
significant part of this command and control of functions. And 
the final part to this whole equation is the personnel 
resources to carry out the necessary tasks.
    The State of Connecticut recently received approximately 
$2.6 million in total for fiscal year 1999, 2000, and 2001 from 
DOJ to purchase domestic preparedness equipment and distribute 
it to first responders. This is being brought in in-state and 
coordinated with the Military Department. The State's objective 
in the initial distribution is to provide local first 
responders in the identified First Priority Jurisdictions with 
standardized equipment. The First Priority Jurisdictions 
include the five largest cities over 100,000, and eastern 
Connecticut as well as other site specific institutions and 
State agencies. The fire services in these jurisdictions are 
scheduled to receive approximately $1.2 million of this 
equipment. DOJ approved the spending plans around January 1st. 
Although the programs are moving forward and more than $3 
million is expected in the next--in funding in the next fiscal 
year, 2002, only minimal amounts of the equipment have actually 
been delivered to the receiving agencies. However, I am pleased 
to announce that this morning we received our first shipment of 
PPE.
    With that mentioned, I still believe that there are some 
flaws in the system. One problem is that a comprehensive 
program for the procurement, distribution and maintenance of 
the equipment has been left unfunded. Additionally, the 
equipment being purchased may not include maintenance 
contracts. There will be no quality assurance that once this 
equipment is distributed, it will be maintained and/or upgraded 
as needed.
    But perhaps the most glaring deficiency in the program is 
the lack of associated training dollars. Our fire fighters are 
soon to be handed special chemical protective clothing, 
advanced electronic metering equipment, decontamination 
trailers and radio systems with many of them having no training 
other than the owner's manual. This is not only dangerous to 
our responding personnel, but to the public we are looking to 
protect. Support must be given to local municipalities in order 
to achieve this training initiative.
    Although a major nationwide program to train personnel has 
been underway, no city in the State of Connecticut met the 
minimum population requirements to be included. The funding for 
these trainer-to-trainer courses had been established by 
Congress through the Nunn/Lugar/Domenici Amendment to the 1997 
Defense Authorization Act. This is a program that had been run 
by DOD and DOJ, known initially as the 120 Cities Program.
    Through the resourcefulness of one of our officers, the 
Stamford Fire and Rescue Department was able to send a few 
trainers to the program held at Yonkers, New York. We received 
this training in May 2000 and subsequently presented the 
Domestic Preparedness Training Program to our line fire 
fighting personnel in 2001.
    Also in 2001, our department began to access the National 
Domestic Preparedness Consortium through FEMA, DOJ and DOE, 
which provides specialized training in WMD response at 
different sites throughout the country. Pre-September 11th and 
since September 11th, we have sent officers and fire fighters 
to the COBRA-WMD Hazardous Materials Technician and Incident 
Command courses at Fort McClellan in Anniston, Alabama, the 
Incident Response to Terrorist Bombings course at New Mexico 
Tech in Socorro, New Mexico, and the WMD Radiological 
Technician course at Bechtel in Mercury, Nevada. Having 
participated in all of these programs, I can say that it is 
some of the most well organized and presented training that I 
have attended in my fire service career.
    After the October anthrax attacks, our city, region and the 
entire Nation was inudated with what I'll refer to as white 
powder calls. This truly tested the ability of fire, police, 
health and environmental services to work together on a local, 
State, and Federal level. I can honestly say that I have never 
worked closer with our local police department on any other 
effort. With written guidelines established on the spot, I 
believe we handled scores of incidents with the utmost of 
professionalism. We ran inter-agency training for awareness and 
operations and we improved upon recognized deficiencies. This 
was developed through our previous Domestic Preparedness 
templates and regularly updated recommendations from the CDC, 
FBI and DEP. The cost of these responses and training were 
borne by the local municipalities.
    Here in Connecticut the current emergency response plans 
don't speak enough to regionalization of specialized services. 
This is a clear disadvantage to the lack of a county form of 
government. One positive example of a regionalized service is 
the Fairfield County Hazardous Materials Response Team. This is 
an effort of 13 communities in the southwestern part of the 
State that have pooled resources for response to hazardous 
materials emergencies. This team serves a population greater 
than 500,000 people and includes two of the State's largest 
cities, Bridgeport and Stamford.
    The Department of Homeland Security should ensure that 
first responders are recognized as a focal point. Local, State 
and Federal politicians were eager to come to the fire 
fighter's side after September 11th and say we support you 100 
percent, and whatever you need to accomplish your task will be 
provided. Those promises lasted until election day when 
suddenly fiscal constraints changed the tune of many at the 
State and local level. We soon found ourselves back to the same 
arguments, threats of reduction of personnel, closing of 
companies, lack of adequate training dollars, and contract 
negotiation impasses.
    Words are not enough. What we need is action, long-term 
support, adequate staffing, maintained equipment, and continued 
training. We are being asked to put our lives on the line every 
day when we leave our families to work. We're asking for your 
support so that we can have a greater chance of returning to 
them at the end of that day.
    I thank you for your time.
    [The prepared statement of Captain Newman follows:]
    [GRAPHIC] [TIFF OMITTED] T7386.046
    
    [GRAPHIC] [TIFF OMITTED] T7386.047
    
    [GRAPHIC] [TIFF OMITTED] T7386.048
    
    [GRAPHIC] [TIFF OMITTED] T7386.049
    
    [GRAPHIC] [TIFF OMITTED] T7386.050
    
    [GRAPHIC] [TIFF OMITTED] T7386.051
    
    Mr. Shays. Thank you. Mr. Docimo. Sorry. I pronounced it 
Docimo. I apologize. You've been to my office and I appreciate 
your visits. This is one of the reasons why we had this 
hearing.

STATEMENT OF FRANK DOCIMO, SPECIAL OPERATIONS OFFICER, TURN OF 
                     RIVER FIRE DEPARTMENT

    Mr. Docimo. Well, thank you. If you're looking on your 
schedule, I'm the speaker to be announced.
    When you decide in your committee where you're going to put 
dollars, take a look at me. I am the first responder. I don't 
wear gold badges or slash marks. I come from a combination 
department in the city of Stamford that has 17 paid and the 
rest volunteers. So I'm going to address some of those issues.
    I want to just go over a couple of my credentials because 
one of the issues I think you need to understand is who you're 
getting your information from.
    Mr. Shays. Let me just say we don't want to spend time on--
you are well credentialed.
    Mr. Docimo. OK.
    Mr. Shays. So we'll pass that by.
    Mr. Docimo. Very good.
    The point to be made here is that I've been in hazardous 
materials since 1989 and have spoken in front of the 
Connecticut legislature in 1989 and now all of a sudden we've 
got people with 1 or 2 years of experience telling us where to 
spend our money and what's best for this country. I will tell 
you that we are messed up in some of our issues.
    On the morning of September 11th it did not matter in our 
State whether we had any HazMat response teams, which we have 
none and I'll address that issue later. We have no USAR teams, 
nor do we have an awful lot of Federal funding. Well, that 
morning it didn't matter. What New York City needed was bodies. 
They needed us to support them, which has never happened in 
this country's history.
    When it moved, which was very quickly, within an hour or 
two, my unit, which is a heavy-duty rescue unit, was the only 
rescue unit for 25 miles because big cities like Stamford, 
Bridgeport, Fairfield, and Westport jumped down to help the 
brothers in New York. Yet my little department had to kind of 
pick up the slack.
    We had no air-monitoring equipment. Your committees talk 
about what equipment to buy. I can train you externally. One of 
my specialties is air-monitoring. I literally went home, took 
the gas detection devices out of my training cache and gave it 
to the downtown city fire department so we could operate. That 
is a tremendous issue.
    Simple things like gloves and masks. And I'll tell you 
what, here's a little commercial, Home Depot right up the road 
was tremendous in giving us the things we needed that morning.
    Over 1 million lines of communications were disrupted when 
the towers went down. When we talk about communications, I've 
got an issue that I'll bring back up. The bottom line is on 
September 11th they needed help.
    Hours after the attack our hospitals were on full-time 
mode. The local water supplies were being paroled. The fire 
stations were bare. These things we call terrorism task force 
groups, which are basically some paramedics and HazMat guys, 
and I was responsible for the north part of that district. I 
was involved in what the Department of Justice calls the 
terrorist task force or the tactical considerations. I was one 
of five expert--they're called expert trainers to develop that 
program.
    About 3 weeks after the event we were called by the 
Department of Justice with a question, and this is a question 
that I'll have to live with the rest of my life. Did we fail as 
emergency responders to see the forest from the trees. What are 
some of the points? First response to Connecticut in 
emergencies such as chemical, biological and radiological 
events, we're as dysfunctional as the Osborne family, and I'm 
here to tell you that.
    In 1989 I spoke in front of the Connecticut legislators on 
regional HazMat teams. Back then the career chiefs could not 
get together with the volunteer chiefs. So we still do not have 
regional HazMat teams in this county. Unionized fire 
department--which I am. I'm a union fire fighter. They call 
volunteer fire departments rival organizations. How do we 
accomplish this task of making sure the first responders can do 
their job if we won't even talk. Who is representing the 75 
percent of the fire service that are volunteers?
    Did we fail to train? You talk about training? In 1989 OSHA 
passed legislation that said police, fire fighters and EMS 
responders would be trained. Yet simply those people simply 
just didn't do it. The police departments in 1989 were 
dictating to have various training. Hospitals in 1992. There's 
actually an OSHA question that was asked and answered says that 
you have to train at the operation level.
    Because of the dollars, the Department of Defense, the 
Department of Justice, MPA, National Fire Academy, everybody's 
fighting for the dollar. What we ought to do in a training 
initiative is get the best in the country to come together and 
write one program that everybody can use instead of everybody 
trying to do their own little gig. The 120 cities that were 
given the money, that was political. It had nothing to do with 
exposures or needs. It was political. That's where those cities 
got their dollars from.
    Did we fail to equip? A few cities got an awful lot of 
dollars. They purchased a lot of equipment. You know what they 
didn't get? They bought hardware and they bought no software. 
They were given $300,000. I will tell you that it's a 
$299,999.99 question. You see, they bought equipment that would 
not help them one iota, but because they got the money to 
spend, they weren't giving you guys back a nickel.
    There's an approved equipment list. The approved equipment 
list was put together in 1998, and yet we're still purchasing 
equipment off of that. Now, how would you like for your company 
to--if I said your company is finally getting a computer, but 
you got to buy computers with technology in 1998. We need to 
address that issue.
    There's a device called a gastramastricostromy (ph). If you 
read the fine print, it says dumb firemen shouldn't buy this. 
Yet Montgomery Fire Department bought it because they have the 
money and 15 miles away Fairfax, Virginia bought one because if 
the Joneses got one, then the Smiths have got to have one. That 
kind of stuff needs to stop.
    I was involved in Toledo, Ohio doing some training. They 
bought the equipment. Seven months later I went to train them. 
I had to cancel the class because nobody even took the stuff 
out of the boxes to charge the batteries or to see if they got 
what they paid for. The government is not supplying any money 
to maintain that equipment. So we're going to have an awful lot 
of equipment that is simply just going to sit there.
    Communications? How can I talk to somebody on the moon, yet 
I can't talk to my brother or sister fire fighter behind me. We 
need to address the communication issue full on.
    Radiological? The government used to sponsor a radiological 
program. They pulled that program off. The cold water's warm. A 
little fire department like Turn of River Fire Department had 
to spend $1,700 of our own dollars to buy radiological 
equipment because of the threat of a germ bomb.
    In closing I'll leave you with a couple of thoughts. 
There's an awful lot of issues on who's a first responder. You 
want to know who a first responder is? I'll tell you what I've 
been saying all over this country. You all saw the movie Top 
Gun. The last thing in Top Gun was the nips were coming in. 
They launched a couple of planes. The report was there's two of 
them, there's four of them, no, there's eight of them. The 
captain in that ship said launch me some more fighters. The 
report down on the flight deck was we can't do it. The catapult 
is jammed. The captain asks how long will it take to unjam? 
From the flight deck he was told 15 minutes. The captain said 
in 15 minutes it will be over. On September 11th it was over 
before we knew what hit us.
    As you look at some of the things as far as first 
responder, what I really want to say is that we need to focus 
on where we're going to spend our dollars. I'll leave you with 
one last thought. Weapons of mass destruction has taken on a 
whole new meaning. It is called ways of making dollars. There 
are people trying to sell us the one suit, the one book, the 
one meter on technology as recently as yesterday's bioassays 
were canned because of their inaccuracy.
    We have to really look at what our job function is, and we 
need to understand that on September 11th the new war is us, 
police, fire and EMS. We're the people that died that morning. 
And unless the emphasis is put on people like me and my 17-
year-old son that's a volunteer in my fire department, we'll 
never win this war.
    Thank you.
    Mr. Shays. Thank you very much.
    Mr. Clarke.

STATEMENT OF PAUL CLARKE, EXECUTIVE DIRECTOR OF OPERATIONS, EMS 
               INSTITUTE, STAMFORD HEALTH SYSTEM

    Mr. Clarke. Congressman Shays, Congressman Tierney, members 
of the committee, thank you very much for the opportunity to 
speak before you today.
    My name is Paul Clarke. I'm the executive director of 
organizational and clinical effectiveness at Stamford Health 
System. Hopefully I will be able to address some of those 
hospital questions that came up a little bit earlier. 
Additionally, just for your information, I'm a licensed 
paramedic in the State and practice as one. So I think that I 
can bring some perspective to this discussion.
    The fact that a representative of a local community 
hospital and health system is included in a field hearing that 
seeks input on domestic security and first responder support 
is, I believe, a critical step in more completely defining the 
term first responder. Without a Homeland Security definition of 
first responder that includes hospitals and health systems, I 
think it is difficult to imagine and plan for an appropriate 
response to acts of domestic terrorism, especially with regard 
to those acts involving the potential use of weapons of mass 
destruction. Ensuring the readiness of our Nation's hospitals 
should be considered as important as training and equipping 
local police, fire, EMS, emergency management and public health 
organizations.
    While there are a great many challenges that we must still 
face together, it seems most prudent to continue the process of 
strengthening our Nation's first and most important line of 
defense against domestic terrorism by identifying the critical 
components of the first response system that would be called 
upon to deal with an act of domestic terrorism and then 
aligning in a systematic, efficient and effective manner 
Federal financial, subject matter, and emergency planning 
expertise and resources. Anything less, I believe, will likely 
result in a fragmented and disintegrated response capability 
and a resultant increase in morbidity and mortality from an act 
of domestic terrorism.
    Community hospitals and health systems, by virtue of their 
mission and function, must be considered an essential part of 
the first response system and be supported through the 
allocation of financial and other support. I don't think I need 
to tell the members of this group anything about the financial 
crisis that hospitals currently face.
    This perhaps somewhat unconventional definition can easily 
translate into a mutually beneficial relationship given the 
unique attributes of and resources inherent to hospitals. As 
was evident in New York City on September 11th and during the 
days and weeks that followed, first responders from the police 
and fire departments, EMS, emergency management, the military 
and the public health community worked together first to 
establish a continuum of care in response to the attacks. 
That's a continuum of patient care.
    The thought of removing any of these relatively unique but 
complementary aspects of the response would seemingly greatly 
reduce the effectiveness of the actual response. It therefore 
seems to reason that as we look forward and plan on 
strengthening this most important line of defense, the Nation's 
front line of first response, we act collaboratively and 
challenge ourselves to break down barriers that are often 
inherent in these types of initiatives. Only then will we be 
able to truly move forward to realistically address what is 
likely the greatest challenge in emergency management planning 
in our history.
    I think it's fair to say that I believe one of the reasons 
I'm here today is because we recently held an emergency 
management demonstration in Stamford Health System, during 
which time we unveiled some equipment we recently purchased. I 
sit next to a couple of my colleagues here and I can tell you 
firsthand that we've been frustrated at Stamford Health System, 
and I imagine the same holds true across the State, that more 
has not come our way in terms of financial or equipment support 
since September 11th.
    We have spent somewhere in the neighborhood of 100 to 
$125,000 of hospital funds to purchase decontamination 
equipment, to purchase training from local fire fighters and 
instructors, and to try and bolster our front line of defense 
so that we had some minimal level of preparedness to handle the 
worst case scenario incident. It disturbs me greatly that 
hospitals across the country are not more adequately prepared 
for a weapons of mass destruction incident.
    In summary, I think that the focus of this group needs to 
be how to best coordinate the distribution of resources, how to 
define the term first responder, and how then to get the 
resources deployed and put in place where they'll do the most 
good.
    [The prepared statement of Mr. Clarke follows:]
    [GRAPHIC] [TIFF OMITTED] T7386.052
    
    [GRAPHIC] [TIFF OMITTED] T7386.053
    
    [GRAPHIC] [TIFF OMITTED] T7386.054
    
    [GRAPHIC] [TIFF OMITTED] T7386.055
    
    [GRAPHIC] [TIFF OMITTED] T7386.056
    
    Mr. Shays. Thank you very much, Mr. Clarke.
    Mr. Yoder.

     STATEMENT OF ALAN YODER, EMS COORDINATOR, WESTPORT EMS

    Mr. Yoder. Congressman Shays, Congressman Tierney, members 
of the committee, thank you for the opportunity to speak with 
you today. I am Alan Yoder, EMS coordinator for Westport EMS. I 
also serve as the secretary to Southwest EMS Regional Council.
    Through the council, shortly after September 11th, we 
started surveying the EMS services in our region as to what 
they had available for personnel, equipment and communications. 
We looked at what they had done on their own to prepare for 
this. One of the things that helped us along is that all the 
towns in our region do have mass casualty plans that have been 
in existence since the early 1980's. These plans have also been 
updated, the standards, to conform with the State Department of 
Public Health and they all follow the New England Council Plan 
Mass Casualty Program.
    We've done many drills with these programs. We've had a 
chance to look and see what works and what doesn't work and 
update some of the packages. And based on this, we have some 
basic equipment in place to deal with patients, but we found 
that it's not adequate for the potential number of injured 
patients we could have at this time.
    We also now see that we have to incorporate patients with 
respiratory problems from chemical or biological attacks that 
we had not done before. Previously we always considered that 
was for people on bomb wards and when we're ready, we'll 
transport them off to the hospital, but we no longer can have 
these patients laying flat. You need to set them up because of 
their respiratory injuries.
    One of the things that we did as a region was look at 
packages that we could put together through the Regional 
Council to supplement towns, and that's that we would put 
together a package for the service to have, provide them with 
the initial material they would need, and a package that would 
be placed in all the front line vehicles so that there was 
protection for the crews. Even as we teach EMS crews to stay 
back from an incident and wait for the HazMat teams to go in 
and take care of it and make it safe, we know our people are 
going to end up in the middle of things anyway. Even if they 
stopped at a safe distance, contaminated patients are going to 
come to us, and we need to protect our crews so that they don't 
become the next round of victims.
    We also looked at putting together regional response teams, 
free trailers where we could have equipment to supplement both 
the EMS services in the towns and the hospitals, knowing that 
as we start to move the patients from the field to the 
hospitals, it's going to start to decrease their resources as 
well.
    As we did this review, we also reviewed our communications 
system. Here in Southwestern Connecticut we have Southwest 
Regional Communications Center. It's commonly referred to as C-
Med. C-Med is what we use to provide day-to-day communications 
between our ambulances and the hospitals. With this system all 
EMS units can talk to one another. We've had this ability for 
many years and it allows us to have the coordination of the 
units on the scene with both command and control functions and 
it allows us to have centralized, accurate, reliable 
information to coordinate with the mobile units, and we can 
also get an assessment of available hospital beds statewide.
    The C-Med system is designed for ambulance to hospital 
communications. We usually don't have the ability to coordinate 
once we get outside the vehicles. So we do need to upgrade the 
system and include with that portable-to-portable 
communications so that once we get outside of the unit we can 
continue to talk. We have limited frequencies, but if the 
system were to be upgraded, we would also have the ability to 
talk on a system to both the police and fire departments in 
their coordination where they're still lacking and trying to 
put together a system.
    I also serve on the Mass Casualty Committee of the New 
England Council for EMS. One of the recommendations that group 
has made to the EMS directors of all six New England States is 
a comprehensive data collection system. That is a real-time 
system starting with pre-hospital and emergency room patients 
so that we can start to see patient trends throughout the 
entire New England area rather than individual hospitals, as 
was mentioned by Mayor Knopp earlier.
    I've also served as a training officer for 15 years of my 
service. I've seen a lot of programs put together for training 
individuals that have been very narrowly focused. As programs 
come together and additional training is needed for dealing 
with these incidents, I suggest that they consider adding these 
to the components of the existing Federal DOT EMS curriculum so 
that responders can take additional training or do refresher 
training as part of the regular EMS programs, reducing the need 
to monitor certain patients at different levels for the 3,000 
providers we have in this region. They also need to take a 
hazardous approach and focus on day-to-day operations and make 
it as concise as possible.
    The Regional EMS Council is receiving $6,000 over 2 years 
for administrative costs associated with conducting a survey of 
regional capabilities, which we've already done. We will 
continue to update with it and add to that what municipalities 
have added on their own and together report on pre-hospital 
preparedness.
    Also when it is granted, we will work with other State 
agencies to develop disease scenario-specific response 
protocols for the State. I feel that we don't need disease 
scenario-specific responses. We need to have easy to follow 
response protocols that are similar to day-to-day responses and 
will work far better than something that's specific to a 
particular incident. EMS responders must approach all EMS calls 
with added trepidation and concern for their own safety, 
whether from terrorists or accidental cause. We don't need 
different programs, but ones that follow basic guidelines that 
are easily adapted to the local available resources.
    I believe that the grants programs received for Federal 
funds need to be simplified. We're spending far too much money 
on administrative costs, thereby reducing the funds that are 
available to the local responders. With staff from both State 
and local agencies being shifted to complete applications, 
they're being taken away from their daily functions. This has 
also had an impact on the local responders because the routine 
business is falling between the cracks and it can start to 
injure our patients the same as a terrorist attack. Whatever we 
do, we need to focus on the care of our personnel and the care 
that is provided to our patients.
    Thank you.
    [The prepared statement of Mr. Yoder follows:]
    [GRAPHIC] [TIFF OMITTED] T7386.057
    
    [GRAPHIC] [TIFF OMITTED] T7386.058
    
    [GRAPHIC] [TIFF OMITTED] T7386.059
    
    [GRAPHIC] [TIFF OMITTED] T7386.060
    
    [GRAPHIC] [TIFF OMITTED] T7386.061
    
    Mr. Shays. Thank you, Mr. Yoder.
    We're going to start out with Mr. Tierney. He can have as 
much time as he'd like and then I will invite my colleagues to 
ask some questions. We're going to try to have those questions 
collectively not take as long because we do want to get to our 
third panel before Mr. Tierney finds himself on an airplane.
    Mr. Tierney. Thank you all for your testimony, and I don't 
have as many questions as you might imagine because I think 
you've been pretty precise and clear about what the priorities 
are, what the problems are, and what some of the solutions may 
be.
    But, Mr. Yoder, I did want to ask you a little bit about--
you were talking about the complexity of Federal applications 
for some of the first responder money. Are you sure that you're 
distinguishing between the Federal aspect of those and the 
State requirements and how would you size up----
    Mr. Yoder. My experience is limited. I know that actually 
the EMS director was finally included in this plan. It was done 
at the State level, and that we really lost him for about 2 
months even with the EMS system at the State level because he 
and several of his staff people were working on applications I 
believe for a couple of human services. So that's where we're 
losing people that usually work with us as they're working on 
these other grants.
    Mr. Tierney. For anybody that can answer this, I would be 
curious to know how Connecticut deals with this situation. What 
is the State plan right now in Connecticut in terms of dealing 
with a response that's necessary and aside from that, does 
Connecticut have a separate response system set up for 
biochemical matters or is it all done in one package of 
everybody responds to any kind of emergency?
    Chief Maglione. Right at this time there is now a formal 
process being signed off in the last couple of weeks--in the 
next couple of weeks. At present we have what's called Mutual 
Aid Plans with our neighbors, and in Fairfield County we have a 
regional HazMat team that responds to that type of incident 
backed up by Stamford, who has a significant number of 
personnel that are trained and/or other local teams in the 
State.
    However, on a statewide disaster response, that plan is 
being put together and the State is being broken down into 
sections with a coordinator and if specific needs are 
requested, a task force will be assembled. The goal is to be 
able to move 1,000 fire fighters within 1 hour to where they're 
needed. That's the goal. I don't know if that's pie in the sky. 
I mean, considering we're a very small State and if we do not 
self-respond with the clogged highways, I think that is 
something we need to accomplish.
    Mr. Tierney. How far are you from that plan?
    Chief Maglione. My understanding is that we're within 2 
weeks, 3 weeks.
    Mr. Tierney. Following up with you, Chief, and, Captain 
Newman, we talked a little bit during the break. Where do you 
currently get your training for fire fighter response?
    Chief Maglione. Well, in Bridgeport we train in-house. We 
also contract out with the State of Connecticut to supply us 
trainers in certain areas, and there may be other outside 
organizations that we contract with.
    Mr. Newman. In Stamford we do in-house training as well. We 
take people off the line----
    Mr. Shays. Move a little closer.
    Mr. Newman. We take people off the line and put them in a 
training division for their areas of expertise that they might 
have and they get the information across to the fire fighters. 
Also attached to the Federal programs that I mentioned earlier, 
we had to go out and find those things. It didn't come to us.
    Also in the State of Connecticut the Office of Fire 
Prevention Control and Fire Training Academy does have programs 
for us, but a lot of the Federal dollars that would come 
through directly to some of the communities for the specific 
training needs are all filtered through that organization. So 
unless they come down through that organization, we often don't 
get the money.
    We recently ran a hazardous materials technician course 
that was funded pretty much by the 13 communities that belong 
to the Fairfield County HazMat group. We got no State money. We 
got no Federal money for that program, and that was a 
significant cost.
    Mr. Tierney. Mr. Docimo, where do you get training for your 
volunteers?
    Mr. Docimo. We have in-house trainers. We'll also use some 
of the same resources. But like Captain Newman said, we got to 
hunt those down though. There's an awful lot of, you know, 
ceding programs out there, but you really got to almost be in 
that little inner circle to find out what agency has what you 
need in order to accomplish the task. And ours is a little more 
difficult because most of our staff is volunteer. We're talking 
about nights and weekends and holidays and those kinds of 
issues as opposed to, you know, moving somebody to a training 
division.
    Mr. Tierney. Well, let me ask all the panel on this. One of 
our colleagues just made a proposal that there be a Regional 
New England facility where first responders of all types could 
go. Can you roughly if I just go left to right starting with 
Chief Berry and right down the line and very quickly tell me 
what you see as the pros and cons to that type of a program.
    Chief Berry. Frankly, I think it's the way to go. And as 
far as Fairfield County, we work together very well. We've even 
looked at training involving U.S. (indiscernible) teams. So I 
think it's the way to go.
    From the other side, the negative aspects of it, I really 
don't see many negative aspects of it as long as we sit down at 
the table and we decide what we are going to do and make proper 
plans, you know, to assist each other. I don't see any negative 
aspects of working together on a regional basis.
    Mr. Tierney. Chief Maglione.
    Chief Maglione. As we spoke before, I guess we're going to 
go back and forth on this issue. You know, why reinvent the 
wheel. Most of the States in New England have their own 
regional training facilities, whether they be police or fire. 
If those places have to be updated, it's already there. Why 
have our members incurring costs of traveling to some distant 
location, thereby increasing the expense to the local 
communities.
    Mr. Shays. So in other words, State by State is good 
enough?
    Mr. Maglione. As far as I'm concerned State by State 
(indiscernible).
    Mr. Tierney. And I don't want to sound (indiscernible) but, 
Chief Berry, I'm just curious, would it be an impact to you if 
you had to send your people to another State within the New 
England region in order to get that training?
    Chief Berry. Yes, it would. We talked about overtime costs. 
Especially if you're talking about small communities. If I send 
someone out, you're definitely going to have to pay some 
overtime costs.
    Mr. Tierney. So does that change your opinion about having 
one regional location versus a State region or----
    Chief Berry. I think it would definitely hurt us 
financially to have to do that. So that's--like I said, if the 
organizations effectively were broken down into the State and 
then broken down into a regional basis and then the State, I 
think it might be better.
    Mr. Tierney. Maybe I wasn't clear. When I said regional, I 
didn't realize that you were responding to regions within the 
State, and I really wanted to know what your opinion was with 
respect to one within the region of New England. Maybe I'll get 
a clearer answer now that I'm making myself a little clearer. 
Captain?
    Mr. Newman. The region in New England for Stamford Fire 
Department I'd have to say as well as the Connecticut Fire 
Academy is concerned is a regional New England facility for us. 
It's all the way up at the top of the State. For daily type 
programs, a 1-day program or even 2-day programs it's a lot of 
trouble for us to get up there and back. You have to go up and 
stay there, be away from your family and things like that. I've 
traveled all over the country to these programs. It's tough to 
get away from your family. And it is a financial burden to the 
local communities to pay for these things as well. But as the 
Chief mentioned, the facilities exist in the various States. 
Having the instructors be able to go to those facilities might 
be a better way to go.
    Mr. Tierney. Mr. Docimo.
    Mr. Docimo. Yeah, I think it's almost like a real estate 
question. Location, location, location. Like the captain even 
said, to go from Stamford to Hartford, we don't utilize that 
facility because of that. What you may want to look at if 
you're going to do that in the regional centers is to deliver 
the high level of training that we can't get in the localized 
areas, specialized training like the Tactics Considerations 
Program or advanced air monitoring or the hospital's role in 
the WMD event. Those types of issues.
    But to effect the training issue you got to bring that down 
as a street beat cop, fire fighter, EMS provider. So rather 
than doing the nickel-dime stuff where you got to truck 3 hours 
away, do that with a more specialized group that can afford, A, 
some of the heavy-duty equipment and bring in the best 
instructors that we possibly can. That would probably give us 
the most bang for the buck.
    Mr. Tierney. Thank you. Mr. Clarke.
    Mr. Clarke. From a hospital perspective I think it's fair 
to say that we are constrained by financial difficulties that 
would make it even more difficult to expose adequate numbers of 
the staff covering three shifts to train. We find it much more 
effective to identify and bring in local instructors such as 
Captain Newman and Fire Fighter Docimo. That has been very 
effective. And we found in Stamford anyway, given the great 
number of resources and the high degree of expertise, to be a 
worthwhile cause to sort of partner with the local first 
responders.
    Mr. Tierney. Thank you. Mr. Yoder.
    Mr. Yoder. Well, if your plan was to locate the center 
within Westport, CT, we would be more than happy to attend. 
[Laughter.]
    Mr. Tierney. It was not my plan. It was my colleague's. If 
it was my plan, it would be (indiscernible), but it's not.
    Mr. Yoder. I have a feeling it would be very crowded. I 
have a service of 120 volunteers and I do not have the ability 
to send them out to a New England regional school. I need to 
bring the training in to them. I can get far greater training 
done. I don't have the associated personnel to cross train in 
the class like many departments do. So I'm limited to whatever 
it costs to bring instructors in.
    And for the most part it's interesting because in working 
with this volunteer service, very rarely do we ever pay to 
bring an instructor in. We're able to get whatever training we 
need on a volunteer basis because of the reputation the 
services have.
    Mr. Tierney. Thank you.
    Mr. Shays. Thank you. Gentlemen, I'm struck by the fact 
that we all need each other, don't we? All of you are highly 
dependent on the other and it's a very humbling thing to see, 
and I know that you all go out of your way to work closely with 
each other.
    I want to say, Mr. Docimo, you are a colorful figure and 
you keep me awake, but I'm not sure I agree with one part, and 
maybe you just were trying to emphasize it. Your testimony is 
you have no HazMat units within the State of Connecticut. Maybe 
you need to define that.
    Mr. Docimo. Yes. After the event in Stamford when we burned 
the four fire fighters, and one of the fellows that was burned 
was a part of my wedding party, we tried to organize a HazMat 
group. I was--that's 1983. It took me 14 months----
    Mr. Shays. Just give me more direct because----
    Mr. Docimo. Yeah.
    Mr. Shays [continuing]. I need an answer.
    Mr. Docimo. OK.
    Mr. Shays. Let me just say something to you. You have so 
much knowledge and it's hard to--but just stay right to the 
point.
    Mr. Docimo. In the State of Massachusetts they run seven 
regional response teams. That was after an event that occurred 
out on the eastern shore of Massachusetts. We have no State 
funded, State supported HazMat teams. Hartford, CT had a team. 
They lost it because of funding. New Haven had a team. Lost it 
because of funding.
    Mr. Shays. So there's no locally funded HazMat team?
    Mr. Docimo. Stamford maintains it because we had the event 
and we burned four fire fighters. They have----
    Mr. Shays. And let me just ask you, Captain Newman, how 
many is that?
    Mr. Newman. In Stamford we have 45--currently 45 people 
that we consider to be technician level trained in HazMat----
    Mr. Shays. But they're not totally devoted to HazMat?
    Mr. Newman. They are fire fighters that respond--a three-
unit task force and they are fire fighters, but they do HazMat 
as well. And then we also do--you know, I have to differ with 
Mr. Docimo here. We do have a regional team. I'll agree it is 
not State supported. It is not federally supported, but it is 
supported by the 13 communities that do belong to it on a 
regional basis.
    Mr. Shays. And those start from where? Don't tell me all 13 
but----
    Mr. Newman. Stamford through Stratford. Every community on 
the coast and basically one town up in----
    Mr. Shays. Chief, you want to jump in on this issue?
    Chief Maglione. Well, I'd agree with Captain Newman. We do 
have a regional team and it is not funded by the State, but is 
funded by the communities.
    Mr. Shays. Now, is it your recommendation, Mr. Docimo, that 
we need to have a State funded regional HazMat organization?
    Mr. Docimo. In other States the only HazMat teams that 
really survive are State funded regional teams. I am not 
knocking midcounty. I am not--they were formed out of a need, 
which if you go to Pennsylvania or Massachusetts, you have 
things like standardized SOP's all over the State. You have 
standardized equipment lists. These guys are street fire 
fighters trying to do a job by getting the funding support from 
13 communities. We need to look at regionalization. The key to 
this thing is to be able to get that resource onsite in the 
shortest period of time. I firmly believe that regionalized 
HazMat teams are the answer to the problem.
    Mr. Shays. OK. I just wanted to understand.
    Chief Maglione. Mr. Chairman, may I just add one little 
bit?
    Mr. Shays. Sure.
    Chief Maglione. I completely agree on the State funding for 
regional HazMat. What exists in Massachusetts right now was a 
Connecticut plan that was never put into effect.
    Mr. Docimo. Because they stole it from us. Absolutely.
    Mr. Shays. Mr. Yoder, is it the testimony in Westport that 
they have 100 HazMat suits? Is that what I'm hearing?
    Mr. Yoder. Through our police chief, he went out and 
purchased suits and respirators for each EMS and the police 
department.
    Mr. Shays. And they are different--do they have different 
gradations of effectiveness?
    Mr. Yoder. I don't know. They're still in the box.
    Mr. Shays. OK.
    Mr. Yoder. I believe actually they were doing the training 
programs this morning. So they're just getting into that aspect 
of it.
    Mr. Shays. Now, Stamford has 60 not in the box?
    Mr. Newman. Stamford has a large amount of equipment. I 
don't know the exact numbers, but they're Level A, B and C 
protection as far as personal protection ensembles. A lot of 
stuff is coming down through the Federal DOJ program, and in 
Westport--the Westport Fire Department is the base of the 
county HazMat. They are getting a lot of this personal 
protective equipment as well to supply both the fire fighters 
and EMS and police also.
    Mr. Shays. Mr. Docimo, your testimony would be if they're 
still in the box, that's kind of an illustration of your point 
that we're not really trained yet to use them?
    Mr. Docimo. Actually you'll violate OSHA law if you put 
them on. The other thing is a lot of departments are buying 
carbon filter type respirators, which NIOSH, which is the 
approving agent, will not allow in a chemical emergency. There 
are police departments not only in our State, but nationwide 
that went the cheap way out with a couple hundred dollar gas 
masks that the minute they put it on they violate seven OSHA 
laws.
    Mr. Newman. I'd like to add that's where this DOJ funding 
for all this equipment came down, especially here in the State 
of Connecticut. No dollars were attached for training for it. 
It was almost--you asked earlier about what's the priority 
here. All of it together is a combined effort, but unless you 
have the training and the personnel resources to go along with 
that, none of it's going to work. Not one piece of that whole 
puzzle is going to solve the problem.
    Mr. Shays. You know, this is very instructive and very 
helpful, and you're all giving us honest answers. We're all 
elected officials trying to deal with this issue.
    I'm eager to know, Chief Maglione, would you add anything 
to this point here about getting equipment and clearly knowing 
how to use it and to be able to train all is one package?
    Chief Maglione. Yeah, you asked earlier about what the 
priorities were, and communications and training on an equal 
basis are the priorities in my view. The equipment is going to 
flow, whether we're going to purchase it ourselves or it's 
going to come from some other source, but you can have all the 
equipment in world, but unless you go out there and train--and 
I mean really train, have live drills. Not what we experienced 
2 years ago at the Marriott up at Trumbull, but actually get 
out in the fields where we have backup companies where 
Stratford is going to come--and I'll use this as an example. 
Stratford and Milton are going to come to Bridgeport or 
Westport is going to move into Fairfield and Fairfield is going 
to come--we're hoping to do that in November. It's just going 
to take a lot of work. But that's the kind of training that has 
to take place.
    Mr. Shays. I have just one last element with health care 
issues. Do you have the ability to tell me if I should feel 
confident and Mr. Tierney and the other Members up here that 
the hospitals are on a daily basis providing information to the 
State that there is the kind of coordination we have been told 
there is about particular outbreaks so that we can see if, in 
fact, there is chemical exposure and there is biological 
exposure and so on?
    Mr. Clarke. I can address the issue of biological exposure. 
We very strictly follow CDC protocol, Center for Disease 
Control, and report any unusual patterns and infectious disease 
identification there may be.
    Mr. Shays. But it may not be unusual to the one hospital. 
It becomes unusual when you notice----
    Mr. Clarke. Right. That is reported on a very regular basis 
up to the State. So the infectious disease (indiscernible) is 
right on top of that. What you should feel uncomfortable about 
is being in a situation where you might be exposed to a 
chemical or other type of characteristic agent and have to seek 
care in a hospital. Hospitals are generally unprepared to deal 
with that.
    Mr. Shays. Let me do this. I'm going to explain to my 
colleagues that I want Mr. Tierney to get to the next group. I 
then--when he has to leave, we can still ask, all of us, that 
next panel, and then we're going to have people from the 
audience who may make comments will be able to ask questions. 
But I do--if there's one or two questions from any of you, 
let's put it on the table.
    Do you have some questions you would like to ask, Mr. Duff?
    Mr. Duff. Yes. Thank you.
    I just want to ask Captain Newman about the point during 
his testimony that towns in Connecticut didn't meet the 
population numbers for some of the funding for the grants, 
correct?
    Mr. Newman. Correct. Home rule here in Connecticut is it 
has its advantages but it has its disadvantages as well. Some 
of the communities that did benefit by the 120 City--the 
largest population I believe is 180,000 people. Some of them 
included counties or regional districts. We have no regional 
districts here. So there's a difficulty in 13 communities 
deciding where that population number is coming in and who is 
the governmental authority overseeing those 13 communities.
    Mr. Shays. Any other member? Mr. Stone.
    Mr. Stone. Thank you, Mr. Chairman.
    Just quickly to Captain Newman or whoever would like to 
respond, it's my understanding that Midcounty HazMat has a far 
more difficult time obtaining funds because they're kind of a 
combination of a bunch of communities. If you were an 
independent fire department, for example Bridgeport, 
independently asking for funds or if we had a county 
government, it would be in a much easier position to get 
funding, but by the fact that we have geographical county lines 
but not, in fact, county government, it makes it far more 
difficult. Is that a true statement?
    Mr. Newman. I would agree with that statement, yes.
    Mr. Stone. Do you have any suggestions on how it might be 
easier?
    Mr. Newman. The State right now is--I see as the only 
realistic approach to being able to commit dollars to 
regional----
    Mr. Shays. See, that's the challenge we have. We wanted to 
go directly to the local communities, but somehow the State has 
to get involved in this. It strikes me that's the challenge 
that we're facing.
    Mr. Newman. If for whatever reason one of these 13 
communities decides to pull out of the pack, the system could 
fall apart. And if that one community was the community that 
received the Federal dollars or whatever dollars, then the rest 
of the group could suffer from that.
    Mr. Shays. OK. Thank you.
    Ms. Boucher or Senator McKinney.
    Ms. Boucher. I'll hold them for the last panel.
    Mr. Shays. You'll hold them for the last.
    We would have other questions to ask you gentlemen. You're 
on the firing line and a tremendous contribution to this 
dialog, and I thank you, and we're going to get right to our 
next panel, if that's OK. So I thank you, and I'll call our 
next panel.
    We have Daniel Craig, Regional Director, Federal Emergency 
Management, accompanied by Gerald McCarty, Acting Director, 
Office of National Preparedness; Adjutant General William 
Cugno, Connecticut Military Department; Captain John Buturla, 
executive officer, Division of Protective Services, Connecticut 
Department of Public Safety; Harry Harris, bureau chief of the 
Connecticut Department of Transportation, accompanied by 
William Stoeckert, director, Highway Operations.
    Gentlemen, I need to swear you in, if you would stand and 
raise your right hands.
    [Witnesses sworn.]
    Mr. Shays. For the record, our witnesses have responded in 
the affirmative.
    And I do want to say that you bring a smile to my face in 
part that you were willing to be the third panel and to listen 
to panel one and two. You broke protocol, but it really is 
important from my standpoint that you be able to hear what was 
said and now your testimony is that much more valuable to us.
    So we're going to go with you first, Mr. Craig, Director 
Craig, and then we'll go to Acting Director McCarty. Pardon me?
    Unidentified Speaker. (Indiscernible).
    Mr. Shays. Oh, I'm sorry. We're going to have one person's 
testimony, but then you'll participate in the whole dialog.
    And then we'll go to you, General Cugno. General, I'm going 
to be real strict on time because you love your job so much I 
have to watch you closely. [Laughter.]
    Then, Captain Buturla, we'll go to you and then to Harry 
Harris. OK? Thank you. Mr. Craig.

STATEMENT OF DANIEL CRAIG, REGIONAL DIRECTOR, FEDERAL EMERGENCY 
                       MANAGEMENT AGENCY

    Mr. Craig. Thank you, Chairman Shays, and Congressman 
Tierney. Thank you for being here.
    I'm Daniel Craig, Director of the Federal Emergency 
Management Agency's Region I Office in Boston. I'm pleased to 
be here with you today to talk about the challenges facing 
emergency managers and first responders.
    FEMA Region I includes the Commonwealth of Massachusetts 
and the States of New Hampshire, Vermont, Connecticut, Rhode 
Island and Maine. Region I is home to approximately 14 million 
people residing in urban and rural areas. We have significant 
disaster activity within the region, having administered to 25 
Presidential Disaster Declarations within the last 5 years. 
While we are vulnerable to a broad range of natural and 
technological hazards, our greatest threats are a result of 
severe weather, especially floods, and the potential for 
terrorist attacks.
    FEMA Region I has 81 full-time employees, including 320 
part-time intermittent on-call employees. The on-call employees 
help regional staff respond to Presidentially Declared 
Disasters and emergencies. Presently we have employees working 
in Vermont, West Virginia, Texas, Arizona and Guam, responding 
to the effects of a typhoon.
    The regional office is located in Boston, Massachusetts. 
The Federal Regional Center, which serves as our Regional 
Operations Center, is located in Maynard, Massachusetts. The 
agency also maintains five identical and geographically 
dispersed mobile emergency response units. Ours is located in 
Maynard, Massachusetts. Region I is lucky enough now to have 
one of those five response units.
    At the Region I office we coordinate also with other FEMA 
regional offices, especially Region II in New York, which 
covers New York, New Jersey, Rhode Island and (indiscernible). 
The directors of all ten regions meet monthly to ensure 
regional coordination and communication, and our staffs work 
together on all types of training, exercises, disaster response 
and recovery programs.
    Immediately following the World Trade Center disaster, 
Region I was in direct support with FEMA Region II. The 
Regional Operations Center in Maynard, Massachusetts was 
operational within a couple of hours and Federal resources 
required at the disaster location were originally coordinated 
through our facility in Maynard. Not only do we coordinate with 
other FEMA regions, but we also coordinate with other Federal 
agencies involved in the Federal Response Plan.
    Under the Federal Response Plan, FEMA coordinates a 
disaster response that involves up to 27 Federal agencies and 
12 emergency support functions. Each of the 12 emergency 
support functions is led by a Federal agency both nationally 
and in the local regions. In the past 10 years the Federal 
Response Plan has been used to respond to the Northridge 
earthquake, Hurricane Floyd, the bombing of the Murrah Building 
in Oklahoma City and the disaster of September 11th.
    In order to maintain our readiness and coordination for 
large-scale disasters, including acts of terrorism, regional 
Federal agencies regulate and exercise a response plan. FEMA 
Region I meets quarterly with the Regional Inter-agency 
Steering Committee to share plan efforts, exercise preparedness 
and responsiveness. The risk is a group of Federal agencies in 
New England who work together during the emergency response to 
both natural and man-made disasters. At FEMA Region I we also 
work closely with New England States, especially here in 
Connecticut, for preparedness for all disasters man-made or 
natural.
    One way we assist the States is the Radiological Emergency 
Preparedness Program or the REP Program, which includes 
planning, exercises and training. This programs ensures offsite 
emergency plans and preparedness activities are in place and 
can be implemented to protect the health and safety of the 
public living in a city of commercial nuclear power plant. 
Staff review and evaluate offsite emergency response plans 
developed by State and local governments. These plans after 
implementation and determined to be adequate, are sent through 
special reports to the U.S. Regulatory Commission for their 
approval.
    FEMA Region I currently has four operating commercial 
nuclear power plants; Seabrook Station in New Hampshire, 
Pilgrim Station in Massachusetts, Millstone here in 
Connecticut, and (indiscernible).
    Through the years of working with other States we have 
developed a strong working partnership to strengthen our 
response to emergencies and disasters, especially here in 
Connecticut with Adjutant General Cugno, the State Emergency 
Management Director, and the new Office of Homeland Security 
for the State. Our region has participated in several training 
and planning meetings bringing together selected officials and 
representatives of the first responder community throughout our 
States.
    The exercises and planning meetings provide a forum for 
discussions relating to first responders, planning, training, 
equipment, exercises, border issues, mutual aid agreements and 
other Homeland Security issues. A showing of its cooperation 
will be held in a November exercise called Operation Yankee, 
which will happen at the Naval War College in Newport, Rhode 
Island, which will include emergency managers from the Federal, 
State and local level of our Federal and State partners.
    The State government has spent millions of dollars directly 
responding to Homeland Security needs, including the anthrax 
crisis. While much has been done, we've identified many 
shortfalls in our Nation's ability to respond to weapons of 
mass destruction. These shortfalls must be addressed. Homeland 
Security measures must be sustainable and will require ongoing 
commitment of Federal, State and local resources. This is why 
the President's First Responder initiative is vitally 
important. And you all know that a first responder is 
(indiscernible).
    In addition to the right equipment and planning 
capabilities, first responders have been telling us that they 
need a single point of contact with the Federal Government. 
They need a single entity to take a lead in coordinating 
programs, developing standards, providing resources and 
training to help them respond to terrorist events. This 
approach builds on a collaboratively developed national 
strategy and not just a Federal one.
    We've heard from other sources too, including the Gilmore 
Commission, which has pointed out that Federal Government 
terrorist preparedness programs are fragmented, uncoordinated 
and unaccountable. It has also stressed a need for a single 
authority for State and local terrorist preparedness support. 
Other independent studies and commissions have also recognized 
the problems created by the current uncoordinated programs. In 
our view, it is absolutely essential that the responsibility 
for pulling together and coordinating the myriad of Federal 
programs designed to help local and State responders and 
emergency managers to respond to acts of terrorism be situated 
in a single agency. That is why we are excited about the 
President's creation of the Department of Homeland Security.
    Last, 10 months ago several thousand people lost their 
lives in the terrorist attack on the World Trade Center, the 
Pentagon and United Airlines Flight 91, which crashed into a 
rural field in Pennsylvania. 450 of them were first responders 
who rushed to the World Trade Center in New York City, fire 
fighters, police officers, Port Authority officers. These 
events have transformed what was an ongoing dialog about 
terrorism preparedness and first responder support into action. 
Since September 11th, our responsibilities have greatly 
expanded in light of the new challenges and circumstances.
    Our Nation's first responders are the front line defenders, 
and may be required to respond to a terrorist attack, a natural 
disaster or a technological disaster. We know that they must be 
better prepared to respond to threat of terrorism and we should 
ensure that they have training and equipment to do so. We must 
take the steps to unify a fragmented system of Federal 
assistance that has not served them well at all. These 
investments will pay dividends by enhancing our Nation's 
ability to respond to any emergency.
    Thank you for the opportunity to testify here today and 
I'll take questions after.
    [The prepared statement of Mr. Craig follows:]
    [GRAPHIC] [TIFF OMITTED] T7386.062
    
    [GRAPHIC] [TIFF OMITTED] T7386.063
    
    [GRAPHIC] [TIFF OMITTED] T7386.064
    
    [GRAPHIC] [TIFF OMITTED] T7386.065
    
    [GRAPHIC] [TIFF OMITTED] T7386.066
    
    [GRAPHIC] [TIFF OMITTED] T7386.067
    
    [GRAPHIC] [TIFF OMITTED] T7386.068
    
    [GRAPHIC] [TIFF OMITTED] T7386.069
    
    Mr. Shays. Thank you. I noticed that you summarized some of 
your statement and still ran over.
    And, General Cugno, I have to for the record say that he 
was allowed 8 minutes. So you will be allowed up to that. 
[Laughter.]

   STATEMENT OF ADJUTANT GENERAL WILLIAM CUGNO, CONNECTICUT 
                      MILITARY DEPARTMENT

    General Cugno. Thank you very much, Congressman. I 
appreciate the opportunity to be here. On behalf of the 6,000 
men----
    Mr. Shays. Just turn that mic to face you.
    General Cugno [continuing]. We appreciate the opportunity.
    I'm going to change a little bit of my testimony. I 
provided you a written document for the record----
    Mr. Shays. It will be on the record.
    General Cugno [continuing]. And I'm going to give you the 
abbreviated version because I'm sure it will alleviate minutes. 
I would like to offer a number of comments on the previous 
panels that came up because they addressed some of the issues 
that were brought up, specifically my role and responsibility 
as the Chair of the----
    Mr. Shays. I'm going to request that you not talk so fast. 
Even though I'm limiting your time, it will be better testimony 
if you speak more slowly.
    General Cugno. OK. I'm concerned that there's a clear 
understanding of the Domestic Preparedness Steering Committee 
that the government has established. In a sense with the--as it 
relates directly to the Federal Government's application 
process concerning Justice Department grants, I would like to 
be able to respond to questions that were brought up earlier.
    The Connecticut Domestic Preparedness Steering Council that 
I chair brings together on a regular basis the various 
stakeholders representing those throughout our State that have 
a role specifically in domestic preparedness. As I mentioned, 
Governor Rowland commissioned this in May 2000, and it has a 
primary function to be an inclusive organization. Inclusive in 
that we have a number of organizations that are represented 
from the Connecticut Hospital Association, Fire Fighters 
Associations and the Chief of Police Organization. In doing so, 
the council collectively integrates Federal resources at a 
State and local level. To this end, much has been accomplished 
to facilitate the prioritization and flow of limited resources 
to best deal with today's threats.
    In addition, the Steering Council recently, as you heard of 
this afternoon, conducted a leadership symposium directed 
toward municipalities here in the State. Of 169 towns and 
communities within the State, 160 of them participated. We 
invited executive leadership from the towns and encouraged them 
to bring their emergency management officials. I'm happy to say 
that more than 700 Connecticut professionals participated.
    The purpose was to provide local leaders with information 
in a printed guide on how to assess, strategize and plan for 
emergencies that affect their community. Specifically the 
document incorporated guidelines explaining how to do a risk 
assessment within their community, how to develop local 
strategy, and a sample emergency plan and updated emergency 
numbers should they have to contact officials within the chain 
up to the State headquarters.
    In Connecticut, management of an emergency at the State 
level is a collective effort between the Department of Public 
Safety and the State Military Department through its Office of 
Emergency Management. Mr. Vin DeRosa, who is our Deputy 
Commissioner with the Department of Public Safety, the Division 
of Protective Services, is Connecticut's liaison to Governor 
Ridge at the White House on Homeland Security. In my role as 
the Adjutant General of both the National Guard and the 
Military Department, I oversee the Office of Emergency 
Management and also this program. I coordinate daily with 
Commissioner DeRosa. This is a program that we find working 
quite well.
    Both the Department of Public Safety and the State Military 
Department work together to share actionable information and 
intelligence to place State and local governments in the best 
position possible to mitigate and respond to an act of 
terrorism, and we rely on the Federal Government to share the 
same. And to date I do believe that much more could be done or 
be improved upon.
    Specifically, I know that there will be a question 
regarding whether or not we support the Office of Homeland 
Security and we do. I think it is a good idea and I think that 
following the model within the State, it can provide great 
benefits to the States throughout the country in expediting 
information and intelligence in a rapid State to the firm.
    Individuals at the State and local level have asked do we 
need one in the State. It's an issue that I believe is being 
reviewed. Commissioner DeRosa and I are dealing with it to 
determine whether or not we would recommend that to the 
Governor or to the State legislative body.
    The events of last September highlighted how important it 
is to arm our first responders to combat various threats posed 
to them. Not just for daily routine occurrences, but also for 
the possible eventuality of a rare catastrophic event such as 
that on September 11th.
    The Connecticut Senior Steering Council through inter-
agency cooperation established three priorities, three 
priorities that have been discussed a number of times today. 
Those priorities were interoperability for communications.
    Mr. Shays. Hold on just a second. We're getting a funny 
noise. Why don't you pull that mic back. We're getting funny 
sounds.
    OK. Thanks.
    General Cugno. The three priorities were personnel 
protection equipment, that we've heard much discussed about 
here today, communications interoperability, again discussed at 
length today, and finally training and exercises. Now, this I 
might add from 20 individuals, members of the domestic 
steering, professionals within the field. Not surprisingly, 
emergency management agencies at all levels of government 
across the country have also identified these same topics.
    Prioritization and regionalization planning is essential 
because of the limited available resources. For example, it's 
estimated--and this was based on a survey that we did. It is 
estimated within the State of Connecticut just to provide 
personnel protection equipment to all towns and communities, 
and I'm talking about a simple Level A suit, would be $226 
million. We at the State level realize funding of this amount 
is unrealistic, thus requiring thoughtful and inclusive 
prioritization. This is one of the reasons why Governor Rowland 
commissioned the Domestic Preparedness Steering Council.
    As outlined in the President's National Strategy for 
Homeland Security, it's understood that Federal funding is no 
substitute for State and local monetary responsibilities in the 
emergency preparedness arena. Federal funding for State and 
local emergency preparedness is obviously limited.
    To date, Federal funding has supported State and local 
governments in their efforts to best equip and train our front 
line responders. Moreover, as the President's strategy clearly 
states, the definition of first responders has broadened 
extensively since September 11th. It no longer just includes 
traditional fire fighters and policemen and emergency medical 
technicians. It now includes a wide variety of other 
disciplines which will require plans and resources and training 
to fully integrate into our communities' emergency plans.
    To date, the State Military Department has received $2.6 
million for the fiscal year 1999, 2000, 2001. Much has been 
discussed about this today. I'll be happy to discuss 
distribution of that as dollars and materials have come in and 
how we have insisted on regionalized strength. We've also heard 
today that $4.6 million will be forthcoming from the 2002 
Justice Department grants. I'm happy to say that more than 70 
percent of the moneys received has been spent on standardized 
equipment which are being shipped directly to first responders 
throughout our State in accordance with priorities developed by 
the committee that I chair that are representatives of the 
Domestic Preparedness Steering Committee.
    One of the organizations that was not mentioned today is 
the Connecticut Hospital Association. They too provide 
invaluable information for decontamination and providing 
assistance to hospitals needs. I would be happy to talk to that 
on questions.
    The Connecticut Department of Health----
    Mr. Shays. I need to have you come to your conclusion.
    General Cugno. Yes, sir.
    The Connecticut Department of Health received $14 million, 
and we would be happy to talk during the question period on 
that.
    I think you'll find that a number of the areas that were 
discussed today have been topics of consideration and concern 
with the Domestic Preparedness Committee. I would be happy to 
answer questions that you might have on this.
    [The prepared statement of General Cugno follows:]
    [GRAPHIC] [TIFF OMITTED] T7386.070
    
    [GRAPHIC] [TIFF OMITTED] T7386.071
    
    [GRAPHIC] [TIFF OMITTED] T7386.072
    
    [GRAPHIC] [TIFF OMITTED] T7386.073
    
    [GRAPHIC] [TIFF OMITTED] T7386.074
    
    [GRAPHIC] [TIFF OMITTED] T7386.075
    
    [GRAPHIC] [TIFF OMITTED] T7386.076
    
    [GRAPHIC] [TIFF OMITTED] T7386.077
    
    Mr. Shays. Thank you. Captain.
    Thank you, General.
    General Cugno. Yes, sir.

 STATEMENT OF CAPTAIN BUTURLA, EXECUTIVE OFFICER, DIVISION OF 
                      PROTECTIVE SERVICES

    Captain Buturla. Thank you and good afternoon, Mr. 
Chairman, Representative Tierney, distinguished members of the 
panel. On behalf of Deputy Commissioner Vin DeRosa, who extends 
his regrets for not being able to be here today, and all the 
dedicated men and women of the Department of Public Safety, 
thank you for providing an opportunity to testify before the 
subcommittee.
    I come here not only as a first responder and captain of 
the State Police, but now as the executive officer of the 
Division of Protective Services, which is in essence the 
Homeland Security Office for this State. On a side note, I am 
an adjunct professor at Housatonic and I have to agree with you 
that it's a (indiscernible). [Laughter.]
    That's another story. I just wanted to go on record saying 
that.
    The State of Connecticut has changed after September 11th. 
The changes in domestic preparedness and emergency management 
procedures were necessary to meet the evolving world and 
threats to our great Nation. Deputy Commissioner Vin DeRosa was 
appointed to his position in the Department of Public Safety in 
August 2001 and on September 11th his mission and that of the 
Division of Protective Services has expanded. It is now the 
mission of the division to utilize all available resources 
within State government and to develop and implement unified 
safety and security measures to prevent, mitigate and manage 
incidents threatening the quality of life of the citizens of 
this State.
    Governor Rowland has also designated Deputy Commissioner 
DeRosa as the Homeland Security Advisor for the State in 
liaison with Governor Tom Ridge in the Federal Office of 
Homeland Security. As such, our responsibilities include 
coordinating the State's response to terrorism incidents and to 
ensure that the statewide strategy is consistent with the 
National Homeland Security strategy.
    The Division of Protective Services is presently organized 
into four major components that relate to Homeland Security. 
These components were created after September 11th to more 
effectively and efficiently deal with new responsibilities 
placed on first responders.
    The first major component is the Office of Statewide 
Security, which consists of a critical infrastructure 
protection unit, an Urban Search and Rescue Task Force, and a 
Transportation Security Section. I would be happy to expound 
upon any of those after my testimony here.
    The second section is the Domestic Terrorism Section, which 
includes participation in the FBI Joint Terrorism Task Force, 
the development of a Homeland Security advisory system for 
dissemination of information to all stakeholders, and an 
intelligence unit for the collection and analysis of the 
dissemination of information.
    The third and fourth sections are the Training and 
Education Section, and our most recent responsibility is the 
development of the Citizens Corps for the State of Connecticut.
    The Division of Protective Services is also coordinating 
the Governor's initiative on radio interoperability for first 
responders by our participation in the Communications Task 
Force. The task force is pursuing the possibility of very 
shortly offering State police 800 megahertz portable radios to 
local incident commanders, thereby to give them the ability to 
talk to each other and various State resources in a time of a 
crisis.
    The effectiveness of the current Federal programs to equip 
and train first responders is tied primarily to Federal budgets 
and grant programs that were previously in existence. The 
funding streams to first responders can best be categorized as 
in a state of suspense. The only Federal funds available are 
those that had been obtained prior to September 11th. Everyone 
in the first responder community and various other affected 
agencies are all waiting to see the much discussed Federal 
Homeland Security funding.
    Emergency response plans have always been subject to review 
and change. September 11th has mandated all communities and 
private concerns with ties to local, State and national 
critical infrastructures update their emergency plans. The 
development of an all-hazards approach to planning has been 
recommended. However, as with any plan, there must be exercises 
of the plan and resources needed to manage the incident.
    We support the creation of the Department of Homeland 
Security and appreciate the support that Governor Ridge and his 
staff has given to our State. From defining terminology, 
eliminating seams in disjointed Federal agencies, providing 
fiscal services, and the development of clear accountability, 
the Department of Homeland Securities is a required partner to 
the States in responding to new world threats. To have one 
agency with a central focus and a point of contact for Homeland 
Security is not only crucial to the national strategy, but for 
the development of the State strategy as well. The prevention 
and response to terrorism is a grass roots concern. The first 
to respond and the last to leave will always be the local and 
State first responders and our resources.
    The United States of America has long been considered the 
most powerful nation in the world. Many factors, including our 
democracy, open borders, constitutional privileges and our role 
as defenders of freedom have contributed to this belief. This 
makes us a country that many wish to come to, as our parents 
and grandparents may have done, to begin a better life. It also 
makes us the target in the world of terrorism.
    Our way of life was forever changed on September 11th. We 
must now build an organizational infrastructure on the 
national, State and local level primarily to protect because if 
we can't protect, we don't need a component of protection in 
being able to respond to terrorists. That is the mission of the 
Division of Protective Services. We will continue our 
commitment to lead the State's efforts in Homeland Security.
    I appreciate this time. Thank you.
    [The prepared statement of Captain Buturla follows:]
    [GRAPHIC] [TIFF OMITTED] T7386.078
    
    [GRAPHIC] [TIFF OMITTED] T7386.079
    
    [GRAPHIC] [TIFF OMITTED] T7386.080
    
    [GRAPHIC] [TIFF OMITTED] T7386.081
    
    [GRAPHIC] [TIFF OMITTED] T7386.082
    
    [GRAPHIC] [TIFF OMITTED] T7386.083
    
    [GRAPHIC] [TIFF OMITTED] T7386.084
    
    Mr. Shays. Thank you very much, Captain.
    Mr. Harris, I saw you this morning, and I'm familiar with 
your activities and I appreciate you being here this afternoon.

STATEMENT OF HARRY HARRIS, BUREAU CHIEF, CONNECTICUT DEPARTMENT 
                       OF TRANSPORTATION

    Mr. Harris. Thank you very much. Good afternoon, Chairman 
Shays----
    Mr. Shays. Move that mic closer.
    Mr. Harris. Good afternoon, Chairman Shays, Representative 
Tierney, and members of the State legislature. My name is Harry 
Harris. I'm the rail administrator and bureau chief of the 
Bureau of Public Transportation for the Connecticut Department 
of Transportation. I am joined today by Bill Stoeckert, who is 
the director of highway operations for the Bureau of 
Engineering and Highway Operations.
    Since September 11th, the Connecticut Department of 
Transportation has instituted a variety of changes to address 
emergency management procedures and preparedness. Conn-DOT has 
developed emergency response plans which outline the 
Department's Homeland Security Advisory System. And attached to 
my testimony is a copy of all of the plans that have been 
developed by each of the various bureaus within Conn-DOT. In 
addition to those plans that I've submitted to you, I will 
attempt to summarize some of the more salient provisions 
relative to each of our operating bureaus.
    First of all, with regard to the Bureau of Aviation and 
Ports at Bradley, the first responders there are the 
Connecticut State Police. Troop W, which is located at the 
airport, have taken specific first response steps in accordance 
with the Homeland Security Office as just outlined to you. As a 
result of September 11th, all of Bradley's fire fighters 
recently completed a 70 to 80-hour training program and now all 
are hazardous material technicians.
    Furthermore, the State unit was also given the opportunity 
to participate in the program whereby Bradley will receive 
equipment and supplies that would be most useful in the event 
of a mass casualty incident specifically related to weapons of 
mass destruction. Bradley was one of the first airports in the 
country to experience implementation of the Federal 
Transportation Security Administration Federal Security 
Director program and now has that program up and operating 
onsite.
    In terms of our ports, Conn-DOT controls and administers 
the Admiral Harold E. Shear State Pier in New London, and with 
coordination with Federal and local jurisdictions participates 
in the care and supervision of the State's waterways and 
harbors. The department continues to work closely with the U.S. 
Coast Guard on security of the ports. There has been a 
concerted effort to develop better communication links and the 
Coast Guard is reaching out to local and State entities. Under 
the new Coast Guard program, we're taking a look at various 
ports in the State in terms of security and what needs to be 
done there. We are currently requesting funding under that 
program.
    The attached Bureau of Aviation and Ports Homeland Security 
Alert document has a provision for evacuating cargo vessels 
from their berths in Connecticut harbors should the threat 
assessment warrant such actions. This evacuation would involve 
using Connecticut licensed marine pilots to get the vessels out 
of harm's way or to prevent the vessels from suffering a 
catastrophic catastrophe which would then in turn cause 
problems for other facilities and emergency responders.
    In the Office of Rail Operations we were--several things 
have come out as a result of the incident on September 11th and 
how we have to response to them. We have made major changes in 
the way we operate and personnel identification and so forth. 
But I think one of the key issues that came out of the 
September 11th issue was one that has been discussed fairly 
frequently so far this afternoon, and that is the issue of 
communications.
    At the time of September 11th, most of our communications 
were limited to cell phones. Our personnel was divided between 
New Haven, Stamford, Newington and the command center in Grand 
Central in New York. So some of the things, as we have talked 
about, is the need to improve our ability to communicate 
between Conn-DOT and Metro North and Amtrak in a crisis 
situation and to communicate between ourselves, and we're 
looking at a second command center as being something needed to 
be set up in this part of the State.
    We also have a lot of problems with our infrastructure that 
needs to be addressed in terms of bridges and other things that 
could cutoff the rail service in the event of a catastrophe 
type of situation.
    Similarly, in our Office of Transit and Ridesharing, we 
have 14 different transit districts in the State of 
Connecticut. Most of them have old and antiquated 
communications equipment where it is difficult to communicate 
with their own buses. It is impossible to communicate within 
the transit district. So a transit function in lower Fairfield 
County that involves Connecticut Transit, the Bridgeport 
Transit District, the Norwalk Transit District and the 
Stamford, CT, Transit operation have no way of communicating 
except through cell phones and through ourselves, and that is 
another issue that we're looking at.
    For the Bureau of Engineering and Highway Operations, the 
Office of Maintenance and Highway Operations have prepared a 
Homeland Security Advisory System Response Plan. This 11-page 
document outlines all of the responses. It's included in your 
program.
    But prior to September 11th Conn-DOT had in place 
Radiological Emergency Response Plans and Procedures using a 
Traffic Management Plan for a Millstone Nuclear Power Station 
disaster event. Implementation plans for a 2, 5 or 10-mile 
impact have been coordinated and developed with the Connecticut 
State Police and the Office of Emergency Management. The 
purpose of the Traffic Management Plan is to assist State and 
local enforcement officials and other emergency responders to 
engage in traffic and access control. The concept of operations 
includes traffic control and access control.
    Diversion plans for highway incidents on limited access 
highways along I-95, 395, 91 and 84 have been developed in 
cooperation with the local and State police, first elected 
officials and Conn-DOT field personnel. Guidelines for 
implementing the Traffic Diversion Plans have been developed 
for use when a major closure occurs on the expressways. 
Coordination of field personnel and field resources using 
variable message signs, HAR radio and other means have also 
been developed.
    Again, I tried to summarize the written document and I'll 
join the panel in responding to questions.
    [The prepared statement of Mr. Harris follows:]
    [GRAPHIC] [TIFF OMITTED] T7386.085
    
    [GRAPHIC] [TIFF OMITTED] T7386.086
    
    [GRAPHIC] [TIFF OMITTED] T7386.087
    
    [GRAPHIC] [TIFF OMITTED] T7386.088
    
    [GRAPHIC] [TIFF OMITTED] T7386.089
    
    [GRAPHIC] [TIFF OMITTED] T7386.090
    
    [GRAPHIC] [TIFF OMITTED] T7386.091
    
    [GRAPHIC] [TIFF OMITTED] T7386.092
    
    [GRAPHIC] [TIFF OMITTED] T7386.093
    
    [GRAPHIC] [TIFF OMITTED] T7386.094
    
    [GRAPHIC] [TIFF OMITTED] T7386.095
    
    [GRAPHIC] [TIFF OMITTED] T7386.096
    
    [GRAPHIC] [TIFF OMITTED] T7386.097
    
    [GRAPHIC] [TIFF OMITTED] T7386.098
    
    [GRAPHIC] [TIFF OMITTED] T7386.099
    
    [GRAPHIC] [TIFF OMITTED] T7386.100
    
    [GRAPHIC] [TIFF OMITTED] T7386.101
    
    [GRAPHIC] [TIFF OMITTED] T7386.102
    
    [GRAPHIC] [TIFF OMITTED] T7386.103
    
    [GRAPHIC] [TIFF OMITTED] T7386.104
    
    [GRAPHIC] [TIFF OMITTED] T7386.105
    
    [GRAPHIC] [TIFF OMITTED] T7386.106
    
    [GRAPHIC] [TIFF OMITTED] T7386.107
    
    [GRAPHIC] [TIFF OMITTED] T7386.108
    
    [GRAPHIC] [TIFF OMITTED] T7386.109
    
    [GRAPHIC] [TIFF OMITTED] T7386.110
    
    [GRAPHIC] [TIFF OMITTED] T7386.111
    
    [GRAPHIC] [TIFF OMITTED] T7386.112
    
    [GRAPHIC] [TIFF OMITTED] T7386.113
    
    [GRAPHIC] [TIFF OMITTED] T7386.114
    
    [GRAPHIC] [TIFF OMITTED] T7386.115
    
    [GRAPHIC] [TIFF OMITTED] T7386.116
    
    [GRAPHIC] [TIFF OMITTED] T7386.117
    
    [GRAPHIC] [TIFF OMITTED] T7386.118
    
    [GRAPHIC] [TIFF OMITTED] T7386.119
    
    [GRAPHIC] [TIFF OMITTED] T7386.120
    
    [GRAPHIC] [TIFF OMITTED] T7386.121
    
    [GRAPHIC] [TIFF OMITTED] T7386.122
    
    [GRAPHIC] [TIFF OMITTED] T7386.123
    
    [GRAPHIC] [TIFF OMITTED] T7386.124
    
    [GRAPHIC] [TIFF OMITTED] T7386.125
    
    [GRAPHIC] [TIFF OMITTED] T7386.126
    
    [GRAPHIC] [TIFF OMITTED] T7386.127
    
    [GRAPHIC] [TIFF OMITTED] T7386.128
    
    [GRAPHIC] [TIFF OMITTED] T7386.129
    
    [GRAPHIC] [TIFF OMITTED] T7386.130
    
    [GRAPHIC] [TIFF OMITTED] T7386.131
    
    [GRAPHIC] [TIFF OMITTED] T7386.132
    
    [GRAPHIC] [TIFF OMITTED] T7386.133
    
    [GRAPHIC] [TIFF OMITTED] T7386.134
    
    [GRAPHIC] [TIFF OMITTED] T7386.135
    
    [GRAPHIC] [TIFF OMITTED] T7386.136
    
    [GRAPHIC] [TIFF OMITTED] T7386.137
    
    Mr. Shays. Harry, thank you very much or, Mr. Harris.
    Representative Tierney needs to leave here in about 10 
minutes. So he's got the floor and he's got a driver ready to 
take him.
    Mr. Tierney. Thank you very much.
    I thank all of you again for your testimony.
    Captain Buturla, my understanding is that you're 
essentially the Safety Protective Services individually or 
personally involved in coordinating the State's Homeland 
Security, for lack of a better terminology, approach; is that 
right?
    Captain Buturla. That is right.
    Mr. Tierney. So let me ask you, have you then taken all of 
these different agencies within the State, whether it be the 
National Guard or Mr. Harris's Transportation Department or the 
State Public Health or State Police and so forth and sort of 
merged them together as one entity?
    Captain Buturla. No, there hasn't been a merging of 
agencies, not like would be proposed on the Federal side.
    Mr. Tierney. Instead you're sort of coordinating that 
effort, right?
    Captain Buturla. It's more of a coordinating effort between 
our division and the general who chairs the Domestic 
Preparedness Steering Council and brings everybody to the table 
to work on things collectively.
    Mr. Tierney. And is that working well?
    Captain Buturla. It is.
    Mr. Tierney. And do you work on memorandum agreements or 
any other formal basis or just how do you do it?
    Captain Buturla. Well, much of what we do is if an 
incident--or if we are looking at a specific problem area, we 
would reach out to various experts. If we had an issue with 
transportation, we would contact the Department of 
Transportation, and whatever the issue may be, we will work to 
resolve it within State government. And usually by resolving it 
with the State government will reach out to the local agencies 
also.
    Mr. Tierney. Are you then responsible for advising the 
government with respect to the allocation of resources, if you 
identify a situation, advising the Governor and the State 
legislature as to where you might--or what resources are best 
for a particular concern?
    Captain Buturla. We may be depending on what the issue is.
    Mr. Tierney. I raise it because I had a particular concern, 
as well as Chairman Shays on, you know, a number of matters 
with respect to this. I have great concern about the 
President's plan of putting 177,000 people from different 
agencies, lumping them together into a new organization. I 
think most of the Members of Congress agree that we ought to 
have a standard local position for Homeland Security. My 
preference would be that individual work more on a State model 
where that individual then has the authority to bring together 
all the parties and work out agreements as to how they will be 
addressed going forward. I am considerably concerned about 
putting FEMA in or putting the Coast Guard in and other Federal 
agencies in total.
    We had testimony from the General Accounting Office that it 
would take no less than 5 and probably closer to 10 years to 
get an organization like that together with some sort of 
operable form where we would actually be able to get some good 
coordinating results. I don't think we have that amount of 
time. I think we have to move a lot quicker than that. That's 
why I think in some sense the proposal is unmanageable and 
problematic for us. I would much rather see a model where we 
have the cabinet local position coordinating things with the 
authority to call people together.
    The concept that these different cultures, the turf 
battles, the budget battles, all those things are going to 
create problems that we have a lot of cooperation diversions. I 
don't think it's a good idea to sort of put them together until 
they find out later on it just doesn't work, and I have that 
real concern here.
    I also have the concern that we're going to lose some of 
the other core functions, some of the agencies with respect to 
FEMA in particular by putting them together in a agency whose 
core responsibility is national security so it assumes and 
moves the others to the back on that.
    So I wanted to share with you, and I don't want to put you 
on the spot because I know you're a company guy here and I 
don't want to do that. But we're building a record here and I 
wanted you to have some comfort. But I wanted to tell, you 
know, the former FEMA Director, James DeWitt, who I credit with 
doing great things for that department, it used to be people in 
my town, the citizens didn't want to see FEMA coming. When they 
said FEMA's coming to town, they'd try to throw up boards and 
just keep them out. But I think that's turned around. Now 
people look to FEMA. They look for them to assist.
    Well, we had a comment over the last decade FEMA has 
responded to over 500 emergencies of major disaster events. Two 
of those, two of them were related to terrorists, Oklahoma City 
and New York City. His view, ``entering FEMA into a Homeland of 
National Security agency seriously compromises an agency's 
previously affected response to natural hazards.''
    We all know the major FEMA responsibilities that are 
unrelated to Homeland Security include, among others, the 
following: Providing flood insurance and mitigation services, 
including free disaster mitigation, hazard mitigation and flood 
damage, conducting various programs and mitigating the affects 
of natural disasters such as programs to assist States in 
preparing for hurricane and natural earthquake hazardous 
reduction programs, providing temporary housing and food for 
homeless people, and operating the National Fire Data Center 
and National Fire Incident reporting system to reduce the loss 
of life in fire related incidents and much, much more.
    It may give me some comfort to have you explain somehow why 
it is that we have to take the entire FEMA and put it into this 
170,000 plus person group with all of the problems that I 
envision it's going to create as opposed to having FEMA work 
cooperatively with the Homeland Secretary and be responsive in 
the incidents of terrorist related events while leaving them 
free to deal with incidents other than terrorists.
    Mr. Craig. Well, that's an easy question to answer. FEMA 
has a role of first and foremost preparedness, whether it's 
terrorism, whether it's natural disaster, whatever it may be. 
The Office of Natural Preparedness within FEMA was organized in 
March of last year before the terrorist events of September 
11th. FEMA will be going in the plan to the Department of 
Homeland Security as a whole. It's not being carved up. Pieces 
aren't being sent anywhere else.
    Mr. Tierney. But there's people who are trying. That's 
actually not over yet.
    Mr. Shays. Let's speak a little slower. I want to make sure 
you're on the record.
    Mr. Tierney. The fact of the matter is that there are 
people who are trying to divide it up.
    Mr. Craig. Yes.
    Mr. Tierney. So we're not actually there yet.
    Mr. Craig. The role of the presiding president is to move 
it as a whole to the Department of Homeland Security. Our 
functions, our role inside the Department of Homeland Security 
will not change. We will still be the lead agency for flood 
insurance mitigation, for preparedness. Whatever our functions 
are now, that will not change.
    A couple of the reasons why it is necessary for us to go to 
the Department of Homeland Security, one is--it was talked 
about on this panel earlier and other panels over the day, is a 
single point of contact with the Federal Government. Not only 
just for terrorism grants or first responder grants. There's 
approximately $35 billion of Federal grants for terrorism this 
year spread across numerous Federal agencies, which will all be 
part of this Department of Homeland Security. If there's that 
single place that first responders or local governments or 
State governments can go to get access to most of the grants, 
to the expertise, to the training, to the planning expertise, 
it is going to be better for the local communities and for the 
State communities.
    The goals, the mission of FEMA will not change in the 
Department of Homeland Security. We will still complete our 
mission. Preparedness for terrorism is one part of that, yes, 
but our preparedness for all events is what FEMA works with the 
States on and the local governments, and that will not change 
in the Department of Homeland Security.
    But to better coordinate with the other Federal agencies--
we do have a tough time with some of the Federal agencies 
coordinating, and getting them into one department will help. 
There are numerous agencies involved, Federal agencies, pieces 
of the State department. It will help us coordinate better with 
them. We have numerous meetings with the other Federal 
agencies. Some do come. Some that don't come. And we will--it 
will help us having one department better coordinate with the 
States, with other Federal Government agencies.
    Mr. Tierney. Well, I hope you're right. I suspect that it 
will come out that way, but I think right now if we had a 
secretary, they'd be able to call those people together and get 
them to the table to have that kind of party. It wouldn't 
entail dropping everybody into the same pie. So I would suspect 
that you're being honest and, frankly, being wishful more so 
than (indiscernible).
    I think FEMA, as I heard from the earlier testimony, 
already is the primary point of contact for most communities 
and I think it does a good job on that. And knowing there's two 
out of 500 incidents that fall under terrorist attacks, it 
still gives me great concern. But knowing that you're one of 
the individuals working with FEMA, it does at least give me 
some comfort and I appreciate the services you give. I know 
that you took office I think the day before September 11th, 
which had you on (indiscernible).
    Mr. Craig. One comment on the earlier statement that the 
local governments call FEMA first. We will not and do not do 
any response without the State requesting it from FEMA. We 
don't work directly with the Federal Governments, the local 
governments. They don't come directly to us. They will call the 
State Office of Emergency Management and they will contact us. 
But we don't work directly with them.
    Mr. Tierney. So I thank you for your services, and again I 
hope your wish (indiscernible) with the President's merger goes 
into effect.
    And before I leave, Mr. Chairman, I just want to thank all 
of the witnesses that testified today, all of the fellow 
panelists for their courtesies. I know that I probably had more 
questions to ask and I may have taken some of your time. I'm 
very good at that. I thank you, Mr. Chairman, and I thank the 
community for being so gracious and I hope to be back sometime 
soon.
    Mr. Shays. Mr. Tierney, again, I appreciate this. This is 
the second time you've come down to the district and I 
appreciate the fact that you spent your day with us, and travel 
safe.
    Mr. Tierney. Thank you.
    Mr. Shays. I am going to recognize Senator McKinney and 
then I'll have questions after. Senator McKinney, we're going 
to go to you next.
    Mr. McKinney. Thank you, Mr. Chairman.
    In looking at the purpose of the hearing, obviously we're 
here to hear about progress that's been made in local 
preparedness, and thankfully there has not been a tragic 
incident that has tested our preparedness. However, General, we 
did have, I guess for the lack of a better term, the false 
alarm with the reservoir in Easton where three individuals were 
apprehended on top of one of the water tanks. And I'm just 
wondering if you have sort of learned anything from that 
incident in terms of the task force, you know, operation manual 
that you were putting together in coordination between the 
State and local agencies and the different agencies of police 
and health departments that might be useful for Chairman Shays?
    General Cugno. The answer to your question is yes. 
Specifically, the incident that happened, Chief Solomon, who's 
the Chief Police in Easton, was quoted as saying that by 
following the guide that was provided and by the State's 
leadership, was able to come up with the answers and immediate 
response from the State with resources that he thought they 
otherwise would not have had. It was a cooperative effort 
between Protective Services, the commissioner of the 
department, Vin DeRosa, and I'm sure many of them were onsite 
with a number of resources from the State directed to that 
incident. Within 2 days the incident was over and finished.
    And I might add that the Federal Office of Investigation 
also participated with law enforcement support. The State 
police participated. The Department of Health participated. Dr. 
Garcia's office participated. There were a number of Federal 
and State agencies who supported the effort throughout the 
State. It was done following the guidelines that were provided 
them. And basically it started with a phone call to the 
region's representative and that is the Office of Emergency 
Management.
    As Dan has mentioned, it's not directly to FEMA. It goes to 
the region. Connecticut follows the Federal response plan and 
we reach them, the municipalities, with the incident command 
system. The incident commander was Chief Solomon.
    Mr. McKinney. And my last question is for you, Mr. Harris, 
Harry, and it's probably a question that's already been 
answered, but obviously we've seen, you know, a great deal of 
emphasis on airport security obviously after the events of 
September 11th. Yet our trains and our ships can be used as 
weapons or transportation for weapons. Are we doing anything to 
protect those methods of transportation? I mean, obviously if 
you make sure that someone gets on a plane without a weapon, 
you don't have to check them when they get off, but that's not 
necessarily true with somebody on cargo ships. Where are we 
moving in that direction?
    Mr. Harris. I'm afraid I cannot respond in too much detail 
on either trains or cargo. The ports--the Department of 
Aviation and Ports is taking a look at cargo and shipments and 
developing security procedures. They are participating in this 
pilot program and taking a look at that. I cannot--I would have 
to get back to you with more details, that which can be 
discussed, to answer that question.
    On the rail side of it, there's been a lot of talk and a 
lot of discussion in terms of using the rails and how that 
could be a potential for terrorism. Again, there's some things 
that you just can't discuss with any more--you know, it's very 
close to, you know, in terms of what they do and such as 
Amtrak.
    Amtrak is now requiring, you know, that all passengers 
provide additional, you know, photo ID's and so forth. That 
simply is not practical on a commuter rail line. There are 
police, you know, riding the trains. There are, you know, Metro 
North personnel riding the trains and so forth, but when you're 
moving 50, 60,000 people on a rail line in the morning, it's 
just not, you know, possible to do that level.
    There's also been a--basically levels of threat assessment. 
How much damage could be done by an individual. An airplane 
became a moving bomb. A train can't be. It can't get off the 
tracks, you know, and kind of stuff. So there has been a lot 
of--we've looked at assessments of points of vulnerability. 
Obviously Grand Central is the highest target area and there's 
a lot to be done to protect Grand Central. Less so we've looked 
at the various stations along the line, but obviously they're 
not as high a target.
    The infrastructure, the movable bridges. We have four 
movable bridges in the State of--three movable bridges on the 
Metro North line. If any one of them gets hit, then the North 
East Corridor ceases to exist. And we're looking at threat 
assessment and what can we do to protect those and to maintain 
those. But that's basically what's been done.
    Mr. McKinney. Thank you.
    Mr. Shays. Thank you.
    Ms. Boucher.
    Ms. Boucher. Thank you, Mr. Congressman.
    What I've picked up this afternoon and in other meetings as 
well are these areas of concern, and I just want to touch on 
two of them and ask two questions.
    What I'm hearing is that communications is an issue. It's 
huge. That we can't communicate between each other, and then 
this is--in our first responders as well as hearing you mention 
on trains and having employees be able to communicate with each 
other.
    The other big issue is equipment, PPE's or detection 
devises, that there's got to be training because the equipment 
is so sophisticated that it isn't going to be used unless 
there's training. In addition, there has to be maintenance on 
that equipment to keep them. I heard that there needs to be a 
standard plan that's distributed--at least a standard plan that 
everyone can follow and that there should be drills, that there 
should be State funded HazMat teams, that we need to grant 
local funding. There should be a notification system, early 
warning single point of contact. Those seem to be the big 
prevailing issues.
    Now, the question I have for the general is when you 
mentioned in your discussion that you have a model plan in your 
documentation that is distributed but not necessarily a single 
plan, it's just a recommended plan and that local communities 
then develop their own, I'd like for you to react on the fact 
that it sounds to me like the local individuals are looking for 
maybe something more directive.
    And then the question for the captain as well as Harry was 
on my previous question on not necessarily incident driven, but 
an evacuation. If, in fact, you can't communicate amongst 
personnel, then how do we put into place a mass evacuation plan 
that would be safe? Those are my two questions.
    General Cugno. If I could respond. First I understand is 
the question of the plan. There has to be a basic fundamental 
understanding of the Federal response plan. We fully support 
the municipality or local official is completely in charge. The 
first responders, as we discussed today their needs and 
requirements, every day go to work and have an emergency plan 
to respond to an incident within their community. The needs and 
requirements that they have have been categorized into 
additional equipment and personal protection into 
communications and into training and exercises so that they 
know how to do that.
    The problem--when the first Justice Department grants came 
for 1999, 2000 and 2001, states--in our case, we put together a 
plan on how we would distribute it on a priority basis because 
it was an insignificant amount of money. It was $2.6 million. 
That's insignificant when the needs are almost $300 million.
    So we said where is the threat and what are the priorities 
for distribution and how do we get the professionals to 
recognize we have other requirements. We came up with a 
regionally supported regionalization program. It is not a State 
funded program. But is, however, funded from the Justice 
Department. The grants that we received this year from the 2002 
budget, which is more than $1 million, goes just to 
regionalization and providing those that sign on to provide 
regional support for specific types of equipment.
    Another thing that wasn't addressed today on a regional 
basis is the 31 hospitals. Every hospital received regional 
type equipment from the Domestic Steering Committee as part of 
the Justice Department grant. Those are success stories to 
answer part of your question. The plan and integration of it is 
us providing resources because our State is small rapidly 
moving from one end of the State to the other. So we minimize 
duplication because we know it is not affordable to provide 
every community every specific item that they would like. I'm 
not saying that they don't need it. And we also know that 
Federal funds that we receive are not a substitute for the 
general fund applications that have been implemented. So that's 
basically it.
    Ms. Boucher. Thank you.
    Captain Buturla. I'll address the communications issue 
first. Probably today, not tomorrow, all 169 towns will receive 
a letter regarding the fact that the State is willing to 
provide two 800 megahertz radios to each community in an 
attempt for a relatively quick solution of the interoperability 
problem. This will allow for the incident commanders to at 
least have communication so that we won't end up in a situation 
like what occurred in New York City where police and fire don't 
have the ability to talk. Communications is certainly something 
that is crucial to whatever type of emergency response, whether 
it be a local or a statewide response or even some type of 
national incident where we're bringing in Federal resources.
    Our division--and we're setting up a search and rescue task 
force that is a multi-disciplinary type of organization that 
would have police, fire, structural engineers, medical 
personnel, all different types of representatives on this. 
We're in the process of setting this up. That too has a 
communications component that we're dealing with and that we're 
trying to link all that into a Connecticut sub-communications 
system or a State police radio system. So we are working on 
communications. The Governor made it his initiative to do this 
and get some type of initial fix, if you will, for the 
communications interoperability situation.
    Mr. Harris. Let me respond to the communication issue 
looking at what happened on September 11th. Metro North has its 
own radio system. It's separate from, you know, the railroad 
system. They are able to communicate with all of their trains 
and all of their field personnel, but Connecticut--because of 
our unique relationship here in Connecticut where they are the 
operator and we are the owner of the system and we're the 
contractee, if you will, we do not have the ability to patch 
right into that system. So we have to be--the Metro North 
people are to find out what they're saying to one another.
    When the commissioner in Hartford wanted to know what was 
going on, he called me via cell phone to find out what was 
going on so that I could relay it to him after I called on the 
cell phone to either New York or to New Haven to find out what 
was going on because I was in Stamford. So there is 
communication, but with that kind of incident, that kind of 
major problem, you know, it just doesn't work.
    The Metro North system is also a single system. If for some 
reason their communications get shut down, then there is no 
redundant backup system for that, which is one of the things 
that we're looking at. If we had to involve Connecticut Transit 
and all the buses and all the other players in there, we have 
no system other than the telephone to contact the various 
transit districts.
    So while it's in place for an emergency of that kind, it 
clearly left some holes that need to be looked at. If you're 
looking at a massive evacuation kind of scenario, it gets all 
that much more complicated. And, again, the reason why I think 
we need some kind of a command center that has that ability to 
communicate back and forth to all the various players is 
because of the fragmented nature of public transportation in 
the State of Connecticut and the different players that are 
involved in it.
    Ms. Boucher. Thank you.
    Mr. Shays. Thank you.
    Before calling Mr. Stone and Representative--Representative 
Stone and Representative Duff, I just want to kind of have both 
of you start to think of the question--the answer to this 
question. I am hard pressed as a representative from the Fourth 
Congressional District as to why we would be under the Boston 
FEMA instead of under New York. I think of ourselves from the 
New York Metropolitan area and I feel that FEMA did a dirty 
trick appointing someone from my own congressional district and 
sending them up to Boston. If you could both think about that 
response, and, Mr. McCarty, I'm going to ask you to respond 
first as to why we shouldn't be looking at the entire 
metropolitan region. So that's what you can look forward to 
because I'd love an answer to that.
    And let's go to you, Representative Stone, and then 
Representative Duff.
    Mr. Stone. Thank you, Mr. Chairman.
    There are to my knowledge three levels of protective 
clothing for first responders. It's my understanding that there 
are as many as 16 potential biochemical weapons that can be 
utilized. Is any one of those suits capable of protecting our 
first responders in each one of those situations, and if so, 
what's the practicality of providing that outfit to each one of 
our first responders?
    General Cugno. Well, when we did the analysis for the 
Domestic Preparedness Steering Committee, we decided to 
standardize the suits that the State would be procuring with 
the Department of Justice funds using Level A. Level A meaning 
an excellent suit, and that's what we went with. I heard 
testimony today that some of the communities have purchased on 
their own suits. Some bought A's and some bought B's and C's 
for lesser threats or lesser incidents.
    The intent of the State was on a priority basis to procure 
Level A and to begin distribution. We've distributed to a 
number of towns within the last--in the last few months. As 
equipment becomes available, manufacturers will--we're not 
distributing it from our office. It's coming directly from the 
manufacturer to the communities here.
    In Fairfield County about--of the total grant for 1999, 
2000 and 2001 more than 22, 23 percent of the dollars were 
expended here in the three largest communities, and also in 
addition to that HazMat dollars. In the 2002 grant, as that 
money becomes available, that equipment will also come in as 
suits for that, too. I can give you a breakdown of the towns. I 
would be happy to.
    Mr. Stone. OK. Thank you. Staying with you, General, we've 
heard a lot of talk today about communications and people keep 
referring to 800 megahertz. In some of the hearings that we've 
had in Hartford you talked a great deal about a 700 megahertz 
system. I'm just wondering what the distinct advantages would 
be for the State of Connecticut over what's currently in place?
    General Cugno. Well, one of our colleagues earlier on the 
panel, he touched on it. He got into it pretty--it's got to be 
(indiscernible). You got to get the 700 megahertz emergency 
operations channels out. There simply are not enough 
communication channels. It isn't the hardware. No would should 
leave here thinking it's the radio.
    Commissioner DeRosa and Protective Services are immediately 
impacting and responding so that the police chiefs that are out 
there in all communities will be able to at least discuss or 
communicate with someone in the incident command system, nets 
as we referred to it, but the real problem is these first 
responders need additional frequencies so that we can set it up 
and establish proper communications and proper nets rapidly.
    Mr. Stone. There's also been some talk that it would be 
very advantageous for us to have a centralized communications 
system, for example, one for Fairfield County, which would 
coordinate all police, fire and EMS activities.
    General Cugno. I think that's an absolute benefit to the 
chiefs of police for all Fairfield County if they're able to 
establish nets, if you will, when they have the additional 
frequencies. Those are benefits of the frequencies, and they 
are absolutely necessary. So yes, and then hardware should be 
provided to adapt to those, but they have to have the 
frequencies.
    Mr. Stone. Does that become a duplication of the State 
effort or is that just----
    General Cugno. Absolutely not. No, that does not duplicate 
the State effort at all. The State police operate the 800 
trunking service with some smaller communities (indiscernible) 
on. We did that during the licensing. One must remember that 
all the activities for communications are licensed through the 
FCC. Now, we compete for those frequencies. That's a little 
understood item. We compete with the business world to get 
those frequencies. It should be mandated for public safety.
    Mr. Stone. And, Captain, just one last question.
    Captain Buturla. Sure.
    Mr. Stone. The USAR teams, we've heard about them for 
awhile. I know it's a lot of work to put it together. Where are 
we and when can we expect it to be up and running?
    Captain Buturla. The USAR team--I'm very happy to say that 
we just received some DOJ funding to begin equipment purchases. 
It takes about a million and a half dollars to adequately equip 
initially a USAR team. We are modeling the Connecticut team 
after the FEMA model. We are at the point now where we are soon 
to be advertising the availability of the positions. We're 
having some applications reviewed by counsel and looking at the 
ramifications of different types of positions that we're going 
to select people from.
    The team itself will be a statewide team, and you heard 
from previous testimony that it takes substantial time to get 
Federal resources here. It's our goal to have the Connecticut 
Urban Search and Rescue Task Force onsite within 60 to 90 
minutes of any large-scale structural collapse, regardless of 
the cause, within the State of Connecticut. It is something 
that is necessary, and right after September 11th the Governor 
came out publicly and said we will have one in this State, and 
we are working to that end right now.
    Mr. Stone. Thank you.
    Mr. Shays. Representative Duff.
    Mr. Duff. Thank you, Congressman. I'm going to have to go 
in a few minutes but, again, I wanted to thank you for having 
me up here today.
    I think on all three panels there has been a tremendous 
amount of testimony about our needs and our wants, and I guess 
I would just say that we really need to get our act together 
and that some of these--we really need to work well with the 
municipalities and we have to have more than kind of a wish 
list. I think we have to have a needs list and I think it's 
something we need to do sooner than later.
    Can everybody hear me?
    Unidentified Speaker. Yes.
    Mr. Duff. Anyway, the question I had was for the General. 
You spoke of the Steering Committee, correct?
    General Cugno. Yes.
    Mr. Duff. And you're working--is there a way of working 
with agencies that may not be part of your task force in the 
sense that--I'm trying to think I guess a little outside the 
box or anticipate maybe where terrorists or somebody may strike 
such as postal services with anthrax. I don't think anybody 
really anticipated that may happen. But are there ways of 
saying, OK, we know we need to coordinate with the first 
responders, police, fire, emergency medical, but are we also 
thinking of say the postal service as well as say cargo 
companies or any other kind of places where there may be some 
weaknesses that may not be governmental agency contrived 
businesses but could have--potentially may have some terrorist 
implications because of that?
    General Cugno. Yes is the answer to your question. The 
Connecticut Conference of Municipalities is represented and 
that organization is small towns. The business representative 
is the emergency medical technicians (indiscernible). The 
guidance from the Governor was inclusive rather than exclusive. 
And really the reason is you're looking to get a consensus of 
approval on the distribution process of Federal resources as 
they come in and also in building a safe plan because they're 
so limited in terms of dollars. There's limited Federal funds. 
So absolutely, yeah.
    Right now the funding strength is hung up in Congress now. 
With the supplementals soon to be, we'll be able to proceed 
again and continue on with the distribution of the priority PD 
and other (indiscernible).
    Mr. Duff. Thank you.
    Mr. Shays. Thank you. Let me start off with that question. 
I have a number of questions I'd like to ask all of you.
    Let me first thank you, General Cugno, for State 
sponsorship of a hearing we had on March 27th when you redid 
basically the workout of the disaster on the Amtrak train. And 
what we learned from that was just incredible. 200 people 
together not knowing how they would work with each other and 
seeing them walk through that was a tremendous--it was a 
tremendous thing to see the firemen, police, EMS and the Health 
Department and so on all getting together.
    I want to ask Mr. Craig and Mr. McCarty the question of the 
organizational team. And I realize you work within a system and 
so this isn't your decision. This is the way it is. But I mean 
I can understand why you would have New England as it related 
to the Department of Education or some other government agency. 
I can understand that it deals with a lot of different 
departments and agencies and governments. I have a gigantic 
challenge understanding why we live in Greenwich or Stamford or 
Norwalk or Bridgeport, why we would want Mr. Craig's 
organization out of Boston responding to that crisis and not 
the Greater New York area FEMA. And maybe you do and maybe you 
just don't know it. So walk me through it.
    Mr. McCarty. One thing I should make clear at the onset is 
that the lines that separate Region I from Region II is 
strictly administrative. It makes no physical or functional 
difference to the organization. Clearly during the events of 
the World Trade Center, there was no difference between Region 
I and Region II. As you well know, the regional office was very 
affected by the disaster. As a matter of fact we had to leave 
(indiscernible) Plaza, and Region I was actually Region II for 
at least 14 hours.
    In the events after the World Trade Center, many citizens 
in the State of Connecticut were victims of the disaster, and 
that's why we felt that they should apply to our recovery 
office for whatever assistance they required or whatever 
assistance was necessary for them to continue on with their 
lives. Clearly those lines that separate the two regions are 
strictly administrative and for most purposes, to be very 
honest with you, they're transparent.
    Getting back to your question, and it's a very valid 
question, one of our major concerns is Southern Westchester 
County. There's seven large cities in Westchester County and 
bordering them is Connecticut and Darien. We encourage those 
seven cities to work very closely in developing that HazMat 
plan, which again is similar to an all-hazards plan, which is 
traffic as well as technological for man-made disasters.
    That part of Connecticut, they're working with us because 
we've encouraged them to do it and we see that as a very viable 
need and interdependency between Westchester County and the 
southern part of Connecticut. That's an initiative that's being 
done on the local level with the encouragement of both Region I 
and Region II.
    So, again, it goes back to where administratively speaking, 
yes, the State of Connecticut is in Region I, but for all 
practical purposes it is transparent to us and the Federal--
another point that I should clearly point out to you is that 
I'm also responsible for the Commonwealth of Puerto Rico and 
the territory of the United States in the Virgin Islands. 
Distance is not a factor in our response capability. It's 
hardly even a challenge when I talk about 4,400 miles. So Mr. 
Craig's response to Connecticut at only 150 miles is minuscule 
to the amount of response that you get--clearly that you're 
going to receive from Region I.
    Should an incident ever occur, naturally Region I and 
Region II will always support each other.
    Mr. Shays. Excuse me. We have to stop. You need to move the 
mic a little closer. The transcriber missed the last thing you 
said. We're almost to the end and I appreciate all your good 
work today.
    Mr. McCarty. I'm very sorry if I'm creating more problems.
    Mr. Shays. You almost have a Boston accent.
    Mr. McCarty. No, I don't, sir. That's probably the one 
reason why the Connecticut Region isn't in Region II. I have a 
Brooklyn accent, sir.
    Mr. Shays. OK.
    Mr. McCarty. But, again, as far as administrative 
functions, that's the only reason it separates.
    Mr. Shays. Before I go to you, Mr. Craig, the bottom line 
is you're saying that if Mr. Craig needs a resource that Region 
II has, he's just going to call you up and you're going to get 
it there.
    Mr. McCarty. Absolutely. We both--all Regions. Region II 
supports Region I and Region III always in these types of 
incidents.
    Mr. Shays. And if there's paperwork to be filled out----
    Mr. McCarty. We leave that with Region I.
    Mr. Shays. Pardon me?
    Mr. McCarty. We leave that to Region I.
    Mr. Shays. Right, but I would make the assumption, and now 
I'm almost wondering if I should make that assumption, you 
would be sending people down to the area rather than having 
them have to come up to Boston to do that work.
    Mr. McCarty. Well, are you talking in reference to the 
events of the World Trade Center?
    Mr. Shays. No, I'm just talking about any filing of any 
paper in any action. There are forms to be filled out for FEMA 
and you're not going to direct that--and this goes to you also, 
Mr. Craig. I mean, if someone has a--see, I don't get in any 
big struggle. First off, Mr. Tierney and I have a slight 
disagreement on the issue of your intentions. He has doubts and 
I don't. But he understands why we're having this debate, and 
you gave a very nice answer. I think I was pleased with the 
answer and, you know, he hopes you're accurate about how it 
will turn out. I mean, so we have disagreements in Congress not 
just between Republicans and Democrats, but between Republicans 
and Republicans and Democrats and Democrats.
    But in the case of filling out forms and so on, if it's 
easier for someone to do it in New York, would they do it or 
would you actually be sending people down from your office to 
Fairfield, CT or to Darien, CT?
    Mr. Craig. In the case of filling out forms, almost every 
program we have that's federally funded goes through the State 
anyway. So those forms get sent to Hartford and Hartford sends 
them to us.
    One exception to that is the Fire Grant program. I have a 
fire point contact employee that actually goes out to all the 
local fire houses and works with them in getting that paperwork 
filled out, and that would be sent to Boston and not to New 
York. But there are very few grant programs that we go directly 
to the local governments and most of those go through Hartford.
    Administratively if we split up the State, it would be an 
administrative measure for a State administrative program in 
that they would be working with two different regions, Boston 
and New York, filling out forms for two different States, 
having planned for two different regions. Administratively it 
would be a nightmare.
    Mr. Shays. So you're saying administratively it would be 
handled, and you're basically saying the response to a disaster 
is going to be national indicating----
    Mr. Craig. To a Presidentially declared disaster there will 
be a site that the locals could go to. We'd open up a disaster 
field office for them.
    Mr. Shays. But if you opened up a field office, it's 
possible that Mr. McCarty's Region II is going to be assisting 
you?
    Mr. Craig. There's quite a few of his disaster employees 
that may come under----
    Mr. Shays. And the logic of this is clearly--I mean, you 
could have one region of the country that hardly ever has to 
deal with a disaster and you could have some that have many. 
And I would imagine that you have the ability to move resources 
wherever you need them.
    Mr. Craig. That's correct. The one example that was used 
before was the Atlanta office has approximately 400 disaster 
employees. They do not have any Presidentially declared 
disaster right now. They have approximately 350 of those 
employees allocated to other disasters around the country. So 
those employees go anywhere.
    It would be a nightmare to split up a State. We do have a 
lot of resources that we work together with in Region II. As I 
said earlier, the Federal Regional Center, which covers both 
Regions I and II, emergencies that are associated with that 
comes from both Regions I and II. So we do--as Mr. McCarty 
said, those lines are purely administrative for management, but 
any response to a disaster would be manageable (indiscernible).
    Mr. Shays. Let me just add and speak to our translator 
because--transcriber because when we're finished with all of 
you, I am going to invite anyone who wants to put anything on 
the record, anyone who testified at any of the previous panels, 
if they want to come in based on what they've heard this panel 
say and add to it.
    I am not clear, Mr. Harris, and others on whether we have 
an evacuation plan. Do we have an evacuation plan if we have 
a--whether it's in Millstone or whether it's a nuclear plant on 
the Hudson, do we have an evacuation plan in place that FEMA 
has worked on, the State has worked on? Is the answer yes or 
no?
    Mr. Craig. Yes.
    Mr. Shays. The answer is?
    Mr. Craig. Yes. That is tested every 2 years.
    Mr. Shays. Pardon me?
    Mr. Craig. That plan is tested every 2 years.
    Mr. Shays. OK. For every----
    Mr. Craig. Each and every department.
    Mr. Shays. OK. Now, let me go into it a bit. How 
comfortable are you that the various units know it? How 
comfortable are you that we can implement it? And when I say 
various units, so that if I just spoke to someone working for 
the State, would they know this plan and would they be 
comfortable in articulating it? General Cugno.
    General Cugno. Yes, the tests we do, they're certified.
    Mr. Shays. You do it and they certify it?
    General Cugno. They certify it. And it's an annual 
requirement every 2 years. It's a requirement. Our office has--
--
    Mr. Shays. But you're not the FEMA director in the sense 
that--so help me out here.
    General Cugno. The Office of Emergency Management----
    Mr. Shays. It's under you.
    General Cugno. Yes, sir. And we receive Federal dollars 
from FEMA offsetting their pay. We also provide municipalities 
several dollars from FEMA, pass-through dollars, and that's 
(indiscernible) into the cities and plans.
    Mr. Shays. So, Captain, your responsibility is to look at 
Homeland Security from not a national disaster standpoint, but 
more from an act of terrorism and you don't have this dual 
response of securing the homeland whether it's natural or not 
natural?
    Captain Buturla. We do to some extent. The Office of 
Emergency Management is under a (indiscernible) but we do look 
at consequence management in a variety of different manners.
    Mr. Shays. Let me ask as to where you are under, what are 
you under?
    Captain Buturla. The Department of Public Safety.
    Mr. Shays. Right. So you're not under the emergency 
management.
    Captain Buturla. No, sir.
    Mr. Shays. OK. So you're saying--let me just focus on your 
part of that responsibility. It's your focus primarily in 
response to terrorist attacks both--and are you both detection 
and prevention as well as preparedness and consequence 
management?
    Captain Buturla. Yes.
    Mr. Shays. All of the above?
    Captain Buturla. All of the above. We work very closely 
with the General Office of Emergency Management and 
Commissioner DeRosa and we would be joined at the hip, and 
honestly would have to be in order for it to succeed.
    Mr. Shays. Harry, are you familiar with an evacuation plan?
    Mr. Harris. I know that the Highway Department has an 
evacuation plan for Millstone and so forth, but I'm not 
personally----
    Mr. Shays. But someone in the department is familiar with 
it?
    Mr. Harris. Yeah, in terms of Millstone and so forth. There 
is no mass evacuation plan for the rail system.
    Mr. Shays. I mean, it's very impressive how quickly the 
State helped empty out the beds where they could in our 
hospitals in the Greater New York area or Connecticut. And so 
obviously there was a plan. A lot of people didn't know about 
it, but when it was implemented, it was pretty darn effective. 
So I think that we're going to want to take a look at that a 
little bit, this so-called evacuation because the bottom line 
is we have a hard time getting around this place when there's 
no traffic, you know.
    General Cugno. Mr. Chairman, can I add one thing? After 
September 11th when the Emergency Management Center opened, 
sitting at the head of the table was the Governor and every 
commissioner in the State was represented there. Commissioner 
DeRosa and I and all commissioners, health through 
transportation. Every issue in every incident in every agency's 
plan is then directed at that emergency operation center. 
That's how the hospitals scheduled--when the individuals were 
here meeting and greeting people as they got off the rail 
lines, it was directed from that office. When there were--parts 
of the public had no knowledge then because they were looking 
to see if there was another incident that was going to happen.
    Mr. Shays. Any other comments? What I'd like to----
    Mr. Craig. I have one comment and that's to remind you that 
FEMA has responsibility for those evacuation plans and any 
plans related for biological offsite from a nuclear power 
station. We don't have any responsibility for incidents or 
security plans onsite. That's the responsibility of the inner 
city and the owner of the power plant site.
    Mr. Shays. Now, this just gives me a good opportunity to 
say to you two for the record, I happen to believe it's not a 
question of when, where and in what magnitude we're going to 
deal with chemical, biological, radioactive or heaven forbid 
even nuclear, and for me the real organization of government 
has to come in response to what was the threat, what's the 
strategy and then how do we organize it.
    The genesis of this was bipartisan and the motivation 
clearly was bipartisan. There were as many Democrats as 
Republicans encouraging the White House to respond. In fact, to 
his credit Senator Lieberman was at the very forefront of this 
along with many of us, but clearly a much higher profile as the 
Senator and he made this committee to basically help us with 
this legislation. So Connecticut has been kind of invited to 
the forefront in this effort and it is without question needed. 
But we will have to work out the parts and work overtime to 
make it work.
    I am interested to know by a show of hands who would like 
to address--I would like to keep you all here, if you don't 
mind, because there may be a response.
    Who would like to address this committee? You won't be 
sworn in. We have one. We have two. We have three. We have 
four. And I have a feeling we'll hear from Mr. Docimo. I know 
you too well.
    OK. Can you raise your hands again, please. One, two, 
three, four, five.
    What we're going to ask you to do is we're going to give 
you a pad of paper and ask you to write in your full name and 
give it to the transcriber. We're going to have you come up. 
You can make a comment. You can ask a question of the panels. 
You can do almost anything you want to do. So we will want you 
to repeat your name, say your name, and then make your comment 
or address your question.
    I'd like these names--can we put them on one pad? Just put 
them on one, each one to a separate page.
    Who's ready to go? Does the mic work?
    Unidentified Speaker. Yes, sir.
    Mr. Shays. OK. Talk right into it.
    Mr. Browning. I'm David Browning. I'm a citizen from 
Stamford. First of all, I am very impressed and reassured by 
all the dedication and expertise that I've seen here. I thank 
you very much, Chairman Shays, for having the meeting here.
    The comment is there's one word that I heard one time here 
and that was urgency, and I think Chief Berry said that. This 
is an urgent situation here. And I'd like to ask you, Mr. 
Chairman, and anyone else, do you think that all of us have an 
adequate feeling of urgency about this and that we can, in 
fact, get on with the business on a nonpartisan basis and get 
something done that will put us in a good position to handle 
this whole Homeland Security question?
    Mr. Shays. Let me respond to that. This has been remarkably 
bipartisan in terms of the whole issue of reorganization of 
government, but that's just one part of it. But in dealing with 
the sense of urgency, I don't think that the American people 
have the same sense of urgency that those who have worked in 
this area have. If you've worked in this area, you have some 
sleepless nights.
    I go sometimes to the Capitol. I look at the Capitol 
building and say enjoy the view. It's a precious view. It may 
not be there. I look at the Washington Monument and sometimes 
wonder will it be there. I think of my wife and brother who 
work in the city of Washington. I think of it in terms of the 
fact that we literally have a government in exile in 
anticipation of a potential attack on the city of Washington or 
any other city, but particularly the city of Washington. And 
that a government in exile--not in exile but in hiding in a 
protected area would be called to reconstruct our government. 
And when people were astounded that the President had done this 
and some Members of Congress, I was astounded that they didn't 
have the anticipation that would be done and it told me even 
within government there isn't this sense or recognition of the 
urgency of the issue.
    But in terms of how is the government working? Night and 
day. On the local level, on the State level, but clearly on the 
Federal level night and day people are trying to catch up to 
this new threat. So the urgency I think is not underestimated 
by most in government. I think more so by the general public.
    And one of the challenges you have is how honest are you 
with the American people. And my practice is tell the American 
people the truth about how you do the right thing, and that's 
why shortly after September 11th I was saying things in 
contradiction to certain things you heard from say the 
Secretary of Health and Human Services.
    For instance, when he said if we have a biological attack 
on small pockets, do we have the ability to deal with it, and 
the answer was we don't have the ability to deal with it. When 
others said, you know, there won't be an attack or a potential 
attack, I was saying I think the honest answer is that there 
could be and more likely will be. It's a question of time, not 
a question of if, and so on. But I'm pretty impressed with the 
sense of urgency at least within our government.
    Yes, ma'am, if you can state your--excuse me. Does anyone 
else want to make a comment or anything about that first 
question?
    Mr. McCarty. No, I would just echo that if people were here 
when the General said about the task force of the Governor 
putting together a coordination between all the State agencies 
and departments, especially bringing in the Department of 
Public Health, which is usually not talked about a lot in this 
area and that is critical, it has been bipartisan. It's been 
nonpartisan by us all. We will have to figure out how to pay 
for all this, but I suspect that also will be nonpartisan.
    Mr. Shays. Yes, ma'am.
    Jack, did you want to say something? I'm sorry. I 
apologize.
    Mr. Stone. I just wanted to add to the comments of both the 
Congressman and Senator McKinney, but as the ranking member of 
the Public Safety Committee, I have been greatly involved in a 
lot of these things that have transpired since September 11th, 
and was greatly impressed by two factors. One was the level of 
preparedness that this State was at prior to September 11th, 
things that we didn't even know about, and then, second, the 
urgency of which they responded and put their plans into place. 
So I think they're doing a tremendous job and I respect every 
one of them.
    Mr. Shays. Yes, Representative Boucher.
    Ms. Boucher. Just one comment because I agree with my 
representatives up in Hartford that this is definitely a 
nonpartisan issue and has been, but I am concerned on the part 
of the public's perception on what's going on at least with the 
media in Washington, that sometimes there might be the 
perception out there that a lot of plans are being held up 
because of possibly a November election, and I don't think the 
public has any patience for that any longer, and I would hope 
that no politician sets out to do that.
    Mr. Shays. Of either party. Are there any other responses? 
Do you want to make a last point?
    Mr. McCarty. There was one thing I forgot just as by way of 
example of where we are in the State of Connecticut and where 
we were prior to September 11th. Dr. Garcia, who is the 
Commissioner of Public Health, went down to Washington, DC, and 
he was the main speaker at a seminar showing the rest of the 
country the Connecticut model because it was far and away 
superior to what all of the other States are doing. So we are 
the (indiscernible).
    Mr. Shays. You've been very patient ma'am. Thank you. Your 
name, please.
    Ms. Dobson. Thank you. My name is Laurie Dobson and I'm a 
candidate for the democratic 141st District team for the House 
of Representatives.
    Mr. Shays. And what town is that in?
    Ms. Dobson. In Darien. First I'd like to just acknowledge 
Representative Shays. I think I've come away from this hearing 
with a great deal of substantive information. I didn't expect 
(indiscernible) efforts and it was very practical and 
informative as well.
    Yesterday at the Veterans' Town Hall meeting in Norwalk, 
Representative Shays justified the possible upcoming U.S. ban 
to strike on Iran based on information he said was procured 
that three or four American cities were targeted for terrorist 
attack. And my question is are any of those cities in this 
area? Can you give us any more information?
    Mr. Shays. In terms of Iraq?
    Ms. Dobson. No, in terms of you justified that there would 
be reason for a pre-emptive strike on Iraq based on the fact 
that we now have information that three or four of our American 
cities have been targeted for an attack, and I'm just very 
curious about that comment.
    Mr. Shays. And, no, you should be. We did not know in 1995, 
believe it or not, that Iraq had a nuclear program. And when 
the person in charge of the program in Iraq tried to defect, we 
didn't know who he was and we said you don't exist. He had to 
prove to our intelligence community that he actually was who he 
said he was and there was actually a program. That will send I 
think a little bit of an alarm to you that there was just a 
tremendous amount of ignorance of what was happening in Iraq.
    When we had the investigations later on as to the nuclear, 
chemical and biological programs, the investigative teams from 
the U.N. were about to certify that Iraq did not have a 
chemical, biological, nuclear program, that we were about to 
certify that they were OK. The two son-in-laws who defected 
from Iraq and went to Jordan were debriefed and they disclosed 
that one of them had actually set up a nuclear program. It was 
disclosed to the parties that this program was active, and the 
bottom line was that we then jumped in and forced Iraq to have 
to show us some sites, and, again, we were underestimating 
Iraq's ability.
    The bottom line is we believe Iraq will have nuclear 
weapons between two to 5 years and we believe that they will 
place them strategically in some part of the United States. And 
that's a little off subject of the hearing today on first 
responders, but I'm happy to respond to you about it. But we 
believe that if the President of the United States and our 
country doesn't respond to Iraq, that you will be in a 
situation in the near future where Saddam Hussein will say 
we've had nuclear weapons placed strategically in certain areas 
in some cities someplace in the United States.
    And so the whole issue of dealing with a terrorist threat, 
unlike the cold war, has an element of pre-emption, and so that 
was the basis for it.
    Ms. Dobson. Just this question. Has everything been done as 
far as preparedness if you do have any information that these 
targeted areas could be in our vicinity?
    Mr. Shays. Yeah, we don't know where the targeted areas 
are.
    Ms. Dobson. Thank you.
    Mr. Shays. Thank you.
    Go ahead.
    Mr. Carneglia. Yes, sir. My name is Walt Carneglia. I'm a 
resident of Norwalk.
    I've had some firsthand experience having done 4 years in 
Viet Nam. One of the things that I heard today constantly was 
about training. For the past 3 years I've been getting mostly 
Internet training from FEMA, from the Department of Justice, 
from the U.S. Fire Academy. There's a tremendous amount of 
information out there. You just have to ask for it.
    I've taken dozens of CDC courses. I'm currently in a FEMA 
Incident Command course, title course, which they called me for 
a few weeks ago, which is an interactive course that I'm doing 
on-line. So there's a lot of training out there, but it's real 
fragmented and you have to work real hard to find it.
    I'd like to hear some comments because I noticed there was 
no one here from the Department of Justice, and they have a 
tremendous amount of resources. I've taken courses at six 
different colleges on-line that are all from grants from the 
Department of Justice.
    And my final question is for somebody on the board here. 
Just before I came here, I logged onto the Homeland site for 
the Citizen Corps and I had volunteered for the community 
emergency response team approximately 6 months ago. There has 
been nothing in the State of Connecticut. If you go to the 
site, we don't have a coordinator there. There is nobody to 
contact for volunteering. They're supposed to be contacting us. 
Nothing has happened. So that's my main question.
    Mr. Shays. Can anyone respond to that? Thank you, sir.
    Captain Buturla.
    Captain Buturla. Mr. Chairman, the Citizen Corps is 
something that is relatively new in FEMA. Tomorrow 
(indiscernible) sitting right behind me is going to Boston--or 
I'm sorry, to Massachusetts for a regional meeting regarding 
Citizen Corps. Representatives from throughout the country are 
coming to that meeting, and the purpose of that would be to lay 
the framework upon which Citizen Corps can be built. There are 
some States that are ahead of us. It is our division that has 
the responsibility for Citizen Corps.
    So the only thing that I would say to you is be patient. We 
will have a Citizen Corps up and running hopefully fairly soon. 
Mr. Craig has been very supportive in helping us in this matter 
and----
    Mr. Shays. You know what, get this gentleman's name and 
then see if, in fact, you get information from the Federal 
Government as to who--if he's on that list, and I'd like to 
know the answer to that.
    So you basically registered----
    Mr. Carneglia. Yes, I am registered with the--on the 
Homeland Security site.
    Mr. Shays. OK. He's registered. I'd like to know and if you 
can let our committee know if in the course of this work--if 
not tomorrow, the next day, but as you start to then get these 
lists, was he on it, and it would be interesting for us to then 
backtrack and see if, in fact, others are getting lost.
    I'm delighted with your question. You made another question 
earlier about----
    Captain Buturla. Training?
    Mr. Shays. Training, yes.
    Captain Buturla. I can address some of that. We learned a 
lot. We've--this State was unfortunately the target of the 
anthrax case. We learned from that we had some people at a 
certain level of preparedness and certain level of training. We 
have also learned that the need for training for first 
responders is there. It's there more than ever. We are in the 
process of bringing a consultant in to help us develop a 
curriculum.
    We have also been working with the law enforcement 
perspective, the Police Academy to set up a block of training 
for first responders in the law enforcement community. We then 
contacted the Fire Academy and have some input into what 
programs they are running as long as they fall into the 
terrorism type of realm.
    Mr. Shays. Do you have a comment?
    Mr. Craig. First on training, one of the aspects as part of 
the Department of Homeland Security is to bring all the 
terrorism training that is spread across numerous Federal 
agencies under one Federal agency, one department. FEMA was 
responsible for giving a report to Congress on all the 
different agencies that have terrorism training and evaluating 
all these training programs. In that report it is shown that 
those training sessions are spread out across too many Federal 
agencies and that it would help to have it under one 
department. In evaluating that, if maybe the Department of 
Justice, FEMA or the Public Health Service had the same type of 
training, let's coordinate it and have that one class for three 
different Federal agencies so that people out in the general 
public have one place to go to find training sessions.
    As far as Citizen Corps, Citizen Corps, as you know, was an 
initiative by the President started earlier this year. The 
groundwork for Citizen Corps has been started with the States, 
and starting out with identifying points of contact, which the 
State of Connecticut has done. But the funding for Citizen 
Corps and Community Emergency Response Teams was in the 
supplemental program, which we're waiting for the signing of 
that bill. So the funding for that hasn't come out yet.
    Mr. Shays. That's very helpful. I'm really happy you made 
the point with your question because that's important.
    Do you want to make a comment?
    Ms. Boucher. Yes. And, Mr. Craig, I'm not talking about 
Citizen Corps, but about the actual training on-line with 
regards to terrorism. Do you screen the applicants to a course 
like that for security reasons?
    Mr. Craig. They do have to fill out a form. Most of our 
training programs you have to be a U.S. citizen to take. I'm 
not sure exactly how that form works because I haven't done it 
on-line.
    Mr. Docimo. Can I speak on that issue?
    Mr. Shays. Sure. But go ahead and finish. He interrupted 
you. Please finish.
    Mr. Craig. But I'm not part of that committee or 
department. That's done out of the U.S. Fire Administration. 
It's part of FEMA, and they control all of those programs.
    Mr. Shays. Did you want to say something?
    General Cugno. On training again, in addition, the Justice 
Department provides to on-line subscribers--you can print the 
catalog of more than 100 courses that are available, the 
courses that you subscribe to and take the course on-line that 
are available. They're available to municipalities. That is 
handled by individuals from the Domestic Preparedness branch 
and it is likely to be in this reorganization because this 
division is going to be part of Homeland Security.
    Mr. Shays. Thank you. Did you want to make a comment, 
Frank?
    Mr. Docimo. Yes.
    Mr. Shays. Just state your name again for the record.
    Mr. Docimo. It's Frank Docimo.
    At the National Fire Academy there's actually programs that 
we do not let out on-line. There's self-study guides that FEMA 
participates in. The National Fire Academy participates in 
those. But on the tactical consideration level for EMS, HazMat 
and company officers, we do not let that out unless we 
physically have the person there. There is some sensitive 
materials that relates to not only tactical considerations, but 
to implementation that we kind of hold a little closer.
    Mr. Shays. Thank you.
    Sir.
    Mr. McNamara. My turn?
    Mr. Shays. You were the first to raise your hand and----
    Mr. McNamara. Well, that's all right. I'll be patient. Do I 
sound all right?
    Mr. Shays. What's your name?
    Mr. McNamara. My name is Edward McNamara. I just kind of 
represent myself, but there's a couple of things that occurred 
to me when I heard this forum.
    A few years ago I worked for a company that had a northeast 
contract for remediation of military bases and I was on one of 
the teams with a bunch of other people for the emergency 
response team for the Environmental Protection Agency. We did a 
lot of remediation on Superfund sites. But I had to sign 
something that said I have a passport and I have a packed bag 
and I'll go anywhere in the world in 2\1/2\ hours. I don't know 
if that still exists.
    At that time, and this was about, oh, gosh, maybe about 6, 
7 years ago, we were also told that we were the first 
responders. I think this is what is changing. At that time we 
were told we had the authority to tell the police and/or fire 
and everyone else get out of the area, you know, let us--
containment was the primary issue of a spill, primarily a 
spill.
    But what that made me think of is you have to readdress 
this issue of PPE, personal protective equipment. If it's 
dealing with the Levels A, B and C and if they still are tie-
back saran and the blue acid suits, we used to call them, which 
had a self-contained breathing apparatus, which you needed 
training in each and every one of those, those suits are so 
cumbersome, awkward, prone to rip, tear. They do not lead to 
manual labor of any sort or any quick or ready response. 
They're archaic. They're really sort of dangerous. If anyone 
here has tried them, this fellow over here may have, you know 
that they've gotta be modernized and redesigned with more 
modern technologically advanced fabrics that will, you know, 
allow people to be protected but also work effectively and not 
worry about punctures, rips, tears. I don't know if you would 
agree. But----
    Mr. Shays. One last comment. Do you have another comment?
    Mr. McNamara. Yeah, I mean, it's just, you know, these 
things have gotta be done. And you do need a mobile CRZ, a 
contamination reductions zone. Everything should be ready and 
ready to go.
    And also I do think--when I watch some things on TV, I was 
really kind of surprised. I think we gotta start thinking and 
get somebody in that has some technological advanced abilities. 
For a man-machine, heavy equipment interfaces that, you know, 
allows people to have like a two-armed excavator instead of 
fumbling with a one-steel girder. You should operate by arm and 
pick it up and move it. And I think a lot of these things could 
be done rather quickly with a concentrated effort.
    Mr. Shays. Thank you very much.
    Mr. McNamara. Thank you.
    Mr. Shays. We appreciate it.
    Do we have any other comments? Sir, do you want to finish 
this up? Is this the last? OK.
    And, again, I would like to thank Rosa DeLauro's office for 
being here. Would either one of you from her office like to 
make a comment? You're all set?
    Unidentified Speaker. (Indiscernible.).
    Mr. Shays. Thank you. And I'm assuming--do we have their 
names? Yes.
    Mr. Michelsen. My name is Lieutenant Mike Michelsen. I'm a 
member of the Wilton Fire Department and also the Fairfield 
County HazMat Unit.
    Mr. Shays. A little louder.
    Mr. Michelsen. I appreciate all the time that we spent 
today on these important issues. A lot of people have 
summarized, but from the fire service today and in their 
relationship with FEMA, I think it's very important to maintain 
a position that the Fire Act remain a separate item.
    You also asked about priorities and you wanted an order. 
Communications and training have been spoken about endlessly 
and they are, in fact, the ultimate priorities. There are 
logistical considerations to getting the equipment to us, but 
without the training to become comfortable with the equipment 
and to be able to maintain it, the efforts would be in vain.
    On the issue of communications, even though the State has 
home rule, there are two things in place in this State. There's 
enabling legislation under Public Act 01117 and there is also 
an inter-local agreement under State Statute 7339E, which 
enables municipalities to contain their interests to improve 
their operational effectiveness.
    Now, with the issue of communications, right now all the 
jurisdictions are hard pressed with the desire to communicate, 
but limitations are a capital resource. What would be desired, 
and has been discussed by us in great detail, is the desire to 
have Federal money and/or State money utilized to create a 
coverage for the capital expenditure. It becomes an ongoing 
expense to maintain the facility, but right now we're not 
comfortable with the economic circumstances in the 
municipalities to successfully lobby for the communications.
    It's nice to hear that we're going to get two 800 megahertz 
radios, but the realities are we know as professionals that 
this will give us the ability to have one line of 
communication. It will not allow us to operate. All of this 
requires additional frequencies, to say nothing of the 
dispatcher for the ITAC and ICAL.
    Those issues are what I feel is most important and I 
appreciate the opportunity to leave them in the closing 
emphasis. Thank you.
    Mr. Shays. Thank you. We appreciate the opportunity to hear 
you, sir, and I'd like to end there. Unless we have anyone 
else, I would like to end with your fine service. Thank you 
very much. Your contribution.
    I'm going to say again that I'm very grateful to this panel 
for staying the distance and listening to everyone else and 
appreciate deeply your contribution, all five of you. Thank you 
so much. This hearing--and I thank Bill, President Schwab, 
for--where is he?
    Mr. President, thank you very much for the opportunity to 
use this--I like saying Mr. President. I think I'm in the 
president's presence. And I would like to thank the clerk, or 
the transcriber for her incredibly fine work and her patience 
with us and her diligence. Thank you very much.
    This hearing is adjourned.
    [Whereupon, at 5:45 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
